Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





NATIONAL DRG VALIDATION STUDY

  UPDATE: TECHNICAL REPORT





              AUGUST 199

                        OFFCE OF INSPECfOR GENRA

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95­
452, as amended , is to protect the integrity of the U. S. Department of Health and
Human Servces (HHS) programs as well as the health and welfare of beneficiaries
served by those programs. This statutory mission is carried out through a nationwide
network of audits , investigations , and inspections conducted by three OIG operating
components: Office of Audit Servces (OAS), Office of Investigations (01), and Offce
of Evaluations and Inspections (OEI). The OIG also informs the Secretary of HHS
program and management problems and recommends actions to correct them.

                           OFFCE OF AUDIT SERVICE

The OAS provides all auditing servces for HHS , either with its own resources or by
overseeing work done by others. Audits examine the performance of HHS programs
and/or its grantees and contractors in carrng out their respective responsibilties.
Audits provide independent assessments of HHS programs and operations in order to
reduce waste , abuse , and mismanagement; and to promote economy and effciency
throughout the Department.

                           OFFCE OF INTIGATIONS
The 01 conducts criminal , civil , and administrative investigations of alleged
wrongdoing in HHS programs or to HHS beneficiaries , and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions , administrative
sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud control
units which investigate and prosecute fraud and patient abuse in the Medicaid
program.

                 OFFCE OF EVALUATION AN INSPECfONS

The OEI conducts short- term management and program evaluations (called
inspections) that focus on issues of concern to the Department , Congress , and public.
The findings and recommendations contained in these inspection reports generate
rapid , accurate , and up- to- date information on the efficiency, vulnerabilty, and
effectiveness of departmental programs.

BOTEC Analysis Corporation prepared this report under the direction of Janet
Wilson Knight. Contract information and project participants appear in appendices
and 2.
Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





NATIONAL DRG VALIDATION STUDY

  UPDATE: TECHNICAL REPORT





         AUGUST 199 OEI- 12-89-191

                EXECUTIVE SUMMAR 

 PUROSE
 This inspection reabstracted the International Classification of Diseases
                                                                               , 9th Edition
 Clinical Modification (lCD- CM) codes from a sample of Medicare discharges on a
 blinded basis. It compared the resulting diagnosis-related group (DRG) to the
 hospital's DRG to determine over-reimbursement or under-reimbursement. . The
 sample was nationally representative and covered all of calendar year 1988, the most
 recent data available.

This study updates a previous inspection from the Offce of Inspector General (OIG).
It found that 20. 8 percent of 1985 Part A bils contained coding errors that changed
the DRG and that 61.7 percent of these errors over-reimbursed the hospitals. This
improper DRG " creep " increased total prospective-payment system (PPS)
disbursements by 1.9 percent or $308 milion.

FIINGS
DRG coding error reduced : 14. 7 percent of 1988 discharges had DRG coding errors.
This proportion of coding errors was statistically significantly lower than the 20.
percent reported for 1985.

DRG creep eliminated: 51 percent of DRG errors over-reimbursed the hospital and
49 percent under-reimbursed the hospital.

DRG coding errors. overall. no longer over-reimburse hospitals : Taken together, 1988
DRG errors had the net financial effect of under-reimbursing all hospitals a
statistically non-significant $69. 8 milion , or 0. 1 percent of the $52 bilion in 1988 PPS
disbursements. Projected nationally" over-reimbursements totaled $2 657. 8 milion and
under-reimbursements totaled $2 588. 0      bilion.


Mis-specification errors under-reimbursed the hospitals : Of the 361 DRG errors in the
sample , 63. 2 percent occurred because the attending physician mis-specified the
narrative diagnoses. Of these 227 mis-specification errors , only 43. 2 percent over-
reimbursed the hospitals. The statutorily-required attestation probably reminded
physicians of their obligation to select accurate narrative diagnoses.

Resequencing errors over-reimbursed the hospitall : Of the 361 DRG errors in the
sample , another 26. 6 percent occurred because the hospital substituted a secondary
diagnosis for the (correct ,   narrative) principal diagnosis.   Of these 96 resequencing
errors , 66. 7 percent over-reimbursed the hospitals. The sentinel effect of the Peer
Review Organizations surveilance apparently did not fully prevent over-
reimbursement due to resequencing.
REMMATIONS
    The Peer Revew Organtions should contiue their sureilance of hospita
    cog   for DRG reimbmsement accmacy.

   The attestation requirement appears to have deterred over-reimbursement due to
   mis-'specifcation by attendig physicians , causing their hospitals to be under-
   reimbursed. However, the sentinel effect did not fully prevent over-reimbursement
   due to resequencing by hospitals. Although these two trends approxiately offset
   each other, this equilbrium may not continue in the future.

   The Agency for Health Care Policy Research plans to reabstract the ICD-
   codes from a large sample of Medicare charts to determe their diagnostic
   accuracy for health servces research purposes. Using 1991 data
                                                                   , grouping these
   ICD- CM codes to DRGs , and selecting reasons for any diferences would provide
   a third time point with which to track trends in reimbursement accuracy. The OIG
   supports this effort.

AGENCY     COMM
In its May 29, 1992 comments to the draft of this inspection , the Health Care
Financing Agency (HCFA) concurred with the OIG recommendation. The HCFA
noted that the improvement in DRG coding accuracy may be attributable to increased
hospital experience with PPS , PRO review, and HCF A educational efforts.

The HCF A also made a number of technical comments. Based on these comments
the OIG made several changes to this report. The full text of the HCF A comments
appear as an appendix.
                                       .............................................
                                                                     -                               .. ...... ... .. .. ..... ...........
                                                                                             .....................
                                                               . . .. .. .. ...................................
                                                 . . . . . . . ..........                                                               ................. ... ...................................
                                                                        . ... ... ... ... ... ...................... .... .... .... .... ... .... ... ... .
                                                                     . ..
                        .. .. .. .. .. .. .. .. .. ... ... ... ... "..                                                                                                                          .. .... ... .. ...
                                                                                                                                                                                                                ..
                                                                                                                                                                                                                 ..




                        TABLE OF CONTENTS

     EXECUTIVE SUMMAY. . .                                                                                                                                                                                            iii

     TABLE OF CONTENTS

     INODUCfION
           ORIGIN OF TH PRESENT STUY
           1983- 1988 GROUPER CHAGES

           PAYMNT ISSUES

           METHODOLOGY

                 SAMPLE DESIGN. . . . .
                 DATA COLLECTION
                 DRG REABSTRCTION ..............................                                                                                                                                                      6
                 ANALYSIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
           REPRESENTATIVNES ..................................                                                                                                                                                        9


     FININGS. .
           DRG CODING ERROR REDUCED
           EQUAL NUMBERS OF DRG ERRORS OVER-REIMBURSE AND
           UNDER-REIMURSE. .
           DRG CREEP ELIMINATED
           DRG OVER-REIMURSEMENT ELIMINATED
           MIS- SPECIFICATION UNDER- REIMBURSES , WHILE
           RESEQUENCING OVER- REIMURSES
           CERTAI DRGS ARE MORE SUSCEPTIBLE TO ERROR.                                                                                                                                 ..
     RECOMMNDATIONS

     ENDNOTES

1: Contr
     Appendix

     Appendix 2: Project participants

     Appendix 3: Calculation formulas

     Appendix 4: Representativeness of selected discharges, 1988

     Appendix 5: Nonresponses                           , 1988 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




     Appendix 6: Proportion of DRG coding errors by hospital demography, 1988.

     Appendix 7: Proportion of DRG coding errors by patient demography, 1988
                    .. ... .. ... ...............                                                                  .....................
                                                                                                                        . . . . . . . . . .............
                                                                                                                                          . . . . . . . ... ...
            . . . . . . . . . . . . . . . . . . . . . . . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. ............... ...        .. .. ......




Appendix 8: Interaction potential by hospital and patient demography, 1988 .


Appendix 9: Projected national CMI before recoding by hospital demography,
 1988




Appendix 10: Projected national CMI before recoding by patient demography,
 1988 . . . . . . . . . . . . . . . . . . .


Appendix 11: Projected national CMI after recoding by hospital demography,
 1988 ... 


Appendix 12: Projected national CMI after recoding by patient demography,
 1988 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 


Appendix 13: Mean CMI change by hospital demography, 1988 . . . . . . . . . . .


Appendix 14: Mean CMI change by patient demography, 1988 ...........


Appendix 15: Mean reimbursement change by hospital demography, 1988                                                                                                ...


Appendix 16: Mean reimbursement change by patient demography, 1988 . . . .


Appendix 17: Number of bils by hospital demography,                                                                                   1988 


Appendix 18: Number of bils by patient demography, 1988 . . . . . . . . . . . . . .


Appendix 19: Projected reimbursement effect by hospital demography, 1988 .


Appendix 20: Projected reimbursement effect by patient demography, 1988 . .


Appendix 21: DRG frequency, error frequency, and error proportion by

proportion of errors                    , 1988 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 





Appendix 22: Mean weight, dollar change , and estimated national financial

effect by DRG , 1988 . . . . . . . . . . .


Appendix 23: HCFA comments. . . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . .
                            INTRODUCTION

  Since the inception of the Medicare program , health care expenditures have grown
  faster than the rest of the economy, and the Medicare program has grown even faster
  than general health care expenditures. The need for innovative reimbursement
  policies and their evaluation has become critical to medical communities , beneficiaries
  and payers of the Medicare program.

  ORIGIN OF TH PREENT              STUY
  Since 1965, Medicare has provided hospital and medical insurance to the nation
  elderly and disabled. However, rapidly escalating health care costs coupled with a
  rise in the proportion of the population eligible for Medicare have burdened its
  hospital insurance trust fund (Part A). Health care costs accounted for 7.4 percent of
  the gross national product in 1970 , 9. 1 percent in 1980, and 10. 9 percent in 1986. In
  1970, Medicare paid 8 percent of all health care costs , but by 1986 Medicare
  proportion increased to 17 percent.



  In 1983 Congress changed Medicare inpatient reimbursement from a retrospective
  reasonable-cost basis to a prospective-payment system (PPS). 3 Under the PPS
  hospital payments depended upon the patient' s diseases and procedures as defined by
  the International Classification of Diseases ,
                                            9th Edition , Clinical Modification (ICD­
  CM). 4 The PPS "grouped" various combinations of the approxiatel         OOO ICD­
  CM codes into 470 (currently 476) diagnosis-related groups (DRGs). llO By reimbursing
 the average cost of care for each DRG, the PPS provided incentives for efficient
/ delivery of health care. The Veterans Administration Medical System Resource
. Allocation Method emulated this change.


 A hospital fies a claim for Medicare payment at the time of patient discharge. The
 attending physician writes the narrative diagnoses and procedures on the face sheet;
 and attests to the principal diagnosis, secondary diagnoses , and any procedures. The
 hospital' s medical records department then assigns numeric, ICD- CM codes to the
 narrative diagnoses and procedures , using the rules of the Uniform Hospital Discharge
 Data Set (UHDDS), " a minimum data set used by HHS programs to collect data on
 individual hospital discharges on a continuing basis. "6 The hospital's billng
 department enters up to five diagnoses and three procedure codes on the Medicare
 claim form. A Fiscal Intermediary (FI) receives the hospital bils for each State.
 runs GROUPER software to select the correct DRG by assessing diagnosis and
 procedure codes. It then runs PRICER software that adjusts for geographic location
 teaching costs , and other factors to calculate the payment due to the hospital.

 Since 1976 the Office of the Inspector General (OIG) has had responsibilty for

 protecting the integrity of the programs and program beneficiaries of the U.

 Department of Health and Human Servces (HHS). 7 Following this statutory

 mandate , the OIG commissioned the 1985 National DRG Validation Study (1985

 Study), which examined how the processes that assigned diagnosis and prQcedure

codes affected the accuracy of PPS reimbursement for Medicare discharges. s The
1985 Study analyzed a representative , national sample of medical records to obtain
information on the accuracy of the diagnosis and procedure coding, the impact of
coding errors on DRG assignment , and the potential net financial impact of coding
errors. It also assessed the appropriateness and quality of the servces provided to
Medicare patients.

The 1985 Study found an overall error proportion of 20. 8 percent in assigning DRGs.
In 61.7 percent of the errors , the hospitals over-reimbursed themselves. Physicians
mis-specification of narrative diagnoses and hospital biling departments ' resequencing
of diagnoses caused most errors. These errors caused $308 milion in overpayments to
hospitals , 1.9 percent of 1985 PPS reimbursement.

The Health Care Financing Administration (HCF A), as the payer of the Medicare
reimbursements , made the following points in commenting on the 1985 Study.

   The PPS started in 1983. The 1985 Study data covered FY 1985. Physicians
   hospital coders , and Peer Review Organizations (PROs) needed a longer learning
   period to adjust to the new payment and quality monitoring system.

   The 1985 Study appeared in 1987 ,so that its conclusions derived in part from
   information and coding conventions that had undergone updating by that time.

   The HCF A and hospital associations recently had begun to conduct training
   seminars for hospital personnel. The HCF A therefore expected that coding errors
   would decrease over time.

To examine these trends , the OIG initiated this follow-up project , implemented
through contracts with the Health Data Institute (HDI) of Lexington, Massachusetts;
American Medical Records Association (AMRA) of Chicago , Ilinois; and BOTEC
Analysis Corporation (BOTEC) of Cambridge , Massachusetts using 1988 data. This
DRG Validation Study Update (1988 Study) had the purpose of determining how the
PPS' s coding accuracy changed over time. The OIG designed this inspection to meet
the followig objectives.

   Replicate the 1985 work on coding accuracy, using 1988 data.

   Compare the findings from 1985    and 1988.

   Identify patterns of coding errors that PPS changes could   modify.

As in the previous study, this inspection assessed how coding errors affected hospital
reimbursement and identified the coding problems most subject to error. It evaluated
hospital and beneficiary characteristics for their relative contribution to DRG errors.
  198- 1988 GROUPER CHGES
  The HCF A annually updates the taxonomy by which the ICD- CM codes group to
  DRGs. lO 11 1213 14 15 16 17 It seeks to improve the GROUPER' s fairness
  without a negative effect on patient quality of care. The adjustments respond to
  comments and suggestions from providers and administrators who work with the PPS
  in the field. The HCFAadopted the following major changes to the GROUPER from
  1985 to 1989.



  DRG 471 (majQLnt procedures) : In FY 1986, the HCFA created DRG 471 to
  include bilateral multiple major joint procedures.

  DRG 433- 438 (alcohol and drug a      : In FY 1986 , the HCF A completely
  reclassified these DRGs and dropped DRG 438. The exclusion of drug and alcohol
  treatment facilties from the PPS ended as of FY 1988 (October 1 , 1987).

  HIV codes : In FY 1986, the HCFA incorporated the newly created ICD- CM codes
  for HIV. This disease formerly fell into ICD- CM diagnosis code 279. 19 (other
  deficiency of cell-mediated immunity) which grouped to DRGs 398 and        399 (immunity
  disorders). Mter   1986, AIS grouped to infectious disease DRGs.

  DRG 385 (newborn transfers) : In FY 1987, the HCFA reclassified DRG 385

  (neonates , died or transferred) so that it applied only to transfers to another acute

  care facilty.


  DRG 472 (burns) : In FY 1987, the HCFA changed DRG 457 to " extensive burns
. without an operating room procedure " and created DRG 472 for " extensive burns with
  operating room procedures.

  DRG 473 (leukemia) : In FY 1987 , the HCFA removed acute leukemia cases in
  patients over age 17 from DRGs 401- 405 and placed them in the new DRG 473.

 Age over 69 : In FY 1988 , the HCF A eliminated " age over 69" as a criterion in all of
 the DRG pairs in which " age over 69" and/or complication-comorbidity (CC) was a
 factor. The HCFA continues to use " age under 18" in certain pediatric DRGs and to
 use "age   35" in DRG 294 (diabetes) and " age 0- 35" in DRG 295 (diabetes).

 DRG 103    (heart transplant) :   This DRG did not have a relative weight assigned until
 FY 1988.
 DRG 474 and DRG 475 (ventilators) : In FY 1988, the HCFA created DRG 474
 (respiratory system diagnosis with tracheostomy) and DRG 475 (respiratory system
 diagnosis with ventilator support) to separate the resource intensive ventilator cases
 from other respiratory DRGs.
    Complication-comorbidity exclusions : In FY 1988, the HCF A implemented the
    exclusion list for complications and/or comorbidity, which is based on the principal
    diagnosis. The HCFA has made changes to this list each year.

    DRG 468 (unrelated operat ng room procedures) : Each year, the HCFA has further
    refined this DRG by assigning more of its procedure codes to other specific DRGs.
-   FY 1989, two new DRGs were created in order to split DRG 468 even further: DRG
    476 (prostatic operating room procedure unrelated to principle diagnosis) and DRG
    477 (non-extensive operating room procedure unrelated to principle diagnosis).

    Surgical hierarchies : Every year, the HCF A examines the surgical hierarchies for the
    GROUPER computer software logic and makes numerous changes.

    Each year, the relative weights change to reflect alterations in resource consumption
    coding, surgical hierarchy, and further DRG refinements. The HCFA presently tends
    to expand the DRG list with more specificity in each DRG. This taxonomic splitting
    allows the providers and hospitals to account for resource utilzation more accurately
    rather than averaging high andlow utilzation conditions in the same DRG, but at the
    cost of greater reimbursement complexity. The OIG has a more detailed description
    of GROUPER changes that it will supply upon request.

    PAYMNT ISUE

    The 1985 Study alludes to two probable sources of DRG coding error: random human
   error and systematic bias inherent to the coding system. First , error occurs naturally
./ in every human endeavor. Presumably, over the PPS' s five years of operation , general
. knowledge of     the coding process increases and the overall error rate decreases.
    Whether due to time pressure or want of education , any human coding errors should
    occur stochastically, not favoring either the hospitals or Medicare. However, the 1985
               1S 19 "
    Study finds intentional "gaming " or manipulating the coding process , not random
    variabilty.

    Second , the DRG coding system may have inherent contradictions that make errors
    and inaccuracies inevitable. Certain DRGs or their underlying ICD- CM codes have
    high frequencies of coding error. For example, DRG 99 (respiratory signs and
    symptoms) has a high error rate because of it lacks a definite diagnosis and represents
    a cluster of symptoms. The DRG system may "build in" this
                                                                  tye of variation.
    In addition ,some commentators propose modifyng the PPS to adjust for severity of
    ilness. 20 This modification measurement would increase the precision with
                                                                               which
    relative weights model actual resource consumption. However, unpublished data
    submitted to the HCF A indicates that severity reduces DRG variance by only one-
    third. In addition , collecting sufficient clinical data to quantify severity imposes
    significant transaction costs.
  The PPS could also systematically overpay or underpay certain classes of hospitals.
  The most complicated and resource-intensive procedures , such as organ transplants
  are rarely scheduled in small , nonmetropolitan hospitals. They therefore have no
  opportunity for the substantial reimbursement (or under-reimbursement) that
 accompanies such servces.    Conversely, medium-sized hospitals may attempt such

 procedures but with relative inefficiency compared to the higher volume at large

 metropolitan , teaching hospitals.


 MEODOLOY
 The 1988 National DRG Validation Study Update used essentially the same methods
 as its predecessor study.

 SAPLE DESIGN

 The initial study population consisted of the 10. 8 milion Medicare funded discharges
 for calendar year 1988 from the 6 715 acute care , short-stay hospitals in the United
 States. 21 The design then excluded discharges from specialty institutions such as
 children s hospitals , tuberculosis units , and psychiatric facilties. It also excluded
 discharges in Maryland and New Jersey, which were stil exempt from the PPS in 1988.
 It covered final bils only, omitting interim bils. It excluded bils for pediatric
 obstetric, and psychiatric DRGs (principally drug and alcohol rehabiltation performed
 by a general hospital). Unlike its fiscal year (FY) 1985 predecessor, it included
 hospitals established since the advent of PPS in 1983.

/ The HCF A required two quarters following the close of a year to accumulate bils
 paid by its fiscal intermediaries and combine the reimbursement data into computer
 files. This administrative data consolidation imposed a continuous lag on the
 availability of information defining the study population. Accordingly, billing data for
 CY 1988 became available in the middle of 1989.

 The 1988 National DRG Validation Study Update used a two-step, non- clustered
 sampling procedure. The first step selected all bils whose Health Insurance Claim
 (HIC) numbers terminated in 95 , a one percent , simple , random sample (SRS) of all
. Medicare biling records for calendar year (CY) 1988. The OIG screened out interim
  bils , exempt States , non-acute care hospitals , and nongeriatric DRGs as described
  above (n=88 455). Starting from a random seed , the second step systematically
  sampled lout of every 33 of the biling records selected in the first step for a final
  sample size of 2 680. This process resulted in a self-weighting SRS. Oversimplified
  each sample biling record represented 3 300 biling records in the total population of
 biling records.



 These discharges came from 1 744 hospitals , 26. 0 percent of the acute care , short-stay
 hospitals that accept Medicare patients. The hospitals represented 47 of the 54 States
 or other jurisdictions (District of Columbia , Puerto Rico , Guam, Virgin Islands) that
 the HCF A recognizes. Since there was no stratification or clustering, most hospitals
 ..




      contributed only one discharge to the sample. No hospital contributed more than nine
      discharges.

      DATA COLLCTON

      The OIG ran SAS on the HCF A' s mainframe ffM 3090 to sort the sample by HCF A
      hospital identification numbers and match-merge the sample with the HCF A fie of
      provider addresses. It then used WordPerfect software running on a Zenith Z-248
      personal computer to produce mailng labels and "personalized" letters from the
      resulting address fie.   Each letter requested that the hospital's medical records
      department send complete copies of the sampled medical records to the OIG'
      contractor, HDI. Each mailng included a franked , addressed envelope and promised
      to reimburse the hospitallOC: per page for its copying costs. The OIG made
      additional mailngs and the HDI made follow up telephone calls to those medical
      records departments which did not provide the requested records. Although phrased
      as a request , all contacts communicated that hospital participation was mandatory.

      The majority of hospitals promptly supplied the requested medical records. Four
      hospitals declined to participate as requested , so the OIG issued subpoenas compellng
      their cooperation. Medical records departments could not provide 229 sampled
      records principally because they were missing, destroyed , or otherwse physically
      unavailable.

  The OIG contracted (HHS- 100- 86- 0054) with the HDI to log-in and secure the
  arrving medical records. The HDI matched medical records to the sample biling
/ records , checked medical records for completeness and legibilty, inserted each
. medical record in an individually labeled folder, and counted the pages to be
  reimbursed. It also followed up incomplete medical records and handled similar
  administrative obstacles.

  Unfortunately, a change in ownership and reorganization of Baxer, the parent
  company of the HDI, delayed some payments to hospitals. Although both the HDI
  and this contract apparently garnered profits for the parent , Baxer elected to disband
  the HDI for insuffcient profitabilty. The HDI ceased operations prior to completing
  its contracted tasks , compellng the government to terminate the HDI contract for
  default.

 DRG RESTRCTON

  The HDI transmitted the accumulated records to the AMRA. The OIG separately
 contracted (HHS- 100- 89- 0022) with the       AM to reabstract the ICD- CM codes
 supported by the medical record , select the principal diagnosis , and group to select the
 DRG. To ensure that the original ICD- CM codes and DRGs did not affect the
 AMRA' s reabstraction , the AMRA coders conducted this reabstraction without

 knowledge of the original ICD- CM codes and DRGs. The AMRA also                  identified

  the reasons why a hospital's bil differed from the correct codes. Finally, it entered its
  reabstracted codes into a personal computer database provided by the OIG.

  As the credentialing body for medical records practitioners the AMRA had expert
  knowledge of coding intricacies and access to nationally recognized RRA (Registered
  Records Administrators) and ARTs (Accredited Records Technicians) who were
  experienced ICD- CM coders. Unlike most other organiztions that employed expert
  coders , the AMRA was (and is) independent of the hospital industry. The
  used the offcial HCFA GROUPER softare (3M' s Codefinder) to determine the
  DRG for each reabstracted record. The     AM      compared the DRGs that Codefinder
  produced from the reabstracted ICD- CM codes with the DRGs supplied by
  providers and noted the results of these comparisons in the database.

  An RRA who was a nationally recognized expert in ICD- CM coding and who had
  not participated in the initial reabstraction reviewed all records where the AMRA
  DRG differed from the provider DRG. The AMRA then grouped the revised codes
  and made the appropriate changes in the database. The OIG also contracted with a
  physician with current knowledge of coding and cliical issues (SA- 90- 0633) to identify
  the principal diagnosis , secondary diagnosis , and appropriate procedures in cases
  where the resultant DRG differed from the provider s DRG (whether the same as the
  initial AMRA coder or different from both the initial AMRA coder and provider).

  An RRA who had not been involved in the initial reabstraction and coding or the
  expert review compared all records reviewed by the physician to the provider s data
 . and the AM' s data. Where the physician had agreed with the AMRA the
/ did not change the database. Where the physician had agreed with the provider and
. provided additional information overlooked by the   AM    or provided special insight
  with which the third RRA agreed , the AMRA changed the database to reflect the
  codes of the DRG of the provider. Where the third reviewer was not convinced that
  there should be a change from the AM' s coding and DRG assignment , the OIG
  medical officer reviewed the case arid made a final determination. The
  entered this determination as the final code and DRG determination.

 The AMRA also classified every coding error as mis-specification , miscoding,

 resequencing, or " other. " The AMRA entered its coding selections into a series of

 database files. Its small personal computers could not hold all its coding output at

 once. Computer experts from the OEI's office in Region V helped the       AM set up
 and maintain the databases. Upon completion of the AMRA reabstraction and data
 entry, the OIG- OEI- Region V office off- loaded the fies for transmission
 headquarters.

 ANALYSIS

 The OIG contracted with BOTEC (HHS- 100- 90- 0023) to analyze the results of

 AMRA' s reabstraction of ICD- CM codes and DRGs. BOTEC has extensive

 experience in the statistical analysis of reabstracted data. It has conducted such

  analyses for OIG on several previous occasions (HHS- 100- 89- 0019, HHS- 100- 88- 0019
  HHS- 100-88- 0624). BOTEC' s work in this area has included the processing of medical
  records, the construction of r abstraction databases , the statistical analysis of
  reabstraction data , and policy analysis.

 The OIG provided BOTEC with a SAS data set containing merged biling records and
 the AM    reabstraction data. The OIG also provided BOTEC with a spreadsheet
             DRG weights for all DRGs for the years 1985 through 1989. Finally,
 fie containing
 the AMRA provided BOTEC with an updated set of reabstraction data and billng
 record data that contained additional information.

 BOTEC match-merged these three data sets into one comprehensive SAS data set.
 At this point BOTEC constructed simple frequency distributions of all variables and
 cross- tabulations of certain pairs of variables to examine the data set for incorrect or
 inappropriate codes and/or    logical inconsistencies. All such ambiguities were resolved
 or corrected in consultation with the OIG.

  BOTEC then used SAS to create several additional variables that the current analysis
  required. These variables include exact age of patient at the time of admission
  change in DRG weight as a result of reabstraction , location of provider (metropolitan
  if in an Standard Metropolitan Area , nonmetropolitan if not), teaching status of
  provider (teaching if the hospital had any interns , nonteaching otherwse), controllng
  agency of provider , and bed size of provider (small if 1- 99 beds , medium if 100- 299
  beds , and large if 300 or more beds). Throughout this process BOTEC kept electronic
  and printed copies of the programs used to create intermediate data sets
/ documentation of these data sets , and the data sets themselves.

 BOTEC began its analysis of the 1988 calendar year data by ensuring that the sample
 accurately represented the population from which it was drawn with respect to both
 provider and patient demographics. It compared the distribution of biling records in
 the 1988 sample with the population of biling records from which it was drawn using
 the variables provider size , location , control, and teaching status and patient age , sex,
 and race. BOTEC used a         statistic to reject the null hypothesis that the distributions
 were different.

 Hospitals were unable to provide medical records for 229 billng records in the original
 sample. This 8. 5 percent nonresponse rate could have introduced systematic bias into
 the sample. BOTEC therefore repeated the tests for representativeness to determine
 whether there were differences in the distributions of responses and nonresponses. It
 also retested for representativeness using the same procedures as before , but with
 nonresponses removed. This slightly smaller sample stil accurately represented the
 general population.

 BOTEC then conducted "breakdown" analyses for a series of dependent variables.
 the first analysis it constructed a cross- tabulation table by cross-tabulating the four
 provider demographic categories. The resulting table contained 144 cells. For each
  cell BOTEC calculated and displayed for a given dependent variable that variable
  mean , standard error, and the number of cases in the cell.

  In the second " breakdown " analysis BOTEC constructed a cross-tabulation table by
  cross- tabulating the three patient demographic categories. The resulting table
  contained 75 cells. Again , for each cell BOTEC calculated and displayed the
  dependent variable s mean, standard error, and number of cases. By examiing the
  eight resulting tables for confdence intervals which had little or no overlap, BOTEC
  determined which provider and patient demographics has a significant impact on these
  dependent variables.

  BOTEC conducted three additional analyses on the 1988 data. The first estimated the
  total financial impact of DRG errors by hospital and patient demographics. The
  second analysis examined DRGs to determine which DRGs seemed to present the
  most coding difficulty. The third analysis estimated the financial impact of DRG
  errors by DRG.

  To estimate the total financial impact of DRG miscoding by demographic categories
  BOTEC multiplied the mean change in case mix index by Medicare standardized
  amount in 1988 for each cell in the analysis tables. This was an estimate of the mean
  change per bil in each cell. BOTEC then multiplied this by the number of bils in
  each cell to get an estimate of the overall financial impact of DRG errors within each
  cell. They also   calculated standard errors of these estimates.


  To estimate which DRGs represented the most coding dificulty BOTEC organied
/ DRGs in the 1988 sample by several different criteria: by frequency of occurrence in
. the sample ,   by errors in DRG group, and by relative weight change.

 To estimate the financial impact of DRG miscoding by DRG, BOTEC multiplied the
 mean change in case mix index by Medicare standardized amount in 1988 for each
 observation in the sample and by the weight which each observation represents in the
 population from which the sample was drawn. The mean by DRG was then
 calculated to give an estimate of the overall financial impact of DRG errors for each
 DRG. BOTEC also calculated standard errors of these estimates. A fuller description
 of the calculation formulas appears in Appendix 3.

 REPREENATI
 The final sample of 2 451 medical records accurately represented the characteristics of
 the underlying population. Distributed by hospital demography, it did not differ from
 the population in bed size , teaching status , location , or control. (Table 1).

 The sample also accurately represented the underlying population by patient age and
 sex. However , the OIG made remedial efforts to classify unknowns by race. This
 match to other government files reduced the proportion of sample unknowns in
 comparison to the underlying population. 22 The volume of cases precluded a similar
  reclassification of unknowns for         Hospital          Medicare              Responses
  the entire population. Without the       demography        n (%)                 n (%)
  OIG' s reclassification , the sample
  would also have conformed to
  racial distribution of the underlying
                                             99 beds 1 333 250 (14.                        359 (14.
                                           100- 299
                                                 beds 3 454 578 (36.                       893 (36.4)
  population.                              300+ beds 4 718 527 (49.                        199 (48.9)
                                           Chi-square 0. , 2 df    P=0. 626.
  Comparing the 2 680 "selected"
  discharges with the population of

  all CY 1988 Medicare discharges
                                           Teachig 4 076 175 (42. 9)                     1 008 (41.1)

                                           Non-teaching 5, 430 180 (57. 1) 1 443 (58.

  (mius the exclusions for specialty       Chi-square 3. , 1 df, P=0. 080.

  institutions, exempt States , and
  specialty DRGs) revealed no              Profit 1 022 922 (10.                           272 (11.1)

  significant diferences in hospital       Nonprofit 6 858 338 (72.                        769 (72.

  or patient demography, except for
                                           Government 1 625 095 (17.                       410 (16.

  the OIG' s remedial efforts to           Chi-square 0.5 , 2 df, P=0. 798.

  classify unknowns by race.
  (Appendix 4).                       Metropolitan 7 270 147 (76. 5) 1 845 (75.
                                      Non-metropolitan 2 236 208 (23.
  The representativeness verification Chi-square 2. , 1 df, P=0. 161.
                                                                       606 (24.    5)
  also checked for response bias by
  comparing the 2 451 " sample      Patient demography
  discharges with the 229 nonsample   64 years 940 650 (9.                                  232 (9.
  discharges , excluded because no  65- 74 years 3 932 293 (41.4)                          007 (41.1)
  medical records matched to these 75- 84 years 3 263 952 (34.                             854 (34.
/ bils. Larger hospitals   lost            85+ years 1 369,466 (14.4)                      358 (14.
             more of their records
. significantly
                                           Chi-square 0. , 3 df,   P = 0.   860.
  than did smaller hospitals. The
  more voluminous and complex

  medical records systems of larger
                                          Male 4 304                  256 (45.3) 1 094 (44.


  hospitals probably offered greater
                                          Female 5 202 105 (54. 7)                      1 357 (55.4)

                                          Chi-square 0.4, 1 df, P=0. 523.

  opportunity for charts to
  disappear: more personnel had           White 8 261 646 (86.                             205 (90.
  access to the files , more              Black 827 204 (8.                                 188 (7.

  departments requested the charts        Other 150 380 (1.6)                                35 (1.4)

  larger record rooms had more
  shelves on which to misfie charts
                                          Unknown 267 131 (2.                                23 (0.

                                          Chi-square 30. , 3 df, Po:O. OOO1.

  more patients had the same
  names , etc. (Appendix 5).              Total              506 361 .       (100. 0)   2 451 (100.

  Unsurprisingly, response bias also     . Hospital demography totals to 9 506 365
  occurred for hospital demographic because six bil lacked data on hospital control.
  characteristics that correlated with
  hospital size. Metropolitan
         Table 1: Representativeness of sample bils by
  hospitals and teaching hospitals
       hospital and patient demography, 1988
  tended to have more beds.
Therefore, they also had more nonresponses. The response bias in metropolitan
(Mantel-Haenszel1.6, 1 df, P=0. 20) and teaching hospitals (Mantel-Haenszel1.4, 1 df
P=0. 23) disappeared upon controllng for hospital size. In contrast , hospital control
produced no significant response bias.

No response bias occurred with respect to age or sex. The OIG' s reclassification of
unknowns identified significantly more whites. Controllng for hospital size did not
remove this nonresponse bias. However , upon excluding nonresponses , the sample
stil accurately represented all discharges with respect to hospital demographic
characteristics.
                                     FINDINGS

  DRG CODING EROR REDUCED

                                               Hospital              Proportion:! (n)
  Upon blinded ICD- CM reabstraction           demography            standard error
  14. 7 :! 0. 7 percent of discharges had
 coding errors that changed their DRGs.          99 beds 17.         0 :! 1.      (359)
 The standard error of 0. 7 indicated this                 beds 14. 9
 point estimate to be quite precise , a
                                                100- 299                 :! 1.2 (893)
                                             300+ beds 13. 9 :! 1. 0 (1 199)
 secondary effect of the sample size. This Chi-square 2. , 2 df, P=0.351. Phi 0.
                                                                                    029.
 proportion was significantly lower than the
 20. 8 :! 0.5 percent errors found in 1985
 (1985- 1988 difference = 0. 061 , 95% CI
                                               Teaching        15.5 :! 1. 1 (1, 008)
                                             Nonteaching 14.2 :! 0. 9 (1 443)
   043 to 0. 079). (Table 2).                Chi-square 0. , 1 df, P=0. 383. Phi 0. 018.
 No hospital demographic characteristics       Profit 17. 3 :! 2.                 (272)
 had a significant effect upon the             Nonprofit 14. 1 :! 0. 8 (1 769)
 proportion of DRG coding errors.              Government 15. 6:! 1.8 (410)
 Smaller hospitals appeared to have higher Chi-square 2.
                                                         , 2 df, P=0. 339. Phi 0. 030.
 proportions of miscodes , but this apparent
 difference did not attain statistical
                                               Metropolitan 14. 9 :! 0. 8 (1 845)
 significance. (Appendix 6).                   Nonmetropolitan 14.4 :! 1.4 (606)
                                               Chi-square 0. , 1 df, P=0. 766. Phi 0. 006.
  Similarly, no patient characteristics
/significantly affected the proportion of      Patient demography
.' DRG coding errors. Younger patients           64 years 16.4 :! 2.4            (232)
  appeared to have higher error rates , but    65- 74 years 14. 9:! 1.1         ( 1007)
  this difference also failed to attain        75- 84 years 14. 6 :! 1.2        (854)
 statistical significance. (Appendix 7).       85+ years         13.4 :! 1.8    (358)
                                               Chi-square 1.0, 3 df, P=0. 794. Phi 0. 020.
 Crosstabulations of demographic

 characteristics for interaction potential

 identified no credible effects. (Appendix
                                               Male 14.5 :! 1.1 (1094)
                                               Female 14.
 8).
                                                                    9 :! 1.
                                                                                (1357)
                                               Chi-square 0. , 1 df, P=0. 807. Phi 0. 005.
 EQUAL NUERS OF DRG ERRORS                     White 14.
 OVE-REIMURE AN UNER­
 REIMURSE
                                               Black
                                               Other 14.
                                                                     8 :! 0.
                                                                 14.4 :! 2.
                                                                     3 :! 6.
                                                                               (2205)
                                                                                (188)
                                                                                 (35)
The 361 DRG errors divided evenly

                                               Unknown 8.            7 :! 6.     (23)
                                               Chi-square 0. , 3 df, P=0. 871. Phi 0. 017.
between errors that had over-reimbursed

the hospital (50. 7 :! 2. 6 percent) and

                                               Total             14. 7 :! 0.    (2451)
under-reimbursed the hospital (49.3

percent). This inspection   s proportion of
 Table 2: Proportion of coding errors by
over-reimbursements differed significantly hospital and patient demography, 1988
  from the 61.7 :t 1.4 percent for                     Over-re Under-re­
  1985 (1985- 1988 difference = Hospital              imbursed imbursed                Total
    110, 95% CI 0. 051 to 0. 168).
  (Table 3).
                                   demography     n (%) n (%)         n (%)

                                        99 beds 31 (50. 8) 30 (49. 2) 61 (100.
  For- profit hospitals over-
  reimbursed themselves the
                                      100- 299 beds                6) 133 (100.
                                                         71 (53.4) 62 (46.
                                     300+ beds           81 (48. 5) 86 (51.5) 167 (100.
  more than did other tyes of        Chi-square 0. , 2 df,   P=0. 703. Phi 0. 044.
  hospitals. However, these
  differences did not attain         Teaching 79 (50.             6) 77 (49.    4) 156 (100.
  statistical significance. This
  trend applied across all
                                     Nonteaching 104 (50. 7)         101 (49.   3) 205 (100.
                                   Chi-square 0. , 1 df, P=0. 986. Phi 0. 001.
  hospital characteristics. The
  direction of coding error also
  exhibited no signifcant trend
                                     Profit
                                     Nonprofit
                                                      27 (57.4) 20 (42.
                                                     123 (49. 2) 127 (50.
                                                                                6)
                                                                                47 (100.

                                                                                8)
                                                                               250 (100.

  by patient characteristics. This Government 33 (51.6) 31 (48.4) 64 (100.

  result suggested that little net Chi-square 1.2, 2 df, P=0.577. Phi 0. 055.

  over-reimbursement occurred

  because of coding direction.       Metropolitan 138 (50.4) 136 (49. 6)               274 (100.

                                     Nonmetropolitan 45 (51.7)         42 (48.3) 87 (100.
  DRG CREP ELIMATED Chi-square 0. , 1 df, P=0. 825. Phi -                        012.
  Ths inspection   used the case-    Patient demography
  mix index (CMI) to calculate
  the overall financial effect of
                               65- 74
                                       64 years
                                             years
                                                        17 (44.
                                                        77 (51.
                                                                  7)
                                                                  3)
                                                                        3)
                                                                    21 (55.     38 (100.
                                                                    73 (48.7) 150 (100.
/ DRG   coding errors. The CMI 75- 84        years                      2)
                                                        66 (52. 8) 59 (47.     125 (100.
. quantified the complexity of

  PPS discharges by annually
                                     85+     years                      1)
                                                        23 (47. 9) 25 (52.
                                                 , 3 df, P=0. 817. Phi 0.
                                     Chi-square 0.
                                                                                48 (100.
                                                                                051.
  averaging the relative weights
 of all bils submitted by each
 hospital. Those hospitals with
                                     Male
                                     Female             85 (53. 5) 74 (46.      5) 159 (100.

                                                        98 (48.5) 104 (51.5) 202 (100.

 higher mean relative weights        Chi-square 0. , 1 df, P=0.351. Phi - 049.
 served Medicare patients with
 more complex conditions and         White
                                     Black             166 (50. 8) 161 (49.            327 (100.
 that therefore consumed more
 resources. This inspection

 calculated CMI as (1)

                                     Other
                                     Unknown
                                                        14 (51.9) 13 (48.
                                                         2 (40.
                                                         1 (50.
                                                                  0)
                                                                  0)
                                                                       3 (60.
                                                                       1 (50.
                                                                                        27 (100.
                                                                                         5 (100.
                                                                                         2 (100.

 submitted to the Fls for
           Chi-square 0. , 3 df,   P=0. 970. Phi 0. 026.
 reimbursement , (2)

 reabstracted by the AMRA on Total               183 (50. 7) 178 (49.  361 (100.
 a blinded basis , and (3) the
 difference or mean weight     Table 3: Direction of DRG errors by hospital and
 change due to coding          patient demography, 1988
 inaccuracy.
 Hospital                Mean + standard error                                     (n)
 demo                    Before              Afer                Change

   99 beds              1.0914 :t 0. 0312   1.0889:t 0. 0312 - 0025:t 0. 0139      (359)

 100- 299 beds            3285 :t 0. 0314   1.3335:t 0. 0311   0049:t 0. 0116      (893)

 300+ beds                3576 :t 0. 0289   1.3595:t 0. 0285   0019:t 0. 0106         199)


 Teaching                 3851 :t 0. 0327   1.3841:t 0. 0322 - 001O:t 0. 0125      (1, 008)
 Nonteaching            1.2542 :t 0. 0222   1.2590:t 0. 0222   0047:t 0. 0081      (1, 443)
 Profit                 1.3112 :t 0. 0605   1.3274:t 0. 0621   0162:t 0. 0207      (272)
 Nonprofit              1.3304 :t 0. 0226   1.3333:t 0. 0223   0028:t 0. 0085         769)
 Government             1.2095 :t 0. 0383   1.2005:t 0. 0378 - 0090:t 0. 0145      (410)

 Metropolitan      3479 :t 0. 0230 1.3508:t 0. 0227              0029:t 0. 0086       845)
 Nonmetropolitan 1.1868:t 0. 0293 1.1874:t 0. 0291               0006:t 0. 0107    (606)

Patient demo      phy
                    1.2958 :t 0. 0644       1.3249:t 0. 0655     0291:t 0. 0215    (232)
65-                 1.3769:t 0. 0329        1.3632:t 0. 0319 -   0137:t 0. 0120       007)
75-                 1.2535 :t 0. 0291       1.257:t 0. 0292      0035 :t 0. 0110   (854)
85+                 1.2523 :t 0. 0374       1.2799:t 0. 0392     0275:t 0. 0161    (358)

Male                    1.3613 :t 0. 0298   1.3589:t 0. 0294 - 0024:t 0. 0109          094)
Female                  1.2651 :t 0. 0240   1.2713:t 0. 0238   0062:t 0. 0090      (1, 357)
White                   1.3180 :t 0. 02011.3192:t 0. 0199        0012:t 0. 0074       205)
Black                   1.1838:t 0. 0544 1.1865:t 0. 0537        0026:t 0. 0241    (188)
Other                   1.4152 :t 0. 15981.4890:t 0. 1603        0737:t 0. 0538    (35)
Unknown                 1.2028:t 0. 1769 1.2053:t 0. 1762        0025:t 0. 0097    (23)

Total                   1.3080 :t 0. 0188   1.3104:t 0. 0186     0023:t 0. 0070      451)
Table 4: Estimated case-mix index       change by hospital and patient demography, 1988

After reabstraction , the CMI increased 0. 0023 :t 0. 0070, not a statistically significant
difference. Hospitals   slightly under-reimbursed themselves. This CMI increase
differed significantly from the previous inspection s over-reimbursement , a 0. 0194 :t
  0060 CMI decrease (1985- 1988 difference = 0. 0171 , 95% CMI 0. 0158 to 0. 0184).
(Table 4).

This inspection found that only small , teaching, and government hospitals continued to
over-reimburse themselves. (Appendix 13). Smaller and government institutions had
lower absolute CMls , while teaching institutions had higher absolute CMls.
(Appendices 9 and 11).
 Discharges of patients aged 65- 74 and males over-reimbursed the hospitals.
 (Appendix 14). These groups of patients also had higher absolute CMls than other
 patient demographic categories. (Appendices 10 & 12).

 DRG OVER-REIMUREMNT                    ELIATED
. Exrapolating this inspection s results
                                              Hospital $ milion :t               Number
                                             demography standard error           of bils
  to all 10. 8 milion bils , Medicare
  under-reimbursed hospitals by $69.           99 beds         14. 8   :t 51.5      333 250
 milion. This   difference amounted to        100-299 beds     59.4 :t 121.
        454 578
 only 0. 1 percent of the $52 bilion in      300+ beds         26. 0   :t 156.      718 527
 1988 PPS expenditures. 23 In contrast
 the previous inspection found PPS      Teaching               13.4 :t 158.
        076 175
 over-reimbursement of $308 millon or Nonteaching              80. 1   :t 131.      430 180
 1.9 percent of 1985 PPS disbursements.
 (Table 5).                             Profit                 51.0 :t 62.          022 922
                                        Nonprofit              58. 8   :t 180.      858 338
 Hospital and patient demographic       Government             42. 6   :t 69.       625, 095
 trend largely paralleled this trend.
 Small, teaching, and government             Metropolitan 67. 0:t        195.4      270 147
 hospitals received up to $70.   8 milion Nonmetropolitan 3. 6:t         63.4       236 208
 in over-reimbursement from DRG
 coding errors.    (Appendices 15 and 16).

  MIS-PECIFCATION UNER­
/ REIMURSES
                                               64
                                             Patient demography

                                               74 -
                                             65-
                                             75-   84 46.
                                                               80.5 :t 62.
                                                              171.4 :t 145.5
                                                                  9 :t 109.
                                                                                    940 650
                                                                                    932 293
                                                                                    263 952
 REEQUECIG OVE­                              85 + 113.            9 :t 66.4         369 466
 REIMURSES
                                             Male              30. 8 :t 144.        304 256
 Each stage of the reimbursement             Female            99. 0:t 144.         202 105
 process had the potential for
 introducing error into the PPS. When        White             32. 7   :t 188.      261 646
performing its reabstractions , the          Black              6.4 :t 62.
         827 204
AMRA identified the reason for each          Other             32.4 :t 24.          150 380
DRG error.                                   Unknown              8 :t 7.           267 131
Mis-specification : The attending            Total             69. 8   :t 203.      506 361
physician wrote down the wrong
narrative diagnoses or procedures on         Table 5: Net financial change by hospital and
the attestation.                             patient demography, 1988

Miscoding : The medical records department selected an incorrect ICD-               , numeric
code for a correct attestation.

Resequencing : The biling department substituted a secondary diagnosis for the
correct , principal diagnosis.
 Reason                                                   Subtotal       Total
                                                          n (%)          n (%)


 MIS- SPECIFICATION                                                     227 (63.

 Changed principal diagnosis                              75 (20.

 Altered principal diagnosis , more or less specific       30 (8.

 Added complication-comorbidity or other diagnosis        46 (12.

 Deleted complication-comorbidity or other diagnosis      36 (10.

 Added operating room procedure                            19 (5.

 Deleted operating room procedure                          14 (3.

 Changed operating room procedure                           7 (1.9)


 MISCODING                                                                33 (9.

 Change due to ICD- CM rule                                30 (8.

 Change due to ICD- CM rule , changed C. c. status          1 (0.

 Change due to ICD- CM rule , changed OR status             2 (0.


 RESE UENCING                                                            96 (26.

 Moved secondary diagnosis to first diagnosis             71 (19.

 Changed codes to more or less specific                    15 (4.

 ICD- CM code differs                                      10 (2.


 OTHER                                                                     5 (1.4)
 Changed destination                                        1 (0.3)
. Provider- FI made data entry error in DRG                 4 (1.1)

TOTAL                                                                  361 (100.
Table 6: Reasons for errors affecting DRG assignment , 1988

In addition , 1 352 other coding changes did not alter the DRG and did not count as
errors for the purposes of this study. (Table 6).

Narrative changes accounted for 63. 2 percent of DRG errors. Examples of mis­
specification included wrting down the wrong principal diagnosis; selecting too
nonspecific a principal diagnosis; and adding or deleting a complication, comorbidity,
or operating room procedure.

Miscoding made up 9. 1 percent of the DRG errors. These changes primarily took the
form of changes in the principal diagnosis , rather than of complications , comorbidities
or operating room procedures. A few errors represented the AMRA reviewers
disagreeing with the providers ' assigned discharge destinations or apparent
tyographical errors.
Resequencing comprised 26. 6 percent of the DRG errors. In all cases , the
reviewers in all cases disagreed with the providers listing sequence. In most cases , the
  biling department had substituted a secondary diagnosis for the correctly attested and
  coded principal diagnosis. In other cases , the diagnosis should have been more
  specific. ICD- CM ruling changes accounted for the remaining sequence changes.

  Mis-specification significantly n (%)
                                                     Over-re- Under-re- Total

  under-reimbursed hospitals; while                  imbursed imbursed

  resequencing significantly over-

  reimbursed them. Thus , the       Mis-specification 98 (43. 2)      129 (56. 8)227    (100.

  attending physicians select their Miscoding
  patients ' diagnoses and
                                                      18 (54.      5) 15 (45.   5) 33 (100.

                                    Resequencing      64 (66. 7)      32 (33. 3) 96 (100.

  procedures with caution , earning Other              3 (60.      0)   2 (40. 0) 5 (100.

  their hospitals less

  reimbursement than they should
 have received. The biling
                                       Total             183 (50. 7) 178 (49. 3)361 (100.
                                       Chi-square 15. , 3 df,   P=0. 002. Phi 0. 206.
 department behaved more
 aggessively, obtaining greater       Table 7: Reason for DRG changes by direction of
 reimbursement that the PPS           DRG change , 1988
 entitled their employers to
 receive. Either the hospitals  had greater influence over employees , or the employees
 identified closely with the economic interests of the hospital. The attestation
 requirement apparently deterred up coding due to mis-specification , but the sentinel
 effect of Peer Review Organization surveilance did not fully prevent over-

 reimbursement due to resequencing. (Table 7).

  These two trends , mis-specification resulting in under-reimbursement and resequencing
/ causing over-reimbursement , offset each other. So , overall hospitals received the
. correct reimbursement. This inspection cannot predict whether this equilbrium will
 continue in the future.

 CERTAI DRGS AR MORE SUSCEPTLE TO ERROR

 In this random sample of discharges , vascular disorders such as heart failure , angia
 stroke , and arrhythmias cause Medicare hospitalizations most frequently. Overall , 28
 of the 476 DRGs accounted for half of the total bils , and 10 DRGs accounted for 28.
 percent of all bils. Most coding errors fell into these DRGs , but not in direct ratio to
 the DRGs ' volume. (Table 8).

 This report identified DRGs with high proportions of coding errors by dividing the
 number of errors by the frequency of bils for specific DRGs. Many of these DRGs
 covered vague or nonspecific diagnoses such as atherosclerosis (DRG 132), other
 circulatory system procedures (DRG 120), respiratory signs and symptoms (DRG 99),
 and other nervous system disorders (DRG 34). This indeterminateness suggests
 inherent ambiguities in medical taxonomy. For example , DRG 99 includes apnea
 dyspnea , hemoptysis , hypercapnia , pleurodynia , stridor, and ventilatory failure. (Table
 9).
       DRG description


               pectoris
         failure and shock
                                                                                 n (%)

  127 Heart                                                                133 (5.4)
  140 Angina                                                                89 (3.

  89 Simple pneumonia
  14 Specific cerebrovascular disorders except TIA                          75 (3.
                                                                            74 (3.
  182 Esophagitis , gastrointestinal, and miscellaneous digestive disorders 66 (2.

  209 Major    joint procedure
  96 Bronchitis and asthma with complications
  15 Transient ischemic attacks
                                                                            63 (2.
                                                                            55 (2.
                                                                            47 (1.9)


       Other 1

  138 Cardiac arrhythmia and conduction disorders 45 (1.
  296 Nutritional and miscellaneous metabolic disorders with complications 44 (1.

       Total
                                                                          760 (71.

                                                                           451 (100.
 Table 8: DRGs biled most frequently,   1988


       DRG description                                                   Miscoded
                                                                         Number (%)

 132   Atherosclerosis                                                         3 (75.
 413   Myeloproliferative                                                      4 (66.

 185   Dental except extractions                                               2 (66.

 120   Other circulatory system procedures                                    3 (66.

! 99   Respiratory signs and symptoms                                         5 (62.

 403   Lymphoma and nonacute leukemia                                         3 (60.

       Other nervous system disorders                                         3 (60.

       Other                                                   420          341 (14.


       Total                                                   451          361 (14.
 Table 9: DRGs with high proportions of coding errors, 1988

 Over-reimbursement concentrated in selected DRGs and certain tyes of hospitals.
 This report identified DRGs with maxmum savings    potential by multiplying the error
 frequency by reimbursement change for each DRG. Although this inspection found
 no overall over-reimbursement to hospitals , certain DRGs stil significantly over-
 reimbursed the hospitals. In particular, 13 DRGs each had over $20 milion in
 projected overpayments. This group consisted primarily of DRGs with operating room
 procedures , probably because of their high relative weights. (Table 10).

Additionally, small and for- profit hospitals made more errors that over-reimbursed
themselves than did other tyes of hospitals. This net over-reimbursement totaled
$842. 2 milion.
       DRG description                                             Over-reimbursement
                                                                   $ per $ milion
                                                                   discharge total
 104   Cardiac valve procedure with pump & cath                          4915 81.1
468    Unrelated operating room procedures                               1128 78.

475    Respiratory system diagnosis with ventilator                       791 49.

110    Major reconstructive vascular procedures                           682 47.

191    Major pancreas , liver, & shunt procedures                        3313 43.

154    Stomach , esophageal , & duodenal procedures                      1114 40.

       Pulmonary edema & respiratory failure                              571 37.

       Respiratory system operating room procedures                       764 25.

       Respiratory neoplasms                                              306 24.

121    Myocardial infarction discharged alive
                            189 23.

415    Operating room procedure for infection
                            858 22.

148    Major large & small bowel procedures
                              202 22.

217    Wound debridement & skin graft
                                    333 22.

       Other                                                 235          263 - 587.

       Total                                                 451                 69.

Table 10: DRGswith maxmum savings      potential ,   1988

                    RECOMMENDA TIONS

 ~ The Peer Revew Organtions should contiue their sureilance of hospita

    cog for DRG reimburement accurcy.

    The attestation requirement appears to have .deterred over-reimbursement due to
    mis-specification by attending physicians, causing their hospitals to be under-
    reimbursed. However, the sentinel effect did not fully prevent over-reimbursement
    due to resequencing by hospitals. Although these two trends approximately offset
    each other, this equilbrium may not continue in the future.

    The Agency for Health Care Policy Research plans to reabstract the ICD-
    codes from a large sample of Medicare charts to determne their diagnostic
    accuracy for health servces research purposes. Using 1991 data , grouping these
    ICD- CM codes to DRGs , and selecting reasons for any differences would provide
    a third time point with which to track trends in reimbursement accuracy. The OIG
    supports this effort.

 AGENCY     COMM
 In its May 29 , 1992 comments to the draft of this inspection , the HCF A concurred
 with the OIG recommendation. The HCFA noted that the improvement in DRG
 coding accuracy may be attributable to increased hospital experience with PPS , PRO
 review, and HCF A educational efforts.

/ The HCF A also made a number of technical comments. Based on these comments
  the OIG made several changes to this inspection. The full text of the HCF
 comments appear as an appendix.
                                        ENDNOTES
 1. Schweiker R S. Report to Congress: hospital prospective payment for medicare.

 Washington , DC: U. S. Department of Health and Human Servces , 1982.


 2. Social Security Amendments of 1965.     Pub. L. No. 89-     , 79 Stat 286 (1965).

 3. Social Security Amendments of 1983.     Pub. L. No. 98-     , 97 Stat 65 (1983).

4. Commission on Professional and Hospital Activities. International classification of

diseases , 9th edition , clinical modifications. Ann Arbor, MI: Edward Brothers , 1980.


5. Fetter R B , Shin Y, Averill R      & Freedman A T. The new ICD- CM diagnostic
related groups classification scheme user s
                                        manual: fial report. New Haven , Cf: Yale
School of Organization and Management , Health Systems Management Group, 1981.

6. Fed Reg, July 31 , 1985; 50 (147): 31038.

7. Shriners ' Hospital for Crippled Children -- Colorado Corporation -- Conveyance.

Pub. L. No. 94- 505; October 15 ,  1976: Title II   201- 07.


8. Delaney A M & Hsia D C, eds. 1985 national DRG validation study. Lexington
MA: Health Data Institute , 1987. Report prepared for the Office of Inspector
General. U. S. Department of Health and Human Servces; contract HHS- 100- 87­
0015.

9. Hsia D C, Krshat W M, Fagan A B , Tebbutt J A, & Kusserow            R P. Accuracy of
diagnostic coding for medicare patients under the prospective-payment system. N
Engl J Med , 1988; 318: 352- 55.

10. Health Care Financing Administiation, U. S. Department of Health and Human
Servces. Medicare program: prospective payments for medicare          inpatient hospital
servces. Fed Reg, September 1 , 1983; 48: 39752- 39886.

11. Health Care Financing Administration , U. S. Department of Health and Human
Servces. Medicare program: changes       to the inpatient hospital prospective payment
system and fiscal year 1985 rates. Fed Reg, August 31 , 1984; 49: 34728- 90.

12. Health Care Financing Administration , U. S. Department of Health and Human
Servces. Medicare program: changes       to the inpatient hospital prospective payment
system and fiscal year 1986    rates. Fed Reg, September 3 ,   1985; 50: 35646- 759.
13. Health Care Financing Administration , U. S. Department of Health and Human
Servces. Medicare program: changes       to the inpatient hospital prospective payment
system and fiscal year 1987    rates. Fed Reg, September 3 ,   1986; 51: 31454- 603.
  14. Health Care Financing Administration , U. S. Department of Health and Human
 Servces. Medicare program: changes      to the inpatient hospital prospective payment
 system and fiscal year 1988 rates. Fed Reg, September 1 , 1987; 52: 33033- 165.

 15. Health Care Financing Administration , U. S. Department of Health and Human
 Servces. Medicare program: changes    to the inpatient hospital prospective payment
 system and fiscal year 1989 rates. Fed Reg, September 30, 1988; 53: 38475- 640.

 16. Health Care Financing Administration , U. S. Department of Health & Human
 Servces. Medicare program: changes      to the inpatient hospital prospective payment
 system and fiscal year 1990 rates. Fed Reg, September 1989; 54: 36451-589.

 17. Health Care Financing Administration , U. S. Department of Health & Human

 Servces. Medicare program: changes      to the inpatient hospital prospective payment

 system and fiscal year 1991 rates. Fed Reg, September 1990; 55: 35989- 6175.


 18. Simborg D W. DRG creep: a new hospital-acquired disease. N Engl J Med , 1981;
 304: 1602- 04.


 19. Carter G M & Ginsburg P B. The Medicare case mi index increase: medical
 practice changes , aging, and DRG creep. Santa Monica , CA: RA Corporation

 1985. Publication no. R- 3292- HCFA.


 20. Thomas J W & Longo D R. Application of severity measurement systems for
  hospital quality management. Hospital and Health Servces Administration , 1990: 35
/ (2): 221- 23.

 21. Division of Information Analysis , Offce of Statistics and Data Management

 Bureau of Data Management and Strategy, Health Care Financing Administration

   S. Department of Health & Human Servces. 1989 HCFA Statistics. Baltimore

 MD: Health Care Financing Administration , 1989: 16 & 34.


 22. Ruther M, Reily T W, Silverman H A, & Abbott D B. Medicare         and Medicaid
 data book, 1990. Baltimore , MD: Offce of Research and Demonstrations , Health
 Care Financing Administration , U. S. Department of Health & Human Servces , 1991:
 15. HCFA pub. no. 03314.

23. Division of Information Analysis , Office of Statistics and Data Management

Bureau of Data Management and Strategy, Health Care Financing Administration

  S. Department of Health and Human Servces. 1989 HCFA statistics. Baltimore

MD: Health Care Financing Administration , 1989: 25. HCFA publication no. 03294.

Appendix 1: Contract inormation

Contractor
BOTEC Analysis Corporation
1698 Massachusetts Avenue
Cambridge , MA 02138

Project Offcer
David Hsia ,J. , M. , M.
Offce of Inspector General
330 Independence Avenue
Washigton, D. C. 20201
Contract
HHS- 100- 90- 0023
Fir-Fixed Price Contract
$203 257
  Appendix 2: Project participants

  OIG

  Cathaleen A Ahern, B.

  Evan J. Buckigham, B.

  David C. Hsia , J. , M. , M.

  Thomas F. Komaniecki, M.

  W. Mark Krshat , M.

  Lida M. Moscoe , B.

  Brian P. Ritchie, B.

  Barr L. Steelef

  John M. Traczyk, B.

  HCFA

  Timothy F. Greene , M. , M. B.A

  Stephen F. Jencks , M.

  Michael R. McMullan , M.

 Harr L. Savitt , Ph.

 Jeanette M. Smith , M.        , M.

 Malcolm A Sneen, B.S.


 RAN Corporation

 Haya P. Rubin, M.       , Ph.


  Baxer-Health Data Institute
/ Patricia J. Baxer, R.
. Patricia Cassidy-Tsnosas ,   R.
 Anette M. Delaney, R.          , M.

 Ellen B. Inghileri , R.

 Janet Mathews ,   AR.

 Laurie H. Moore , R.

 Claire Shannon, AR.

 Michele A. Wiese , B.



 Margret K. Amatayakul , M.             , R.

 Mary Converse, R.

 Nicholas J. Cotsonas , M.



 1. Institutions appear in chronological order of involvement.
 2. Now at Health Audit Servces , Ellcott City, MD.
 3. Now at the Journal of the American Medical Association , Chicago , IL.
 4. Now at Johns Hopkis Medical Institutions.
 5. Ceased operations February 16 , 1990.
 6. Outside contractor.
Linda Ertl , R.

Rita M. Finnegan , R.

Desla Mancila, A. R. T.

Barbara Manny, R.

Sonia Martyiuk, R.
Toula Nicholas ,   A.
Charlotte Razor, R.

LouAn Schraffenberger, R.

Lynn Smetko , R.

Dawn Smith, AR.

Joan Zacharias , A.


BOTEC Analysis Corporation
Geraldine M. Berenholz , R.
Andrew H. Chalsma , B.
David P. Cavanagh , M. , Ph.
Janet W. Knight , R. , Ph.
Amy L. Lockwood , B.A.
 Appendix 3: Calculation formulas

 Proporton of bil    with   cog errors
 Appendixes 6- 7 display for various subsets of hospitals and patients, the proportion of
sample discharges whose DRGs were changed by AM (i.e. , whose origial DRG
was incorrect). Since the 1988 Study self-weights , these proportions comprise unbiased
direct estimates of the proportion of all CY 1988 bilg records withi each subset
which have an incorrectly coded DRG. Each presentation includes the proportion , its
standard error, and the number of sampled bils in the cell.

Because the proportions in these tables derive from a sample there exists a

quantifable possibilty that the actual proportions of all Medicare bils with miscoded

DRGs may difer by some amount from the proportions presented in the appendixes.

The standard error is a statistic that allows calculation of the probabilty that the true
population proportion differs from the sample proportion. Put over-simply if p is the

sample proportion and s is the standard error, then there is a 95 percent chance that

the true population proportion lies between p - (2. 04 * s) and p + (2. 04 * s), and

there is a 99 percent chance that the true population proportion lies between p - (2.

* s) and p + (2. 72 * s).

The relation among the sample proportion, the standard error, and the number of
sample bils is as follows: assume there are n bils in a subset of the sample and e of
these bils have DRG coding errors. Then the sample proportion is: p = e / n. The
standard error is: s = (p * (1 - p) / (n - 1))%

For example ,   in Appendix 6 the upper left-most cell gives the percent of miscoded
bils from large ,  for-profit , teaching hospitals in metropolitan areas. There are eight
records in this subset of the sample. Two of these discharges have miscoded DRGs.
Therefore the proportion of DRG coding errors in the sample is p = 2/8 = 0. 25 =
25 percent. Ths also comprises the unbiased estimate of the proportion of bilg
records which large , metropolitan , for- profit , teaching hospitals submitted in CY 1988
and which contained miscoded DRGs.

The standard error of this proportion is: s = ((0. 25 * (1 - 0. 25))   / (8 - 1))% = 0. 164 =
16.4 percent.   Ths means that there is a 95 percent probabilty that the proportion of
miscoded biling records submitted by all these hospitals in CY 1988 was between 0
percent (0. 25 - (2. 04 * 0. 164)) and 58 percent (0. 25 + (2. 04 * 0. 164)). There is a 99
percent probabilty that this proportion is between 0 percent (0. 25 - (2. 72 * 0. 164))
and 69 percent (0. 25 + (2. 72 * 0. 164)).

Researchers can combine particular cells of these appendixes in the followig manner:
if the cells have proportions of biling errors P1 and P2' standard errors of S
                                                                               1 and S
and numbers of sample bils n l and n2 respectively; then the combined proportion
errors: Pt = ((n * P1 ) + (n2 * P2)) / (n 1 + n )' The standard error of this proportion:
 t = ((Pt * (1 - Pt )) / (n 1 + n 2 - 1))%
   For example , the proportion of errors among biling records submitted by large and
  medium , for-profit , teaching hospitals in metropolitan areas is Pt = ((8 * 0. 25) + (15 *
     20)) / (8 + 15) = 0. 217 = 21.7 percent. This calculation is based on data from the
  first and thireenth cells in column one of the appendix in the preceding example.
  This combined proportion has a standard error: S t = ((0. 217 * (1.000 - 0. 217)) / (8 +
  15 - 1))% = 0. 088 = 8.8 percent.

  Signcace testig
  By calculating the frequencies summaried by these proportions , researchers
  constructed the underlying contingency table and calculated its statistical signficance
  measures of the degree of association between dependent and independent variable.
  Appendix 8 displayed the interaction analysis for coding error.

  These calculations deleted certain cases and collapsed certain categories of
  independent variables to simplif the analysis. To decrease the degrees of freedom
  this testing ignored bils that coded patient race as "other " or " unknown. " These 58
  cases comprised too small a cell to determine whether billng records with these race
  codes showed statistically significant propensities to miscode DRGs. Furthermore it
  did not make sense to combine these biling records with biling records with race
  codes of either ' 'white '' or " black" . Evidence from other sources suggested that biling
  records of " other " and "unknown " differed in significant ways both from biling records
  of ' 'white '' and ' 'black''

   Preliminary analysis suggested that age affected differences in the propensity to
/ miscode DRGs , particularly in two age groups. The first comprised patients under 65
. (i.e. , those eligible for Medicare because of disabilties).
                                                               The second comprised
  patients 85 and over (i.e. , those patients who were extremely elderly). Therefore we
  recoded patient age into three categories for these tables: oe65 , 65- , and 85+.

 Table 2 summarizes data from Appendies 6- 7. Thus , rather than reporting the
 within-cell distribution of cases between miscoded and correctly coded biling records
 these tables report only the proportion of incorrectly coded biling records within each
 cell. Researchers can construct the original three-way contingency tables from these
 summary tables if they wish.

 Each of these tables calculates two statistics: chi-square and phi. Chi-square measures
 only statistical significance. It quantifies the relationship between variables poorly.
 The phi statistic measures the strength of relationship between variables in a table
 better. Phi is the square root of chi-square divided by the number of cases in a
                                                                                      table.
 Phi ranges between 0 and 1. The closer phi is to 0 the weaker the relation
                                                                                 displayed
 in a table. The closer phi is to 1 the stronger the relation.
  Ca mi index and changes
  Appendixes 9- 12 show for various subsets of hospitals and patients the average DRG
  weight or CMI, before and after AMRA reabstraction. This information also includes
  the CMI standard error and cell size. The following formulas calculate the CMI
  assuming n biling records in cell and the ith biling record has a relative weight of w
  then: CMI - = I: Wi / n.      ThisCMI has a standard error: SE =               = ((I:
                                                                                 / nYz where 


  (CMI - Wi)2)    / (n - 1))%


  Appendixes 13- 14 calculation of the CMI change used identical formulas , but
  substituted the relative weight after recoding minus the relative weight before recoding
  for the DRG weights. Negative mean values suggest that the original reimbursement
  to be higher than it should have been, while positive values suggest original under-
  reimbursement. For individual biling records this calculation provides the change in
  DRG weight. Averaged over a subset of biling records it provides the change in CMI
  as a result of DRG recoding. The diference between the CMI in any cell of a
   before " table and the corresponding cell of an " after" table appears in the same cell
  of the " change " table. Each corresponding cell has the same n. However, no simple
  formula relates the standard errors of corresponding cells.

  Researchers can combine particular cells within any of these appendixes as follows:
  the cells have CMls C and Cz, CMI standard errors of S 1 and S 2' and numbers of
  sample bils n 1 and n2 respectively; then the combined CMI: = (( n 1 * C ) + (n2 *
  ez)) / cr1 + n2)' This CMI has standard error: S t = (((n 1 * (n 1 - 1) * s/) + (n2 * (n2 ­
  1) * S 2 )) / ((n 1 + n ) * (n 1 + n 2 - 2)))%. For an explanation of these formulas see
/ McNemar Q, Psychological statistics, 4th ed. , New York, NY: John Wiley, 1969: 114­
. 15.


  For example ,  the CMI before recoding for biling records submitted by large and
  medium, for- profit , teaching hospitals in metropolitan areas is c = ((8 * 1.0205) + (15
  * 1. 2991)) / (8 + 15)     1.2022. This calculation is based on data from the first and
  thirteenth cells in column one. The standard error of this CMI is S t = (((8 * (8 - 1) *
    1390   ) + (15 * (15 - 1) * 0. 2401           )) / ((8 + 15) * (8 + 15 - 2)))% = 0. 1652.
  Mea change in reimburement
 Appendixes 15- 16 show for various subsets of hospitals and patients the average
 change in dollar reimbursement per bil that would have resulted from correct DRG
 coding. Negative means suggest that the government' s reimbursements to providers
 were higher than they should have been , while positive means suggest that the
 government s reimbursements to providers were lower than they should have been.
 other words negative means in these tables suggest that the government has lost
 money as a result of DRG coding errors while positive means suggest that the
 government has gained money as a result of DRG coding errors.
  These appendixes incorporate a simplifyng assumption: that the actual reimbursement
  hospitals receive for patients is the standardized amount times the DRG weight.
  variety of factors can slightly modif the standardized amount including whether a
  hospital is metropolitan or nonmetropolitan, teaching or nonteaching, etc. Most of
  these modifications have minor overall effects on reimbursement and in the aggregate
  tend to cancel each other.

  The exception is the diference between the standardized amount paid to metropolitan
  hospitals versus the standardized amount paid to nonmetropolitan hospitals. The
  standardized amount to metropolitan hospitals averaged $3 118 (current dollars) in CY
  1988, whie the standardized amount to nonmetropolitan hospitals averaged $2 637
  (current dollars) durig the same period. These averages were based on a total of
  10. 8 milion billing records.

  The means , standard deviations ,. and difference for
                                                     reimbursement use formulas
  identical to the CMI calculations. Combining cells also uses the same calculations as
  for combining CMI entries.

  Projections of national reimburement change

 Appendixes 17- 18 show the total number of bils submitted to HCFA in CY 1988 for
 various subsets of hospitals and patients. These appendixes provide the basis for
 projecting total savings or losses due to improper DRG coding.       Negative    amounts
 constitute an estimated loss to the government (over-reimbursement), while positive
 amounts represent too Iowa payment by the government (under-reimbursement).

, Appendixes 19- 20      contain the average under-reimbursement or over-reimbursement to
 the government per biling record as a result of DRG coding errors for a particular
 tye of hospital or patient as well as the standard error. The corresponding cell in this
 appendix gives the total number of bils submitted by this particular
                                                                      tye of hospital or
 for this particular tye of patient in CY 1988. Multiplying the average dollar change
 per bil by the corresponding number of bils in each cell estimates the total dollar
 effect on the government. Multiplying the standard       error per bil by the   corresponding
 number of bils in each cell produces the standard errors of the dollar projection.

 This technique has one important caveat. The 1988 Study final sample excluded

 certain CY                    a priori and certain other CY 1988 biling records

             1988 biling records

 because of nonresponse. Thus the means and standard errors in apply to slightly

 different populations of biling records from appendixes to appendix. Practically this

 means that the standard errors in the projections of dollar change may actually be a
 very small amount smaller than an extremely conservative estimate would make them.
 However, this limitation has no impact upon the findings of this study.
  Appendix 4: Representativeness of selected discharges, 1988

  Hospital             ulation          Selected            Chi-square
  demo             n (%)
               n (%)


    99 beds           333 250 (14.            385 (14.4)     1.6,   2 df, P=0.459
  100- 299 beds       454 578 (36.            943 (35.
  300+ beds           718 527 (49.            352 (50.4)

 Teaching             076 175 (42.            130 (42.          , 1 df, P=0.455
 Nonteaching          430 180 (57.            550 (57.

 Profit              022 922 (10.             291 (10.              , 2 df, P=0. 983
 Nonprofit           858 338 (72.             933 (72.
 Government          625 095 (17.             456 (17.

 Metropolitan        270 147 (76.5)           038 (76.          , 1 df, P=0. 598
 Nonmetropolitan     236 208 (23.             642 (24.

 Patient demo
   64 years           940 650 (9.              254 (9.          , 3 df, P=0. 901
 65- 74 years
       932 293 (41.4)           110 (41.4)
 75- 84 years
       263 952 (34.3)           924 (34.5)
 85 + years          369 466 (14.4)           392 (14.

/ Male               304 256 (45.3)           202 (44.          , 1 df, P=0. 657
. Female
            202 105 (54.             478 (55.

 White
              261 646 (86.             398 (89.      38.4 , 3 df, P-c0. 0001
 Black
               827 204 (8.              215 (8.0)
 Other
               150 380 (1.6)             43 (1.6)
 Unknown
             267 131 (2.               24 (0.

 Total             506 361 .   (100.         680 (100.      not applicable



  . Hospital demography totals to 9 506 355 because six bils lacked data on hospital
 control.
  Appendix 5: Nonresponses , 1988

  Hospital         Res onses            Nonres onses         Chi-square
  demo phy         n (%)                n (%)

    99 beds                359 (14.              26 (11.4)   27. , 2 df, Pc:O. OOOl
  100- 299 beds            893 (36.4)            50 (21.8)
  300+ beds                199 (48.             153 (66.

  Teaching                 008 (41.4)           122 (53.     12. , 1 df, Pc:O. OOOl
  Nonteaching              443 (58.             107 (46.

 Profit                    272 (11.1)             19 (8.         , 2 df, P=0. 233
 Nonprofit                 769 (72.             164 (71.6)
 Government                410 (16.              46 (20.

 Metropolitan              845 (75.             193 (84.     9.3 , 1 df, P=0. 002
 Nonmetropolitan           606 (24.              36 (15.

 Patient demo
   64 years                 232 (9.5)             22 (9.     1.9 ,   3 df, P=0. 596
 65- 74 years              007 (41.1)           103 (45.
 75- 84 years              854 (34.              70 (30.
 85 + years                358 (14.              34 (14.

/ Male                     094 (44.             108 (47.        , 1 df, P=0.462
. Female                   357 (55.4)           121 (52.

 White                     205 (90.             193 (84.3)      , 3 df, P=0. 032
 Black                      188 (7.              27 (11.8)
 Other                       58 (2.4)              9 (3.
 Unknown                     35 (1.4)              1 (0.4)

 Total                 451 (100.            229 (100.        not applicable
 Appendix 6: Proportion of DRO coing errors by hospital demography, 1988

 Proportion :I standard errr   (n)               Metropolitan           Nonmetropolitan         Metropolitan & nonmetropolitan

      99 bes
                     Teaching                    16. 7 :I 16.7 (6)      no                      16. 7 :I 16. 7 (6)
 Profit              Nonteaching                 10. 0 :I 6. 9 (20)     30.3 :I S. l    (33)    22. 7 :I 5. S (53)
                     Teaching & nonteaching      11. 5 :I 6.4 (26)      30. 3 :I S. l   (33)    22. 0 :I 5.4 (59)

                     Teaching                    50. 0 :I 50. 0 (2)       0 :I 0. 0 (1)         33. 3 :I 33. 3 (3)
 Nonprofit           Nonteaching                 25. 7 :I 7. 5 (35)     17. 1 :I 3.4 (123)      19. 0 :13. 1 (15S)
                     Teaching & nonteaching      27. 0 :I 7.4 (37)      16. 9 :I 3. 4 (124)     19. 3:1 3. 1 (161)

                     Teaching                      0:1 0.0 (1)          33. 3 :I 33.3 (3)       25. 0 :I 25.0 (4)
 Government          Nonteaching                 15. 4 :I 7. 2 (26)     11. 0 :I 3.0 (109)      11. 9 :I 2. S (135)
                     Teaching & nonteaching      14. S:I 7. 0 (27)      11. 6 :I 3. 0 (112)     12. 2:1 2. S (139)

                     Teaching                   22. 2:1 14. 7 (9)
     25. 0:1 25. 0 (4)        23. 1 :I 12. 2 (13)
All                  Nonteaching                1S. 5 :I 4. 3 (Sl)
    16. 2:1 2. 3 (265)       16. S :I 2. 0 (34)
                     Teaching & nonteaching     1S. 9 :I 4. 1 (90)
    16. 4:1 2. 3 (269)       17. 0:1 2. 0 (359)
100-299 bes
                     Teaching                   20. 0 :I 10. 7 (15)    no                      20. 0 :I 10. 7 (15)
Profit               Nonteaching                13. 7:1 3. 2 (117)     12.5 :I 5. 9 (32)       13. 4:1 2. S (149)
                     Teaching & nonteaching     14.4 :I 3. 1 (132)     12. 5 :I 5. 9 (32)      14. 0 :I 2. 7 (164)

                    Teaching                    17. 3 :I 3. 1 (145)      S:I 4. S (21)
        15. 7 :I 2. S (166)
Nonprofit           Nonteaching                 15.4 :I 2. 2 (267)     13. 2:1 2. 7 (159)      14. 6:1 1.7 (426)
                    Teaching & nonteaching      16. 0:1 1.S (412)      12. 2 :I 2.4 (180)      14. 9 :I 1. 5 (592)

                    Teaching                    27. 8 :I 10. 9 (lS)    33.3 :I 33. 3 (3)       28. 6 :I 10. 1 (21)
Government          Nonteaching                 13. 1 :I 5. 0 (46)     14. 3 :I 4.2 (70)       13. S :I 3. 2 (116)
                    Teaching & nonteaching      17. 2 :I 4.8 (64)      15. 1 :I 4. 2 (73)      16. 1 :I 3. 1 (137)

                    Teaching                    1S. 5 :I 2. 9 (17S)      3 :I 5. S (24)        17.3:1 2. 7 (202)
All                 Nonteaching                 14. 7:1 1.7 (430)      13.4 :I 2. 1 (261)      14. 2 :I 1.3 (691)
                    Teaching & nonteaching      15. S :I 1.5 (60)      13. 0 :I 2. 0 (285)     14. 9:1 1.2 (S93)
30+ bes
                    Teaching                    25. 0 :I 16.4 (S)      no case                 25. 0 :I 16.4 (S)
Profit              Nonteaching                 22. 0:1 6. 5 (41)      no case                 22. 0:1 6.5 (41)
                    Teaching & nonteaching      22. 5 :I 6. 0 (49)     no case                 22.5 :I 6. 0 (49)

                    Teaching                    14. 5:1   1.3 (703)      7 :I 6. 7   (15)      14.4 :I 1. 3 (71S)
Nonprofit           Nonteaching                   7:1 1.7 (276)
       1S. 2 :I S.4 (22)       9.4 :I 1. 7 (29S)
                    Teaching & nonteaching      12. 9 :I 1. 1 (979)    13. 5 :I 5. 7 (37)      12. 9 :11. (1016)

                    Teaching                    20. 0 :I 5. 0 (65)       0 :I 0.0 (2)          19.4 :I 4. 9 (67)
Government          Nonteaching                 20. 4 :I 5. 5 (54)       7 :I 7. 7 (13)        17. 9:1 4. 7 (67)
                    Teaching & nonteaching      20. 2:1 3. 7 (119)       7 :I 6. 7 (15)        1S. 7 :I 3.4 (134)

                    Teaching                    15. 1 :I 1.3 (776)      9 :I 5. 9 (17)         14. 9 :I 1.3 (793)
All                 Nonteaching                 11. 9:1 1.7 (371)      14.3 :I 6. 0 (35)       12. 1 :I 1.6 (406)
                    Teaching & nonteaching      14. 0 :I 1.0 (1147)    11.5 :I 4.5 (52)        13. 9:1 1.0 (1199)
All hos itals
                    Teaching                    20. 7 :I 7. 7 (29)     no                      20. 7 :I 7. 7 (29)
Profit              Nonteaching                 15. 2 :I 2. 7 (17S)    21.5 :I 5. 1 (65)       16. 9 :I 2. 4 (243)
                    Teaching & nonteaching      16. 0:1 2. 6 (207)     21.5 :I 5. 1 (65)       17. 3 :I 2. 3 (272)

                    Teaching                    15. 1 :I 1.2 (S50)     5.4 :I 3. S (37)        14. 7 :I 1.2 (887)
Nonprofit           Nonteaching                 12. S :I 1.4 (57S)     15. 1 :I 2. 1 (30)      13. 6 :I 1.2 (882)
                    Teaching & nonteaching      14. 2 :I 0. 9 (1428)   14. 1 :I 1. 9 (341)     14. 1 :I O. S (1769)

                    Teaching                   21.4 :I 4.5 (84)        25. 0 :I 16.4 (S)       21.7:1 4. 3 (92)
Government          Nonteaching                16. 7:1 3.3 (126)       12. 0 :I 2. 3 (192)     13. S :I 1. 9 (31S)
                    Teaching & nonteaching     1S. 6 :I 2. 7 (210)     12.5 :I 2. 3 (200)      15. 6:1 1.S (410)

                    Teaching                   15. S :I 1.2 (%3)         9 :I 4.3 (45)         15. 5 :I 1. (100)
All                 Nonteaching                13. S :I 1.2 (882)      14. S:I 1.5 (561)       14. 2 :I 0. 9 (1443)
                    Teaching & nonteaching     14. 9 :I O.S (1845)     14. 4 :I 1.4 (60)       14. 7:1 0. 7 (2451)
 Appendix 7: Proportion of DRO coing errors by patient demography, 1988

 Proportion :t standard errr             (n)


          Male                             Female                 Male & female
 0-0  vea
 White    19.5 :I 3. 7 (113)               16. 2:t   4.5 (68)     1S. 2 :t 2. 9 (lSl)
 Black    95:1 6.6 (21)                      6 :t 5.6 (lS)          7 :t 4.3      (39)
 Other          12. 5:1   12. 5 (S)        33. 3 :t 33.3 (3)      1S. 2:t   12. 2
                                                                               (11)
Unknow no case                               0:t 0. 0 (1)           0:t 0. 0 (1)
All race 17. 6:1          3. 2   (142)     14. 5 :t 3. 7 (90)     16.4 :t 2.4 (232)

65- 74 vea
White           14. 0:t 1.6      (45S)     16. 2:t 1.7 (46)      15. 1 :t 1. 2 (922)
Black           13. 3 :I 6. 3    (30)      15. S :t 6. 0 (38)    14. 7 :t 4. 3 (68)
Other             0 :t 0.0 (5)             12. 5 :t 12. 5 (S)       7 :t 7.7      (13)
Unknow 0.0 :I 0.0 (3)                        0:t 0. 0 (1)          0 :t 0. 0 (4)
All race 13. 7:1          1.5    (496)     16. 1 :t 1. 6 (511)   14. 9 :t 1. (1007)

75-8    vea
Whte          13. 7 :t 1.9 (328)           15.4 :t 1.7 (456)     14. 7 :t 1.3 (784)
Black         15. 4 :I 7.2 (26)            1S. 5 :t 7. 6 (27)    17. 0:t 5. 2 (53)
Other         20. 0 :I 20.0 (5)             0 :I 0. 0 (2)        14. 3 :t 14.3 (7)
Unknow 0.0:1 0.0 (4)                           0:t 0. 0 (6)
       0 :t 0. 0 (10)
All race 13. S:t 1. S            (363)     15.3 :t 1.6 (491)     14. 6 :t 1. 2 (S54)

S5+     ears

Whte   17. 1 :t 4. 2 (S2)
                11. 0 :t 2. 0 (23)     12. 6 :t 1.9 (31S)
Black  25. 0 :t 16.4 (S)
                 15. 0 :t S. 2 (20)     17. 9 :t 7.4 (28)
Other    0 :t 0. 0 (2)
                   50. 0 :t 50. 0 (2)     25. 0:t 25. 0 (4)
Unknow 0.0:t 0.0 (1)
                     28. 6 :t 1S.4 (7)      25. 0 :t 16. 4 (S)
Al race 17. 2:t           3. 9 (93)
      12. 1 :t 2. 0 (265)    13. 4 :I 1.S (35S)

AII ae:es

White         14. S:t 1. (9S1)
           14. 9 :t 1.0 (1224)    14. S   :t O.S   (2205)
Black         14. 1 :t 3. S (S5)
         14. 6 :t 3. 5 (103)    14.4 :t 2.6 (188)
Other         10. 0 :t 6. 9 (20)
         20. 0 :t 10.7 (15)     14. 3 :t 6. 0 (35)
Unknown 0.0 :t 0. 0         (S)           13.3 :t 9. 1 (15)        7 :t 6.0 (23)
All race 145:t 1. 1 (1094)                14. 9 :t 1.0 (1357)    14. 7:t   0. 7   (2451)
  Appendix S: Interaction potential by hospital and patient demography, 1988

  Proportion (n)

  Race       be siz            99 bes                          100-29 bes                       30+ bes                            Total
  Whte
                   17. 1S (326)                         15. 15 (S12)                     13. S7 (1067)                      14. S3 (2205)
 Black
                   10. 00 (20)                          11. 11 (63)                      17. 14 (105)                       14. 36 (188)
 Total
                   16. 76 (34)
                         14. 86 (S75)
                    14. 16 (1172)
                     14. 79 (2393)
 (Chi-square)
            (0. 696 , 2 dC, P=O. 40)
            (0. 753 , 2   P=0. 385)
         (0. 842, 2    P=0.359)
            (0.30,       dC,   P=0. 862)
  (Phi)
                  (0.045)                              (0.029)                          (0.27)                             (0.00)
 Race        loction      Metro           litan
              Nonmetro              litan
      Total
 White                    14. S5        (1657)
               14. 7S (548)
                     14. 83 (2205)
 Black                    17.45 (149)                           56 (39)                         14. 36 (188)
 Total                    15. 06 (180)                        13. 97 (5S7)                      14. 79 (2393)
 (Chi-square)
            (0. 724 , 1 dC, P=0. 395)           (4.522, 1 dC,         P=0.33)     (0. 030 ,   1 dC,      P=0.862)
 (Phi)
                   (0.20)                              (0.08)                            (0.00)

 Race        control      Non rofit                           Profit                            Government                         Total
 Whte                     14. 37 (1621)                       17. 01 (241)                      15.45 (343)                        14. S3 (2205)
 Black                    13. 27 (113)                        22. 73 (22)                       13. 21 (53)                        14. 36 (188)
 Total                    14. 30 (1734)
                      17. 49 (263)
                     15. 15 (396)                       14. 79 (2393)
 (Chi-suare)              (0. 104 , 2 dC, P=0. 747)
          (0. 456 , 2   P=0.499)
           (0. 180   dC,          P=0.671)    (0.30        dC,   P=0.862)
 (Phi)                    (0. 00)                             (0.042)                           (0.021)                            (0.00)
 Race        teachi
   status               Teachin           Nonteachin                       Total
White
                    15. S2 (885)                        14. 17 (1320)                    14. 83 (2205)
Black
                    15. 15 (99)                         13. 48 (S9)                      14. 36 (188)
Tota
                     15. 75 (984)
                       14. 12 (140)                     14. 79 (2393)
 (Chi-suare)
             (0.30, 1               P=0.863)
    (0. 032 , 1   P=0.S5S)           (0. 030,      P=0. 862)
 (Phi)
                   (0. 00)                             (0.005)                           (0.00)

Race                     Male
                                Female
                          Total

White
                   14. 7S (9S1)
                        14. S7 (1224)
                   14. S3 (2205)

Black
                   14. 12 (S5)                          14.56 (103)                      14. 36 (188)
Total
                   14. 23 (106)                         14. S5 (1327)                    14. 79 (2393)
(Chi-square)
            (0.27                   P=0.869)     (0. 007 , 1   P=0. 933)          (0.30,       1         P=0. 862)
(Phi)
                   (0. 005)                             (0. 002)                         (0.00)

Race                     0-6                                 65-8                              S5+                                Total
White                    1S. 23 (lSl)                        14. S9 (1706)                     12. 5S (31S)                       14. S3 (2205)
Black                      69 (39)                           15. 70 (121)                      17.8 (28)                          14. 36 (188)
Total                    16. 36 (220)                        14. 94 (lS27)                     1301 (34)
                         14. 79 (2393)
(Chi-square)             (2.              dC,   P=0. 107)    (0. 059 , 2 dC, P=O. 80S)         (0. 634, dC, P=0.426)              (0.30,    2         P=0.862)
(Phi)                    (0. 109)                            (0.00)                            (0.043)                            (0.00)
Sex        bed siz         99 bes                            100-299 beds                      30+ beds                           Total
Male                     16. 56 (151)                        15. 32 (385)                      13. 77 (530)                       14. 73 (106)
Female                   16. 92 (195)                        14.49 (490)                       14.49 (642)                        14. S5 (1327)
Total                    16. 76 (346)
                       14. 86 (S75)
                     14. 16 (1172)                      14. 79 (2393)
(Chi-square)             (0. 00,    2    dC,    P=0. 928)
   (0. 119,              P=0.73O)
   (0. 121                P=0. 728)
                                                                             dC,                                                         , 2 dC, P=0. 936)
                                                                         2                                      dC,               (0.
(Phi)                    (0.005)                             (0.012)                           (0.010)                            (0.002)
Sex      loction         Metro           litan               Nonmetro              litan       Total
Male                     14. 61 (801)                        15. 09 (265)                      14. 73    (106)
Female                   15. 42 (1005)                       13. 04 (322)                      14. S5 (1327)
Total                    15. 06 (lS06)
                      13. 97 (5S7)
                     14. 79 (2393)
(Chi-square)             (0. 232,   1           P=0. 63O)
   (0. 509, 1 dC, P=0.476)
          (0.    , 1 dC, P=0. 936)
(Phi)                    (0.011)                             (0. 029)                          (0.002)

Sex b    control         Non rofit                           Profit                            Government                         Total
Male                     14.53 (771)                         19. 13 (115)                      12. 7S (180)                       14. 73 (106)
Female                   14. 12 (963)                        16. 22 (14S)                      17. 13 (216)                       14. S5 (1327)
Total                    14. 30 (1734)                       17.49 (263)                       15. 15 (396)                       14. 79 (2393)
(Chi-square)             (0. 057       P=O. Sl1)             (0. 381 ,   2         P=0. 537)   (1.44                  P=0. 229)   (0.           P=0. 936)
(Phi)                    (0.00)                              (0.38)                            (0.06)                             (0.002)
. Sex     teachin status              Teachin       Nonteachin                    Total
 Male                   16. 16 (427)                13. 77 (639)                  14. 73 (106)
 Female                 15. 44 (557)                14.42 (770)                   14. 85 (1327)
 Total                  15. 75 (984)                14. 12 (140)                  14. 79 (2393)
 (Chi-suare)            (0.    , 1 df, P=0. 759)    (0. 119, 1 df, P=0. 730)      (0.06, 1 df, P=O.93)
 (Phil                  (0.010)                     (0.00)                        (0.002)

 Sex                    0-6                         65-8                         S5+

 Male                   17. 91 (134)
               13. 90 (842)                 17. 7S (90)
                  14. 73 (106)

 Female                 13. 95 (86)
                15. 84 (98)                  11. 33 (256)                  14. S5 (1327)

 Total                  16. 36 (220)
               14. 94 (lS27)                13. 01 (34)
                  14. 79 (2393)
 (Chi-square)           (0.599, 2 df, P=0.439)
     (1.347, 2 df, P=O. 24)       (2. 44, 2 df, P=O. l1S)
      (0.   , 2 df, P=0.936)
 (Phi)                  (0. 052)
                   (0.027)                       (0.84)                       (0.002)

          be siz            99 bes                  100-29 bes                   30+ be                       Total
 0-0                   1S. 75 (32)                  13. 24 (68)                  17.50 (120)                  16. 36 (220)
 65-8                  16. 94 (242)                 15. 24 (676)                 14. 19 (90)                  14. 94 (1827)
 85+                   15. 28 (72)                  13. 74 (131)                 11. 19 (143)                 13. 01 (34)
 Total                 16. 76 (34)                  14. 86 (S75)
                14. 16 (1172)                14. 79 (2393)
 (Chi-square)          (0. 210, 4 df, P=O. 90)      (0. 34, 4 df, P=O. 84)
      (2140, 4 df, P=0.343)        (1.34 4 df, P=0.512)
 (Phi)                 (0.025)                      (0.020)                      (0.43)                       (0.24)
          loction      Metro        litan          Nonmetro litan                Total
0-0                    16. 67   (168)              15. 38 (52)                   16. 36 (220)
65-8                   15. 41   (1402)             13.41 (425)                   14. 94 (lS27)

85+                    11. 86   (23)               15.45 (110)                   1301 (34)

Total                  15. 06   (lS06)             13. 97 (5S7)
                 14. 79 (2393)
(Chi-square)           (2. 355,   2 df, P=O. 30)   (0. 399 , 2 df, P=0. S19)
    (1.340, 2 df, P=0. 512)
(Phil                  (0.043)                     (0.26)                        (0.024)

          control      Non rofit                   Profit                        Government                   Total
0-0                    16. 7S (149)                17. 86 (28)                   13. 95 (43)                  16. 36 (22)
65-8                   13. 9S (1345)               16. 41 (195)                  1S.47 (287)                  14. 94 (lS27)
85+                    14.5S (24)                  22.50 (40)                    1.52 (66)                    1301 (34)
Total                  14.3 (1734)                 17.49 (263)
                  15. 15 (396)
                14. 79 (2393)
(Chi-square)           (0. S76 , 4 df, P=0. 645)   (0. S56 , 4 df, P=0. 652)
    (12. 04, 4 df,   P=0.OO2)
   (1.340, 4 df, P=0. 512)
(Phil                  (0.022)                     (0.057)                       (0. 174)                     (0. 024)

          teachin sta tus            Teachin       Nonteachin                    Total
0-0                    17. 17 (99)                 15. 70 (121)                  16. 36 (220)
65-8                   16. 09 (75S)                14. 13 (1069)                 14. 94 (lS27)
S5+                    12. 60 (127)                13. 24 (219)                  13. 01 (34)
Total                  15. 75 (984)                14. 12 (140)
                 14. 79 (2393)
(Chi-square)           (1.69, 2 df, P=0. 557)      (0. 389 , 2 df, P=O. S23)
    (1.34 2 df, P=0. 512)
(Phil                  (0.034)                     (0.017                        (0.24)
Bed siz        loction Metro litan                 Nonmetro         litan        Total
  99                   19. 77 (86)                 15. 77 (26)                   16. 76 (34)
100-299 bes            15. 72 (59S)                13. 00 (277)                  14. 86 (S75)
30+ bes                14. 35 (1122)               10. 00 (50)                   14. 16 (1172)
Total                  15. 06 (180)                13. 97 (5S7)
                 14. 79 (2393)

(Chi-square)           (2. 136 , 2 df, P=O. 34)    (1.575, 2 df, P=0.455)
       (1.436, 2 df, P=O. 48)

(Phil                  (0.034)                     (0.052)                       (0.024)

Bed siz        control Non rofit                   Profit                        Government                   Total
  99                   19. 75 (157)                23. 21 (56)                   10. 53 (133)                 16. 76 (346)
100-299                14. 95 (5S2)                13. 66 (161)                  15. 91 (132)                 14. 86 (S75)
30+ bes                1307 (995)                  23. 91 (46)                   19. 08 (131)                 14. 16 (1172)
Total                  14. 30 (1734)               17.49 (263)
                  15. 15 (396)
                14. 79 (2393)
(Chi-square)           (5. 235, 4 df, P=0.73)      (4. 219, 4 df, P=0. 121)
     (3. 84, 4 df, P=O. l46)
     (1.436, 4 df, P=O.48)
(Phil                  (0. 055)                    (0. 127)                      (0.09)                       (0.024)
Bed siz   teachin status      Teachin              Nonteachin                    Total
  99              25. 00 (12)                      16.47 (334)                   16. 76 (34)
100-299 bes       17. 17 (19S)                     14. 1S (677)                  14. 86 (S75)
30+ bes               15. 25 (774)                 12. 06 (39S)                  14. 16 (1172)
Total                 15. 75 (984)                 14. 12 (1409)
                14. 79 (2393)
(Chi-square)          (1. 224 , 2 df, P=0. 542)    (2. 911,   2 df, P=0. 233)
   (1.436 2 df, P=O.48)
(Phil                 (0.035)                      (0.045)                       (0.024)
 Lotion by control Nonprofit                 Profit                       Government                 Total
 Metropolitan 14. 33 (1403)                  16. 08 (199)                 19. 12 (20)                15. 06 (180)
 Nonmetropolitan 14. 20   (331)              21. S7 (64)                              10. 94 (192)   13. 97 (5S7)
- Total 14. 30 (1734)                        17. 49 (263)                 15. 15 (396)
              14. 79 (2393)
       square)
.(Chi-(PhO   (0.(0.04,
                   001)
                       2 dr, P=0.     953)   (1. 127 2 dr, P=O. 28)       (5. 148, 2 dr, P=o.23)
    (0. 419 , 2 dr, P=O. SlS)
                                             (0.065)                      (0. 114)                   (0.013)
 Lotion by teachine: status Teachine:        Nonteachine:                 Total
 Metropolitan 16.08 (939)                    13. 96 (867)                 15. 06 (180)
 Nonmetropolitan S.S9 (45)                   14. 39 (542)                 13. 97 (5S7)
 Total 15. 75 (984)                          14. 12 (140)                 14. 79 (2393)
   square)
 (PhO
 (Chi-
        (0.(1.674, 1 dr, P=o. l96)           (0. 052,   1 dr, P=0. S2O)   (0.419, 1 dr, P=0. 51S)
              041)                           (0.00)                       (0. 013
Control by teachine: status    Teachine:     Nonteachine:                 Total
Profit 22. 22 (27)                           16. 95 (23)                  17. 49 (263)
Nonprofit 14. 86 (86)
                       13. 74 (86)                  14. 30 (1734)
Government 22.47 (S9)
                       1303 (307)                   15. 15 (396)
Total 15.            75 (984)
               14. 12 (140)                 14. 79 (2393)
  square) (4.
(Chi-
(PhO    (0.          399 2 dr, P=0. 1l1)
                     067)
                                             (1.961 , 2 dr, P=0. 375)
                                             (0.037)
                                                                          (1.S90 , 2 dr, P=0. 389)
                                                                          (0.028)
- Appendix 9: Projected national CMI before recing by hospital demography, 1988

 CMI :t standard errr   (n)
                                                  Metropolitan                Nonmetropolitan             Metropolitan & nonmetropolitan
      99 bes
                    Teaching                       9102:t 0.   24  (6)        no                           9102:t 0.     24
                                                                                                                          (6)
 Profit             Nonteaching                    2243:t 0. 1764 (20)        1.201 :t 0. 1121 (33)       1.2148:t 0.954 (53)

                    Teaching & nonteaching         151S :t 0. 146 (26)         201 :t 0. 1121 (33)         lS39 :t 0.0893 (59)


                    Teaching                     1.0622 :t 0. 1379 (2)        1.0774:t 0.   00(1)         1.0673 :t 0.798 (3)
 Nonprofit          Nonteaching                    lS17:t 0. 1162 (35)        1.06 :t 0.0538 (123)        1.09 :t 0.0491 (15S)
                    Teaching & nonteaching       1.752:t 0. 1101 (37)           067 :t 0.0533 (124)        091 :t 0.482 (161)
                    Teaching                       5912:t 0.   00  (1)        1.099 :t 0. 3745 (3)         9705:t 0.2934 (4)

 Government         Nonteaching
                    Teaching & nonteaching
                                                 1.0317 :t 0. 1165 (26)       1.0620 :t 0. 043 (109)      1.0561 :t 0.   04 (135)

                                                 1.0154 :t 0. 1132 (27)       1.0629 :t 0. 047S (112)      0537:t 0. 041 (139)


                    Teaching                       90   :t 0. 1630 (9)        1.09 :t 0.    26    (4)      9650 :t 0. 1351 (13)
 All                Nonteaching                  1.441 :t 0.75S (Sl)              0815 :t 0.34 (265)       092:t 0.0320       (34)

                    Teaching & nonteaching       1.205 :t 0. 0703 (90)            0817 :t 0. 034 (269)     0914 :t 0.0312 (359)

 100-29     be
                    Teaching                     1.2991 :t 0.241 (15)         no                         1.291 :t 0.241 (15)
Profit              Nonteaching                  1.4367 :t 0. 1194 (117)        4473 :t 0. 124 (32)      1.4390 :t 0.093 (149)

                    Teaching & nonteaching       1.4210 :t 0. 1091 (132)      1.4473 :t 0. 124 (32)        4262 :t 0.0910 (164)


                    Teaching                     1.3973 :t 0.079S (145)       1.46 :t 0. 2593 (21)         4053:t 0.0767 (166)
Nonprofit           Nonteaching                  1.2974 :t 0.0520 (267)       1.20 :t 0.0654 (159)         2611 :t 0.047 (426)
                    Teaching & nonteaching         3326 :t 0. 0438 (412)      1.23 :t 0.0652 (180)       1.3015 :t 0.36 (592)

                    Teaching                     1.4597 :t 0. 2500 (lS)       1.0029 :t 0. 151S (3)      1.3944 :t 0. 2171 (21)
Government          Nonteaching                    2830 :t 0. 1287 (46)       1.3385 :t 0.  09  (70)     1.3165 :t 0. 0769 (116)
                    Teaching & nonteaching       1.327 :t 0. 1155 (64)        1.3247:t 0.   09  (73)     1.328 :t 0. 0728 (137)

                    Teaching                     1.3953 :t 0.0722 (17S)       1.4034 :t 0.2289 (24)      1.3963 :t 0. 0690 (202)
All                 Nonteaching                  1.3338 :t 0.047S (430)       1.2675 :t 0. 0499 (261)      307:t 0.0352 (691)
                    Teaching & nonteaching         351S :t 0. 039S (60)       1.27S9 :t 0. 0495 (285)    1.3285 :t 0. 0314 (S93)
30+ bes
                    Teaching                     1.0205 :t 0. 1390 (S)        no case                      0205 t 0. 1390 (S)
Profit              Nonteaching                  1.0912 t 0. 0952   (41)      no case                    1.0912 t 0. 0952 (41)
                    Teaching & nonteaching         0797 t 0.0824 (49)         no                         1.0797 t 0. 0824 (49)

                    Teaching                     1.4133 t 0.   04 (703)       1.48 :t 0. 1257 (15)         407S :t 0.041 (71S)
Nonprofit           Nonteaching                  1.3396 t 0. 0544 (276)           2235 t 0. 1889 (22)    1.3310 t 0. 0522 (29S)
                    Teaching & nonteaching       1.3925 t 0. 0331 (979)       1.931 t 0. 1221 (37)       1.3853 t 0. 0322 (1016)

                    Teaching                     1.242 :t 0. 1190 (65)            768 :t 0.2545 (2)        2338 t 0. 1160 (67)
Government          Nonteaching                  1.23 :t 0. 1180              1.38 :t 0. 1889 (13)         2655 :t 0. 1016 (67)
                    Teaching & nonteaching       1.2426 t 0.   08 (119)           3054 t 0. 1740 (15)    1.2497 t 0. 0768 (134)

                   Teaching                      1.3954 t 0.038 (776)         1.039:t 0. 1167 (17)         3892:t 0.0377 (793)
All                Nonteaching                   1.2970 t 0. 0453 (371)           28 t 0. 136 (35)       1.296 t 0.0430       (40)
                   Teaching & nonteaching          3636 t 0. 029S (1147)      1.2255 t 0.097 (52)        1.3576 t 0. 0289 (1199)
All hos itals
                   Teaching                      1.41S t 0. 1391 (29)         no case                    1.41S t 0. 1391 (29)
Profit             Nonteaching                   1.3332 :t 0. 083 (17S)       1.326 t 0. 08 (65)         1.3314 t 0. 0657 (243)
                   Teaching & nonteaching        1.30 t 0. 0751 (207)         1.326 t 0.08 (65)          1.3112 t 0. 065 (272)

                   Teaching                      1.40S t 0.036 (SSO)              3237 t 0. 1561 (37)    1.4062 t 0.0355 (887)
Nonprofit          Nonteaching                   1.3105 t 0.036 (57S)         1.469 t 0.0428 (304)       1.2541 t 0.0279 (882)
                   Teaching & nonteaching        1.3696 t 0.0261 (1428)       1.661 :t 0.0417 (341)      1.330 :t 0. 0226 (1769)

                   Teaching                      1.2857 t 0. 1065 (84)            9795 :t 0. 1489 (S)    1.2590 t 0. 0984 (92)
Government         Nonteaching                   1.110 t 0.0730 (126)         1.849 t 0.0471 (192)       1.952 t 0.045 (31S)
                   Teaching & nonteaching        1.2409 t 0.0610 (210)        1.766 t 0.0456 (20)         205 t 0.0383 (410)
                   Teaching                      1.390 t 0. 0337 (963)        1.2625 t 0. 1320 (45)      1.3851 :t 0. 0327   (l00S)
All                Nonteaching                   1.30 t 0. 030 (882)          1.807 t 0.0299 (561)       1.2542 t 0. 0222 (1443)
                   Teaching & nonteaching        1.3479 t 0.0230 (1845)       1.86 t 0. 0293      (60)   1.30 t 0. 0188 (2451)
 Appendix 10: Projected national CMI before reing by patient demography, 1988

 CMI:I standard errr (n)



                    Male                        Female                      Male & female

 0-6     ears

 White               3911 :I 0. 1076 (113)      1.2161 :I 0.0972 (68)       1.3253:1 0.0765 (lSl)
 Black              1.4755 :I 0. 2295 (21)        9S99 :I 0. 07S1 (lS)      1.2514 :I 0. 1331 (39)
 Other                S347 :I 0. 1370 (S)       1.5011 :I 0. 5568 (3)       1.0165 :I 0. lS7S (11)
Unknow             no case                        7493:1 0.   00 (1)            7493:1 0.   00 (1)
All race           1.3722 :I 0. 0928 (142)      1.751 :I 0. 0774 (90)       1.295S :I 0.    06 (232)
65- 74      ears
White              1.4345 :I 0.0526 (45S)       1.3235 :I 0. 0455 (46)      1.3786 :I 0.034 (922)
Black                5131 :I 0. 1795 (30)       1.543 :I 0. 1014 (38)       1.2567 :I 0. 1005 (68)
Other              1.4375:1 0. 1785 (5)         22316 :I 0.5628 (S)           922 :I 0.  36   (13)
Unknow
All race
                   1.3814 :I 0. 2750 (3)         S535 :I 0.   00 (1)        1.2494 :I 0. 2350 (4)
                   1.4389 :I 0. 049S (496)      1.3168:1 0.0432 (511)       1.3769 :I 0.329 (1007)

75-8     yea
Whte               1.2776 :I 0.0432 (328)      1.2631 :I 0. 0434 (456)          2692 :I 0.0310 (784)
Black              1.S33 :I 0. 1373 (26)         9396 :I 0.689 (27)         1.0591 :I 0. 0771 (53)
Other              1.5S5 :I 0. 0675 (5)        1.3692 :I 0.370 (2)          1.21S7 :I 0. 090 (7)
Unknow               7977:1 0. 1495 (4)          262:1 0. 5112 (6)          1.0752 :I 0. 305 (10)
Al race            1.2639 :I 0. 043 (363)      1.2457:1 0.0410 (491)        1.2535 :I 0. 0291 (S54)

S5+      ears
White                3333 :I 0.0934 (S2)       1.2326 :I 0.0425 (23)        1.2586 :I 0.0396 (31S)
Black              1.51S :I 0.   20 (S)        1.477:1 0. 1759 (20)         1.489:1 0. 1370 (28)
Other                1802 :I 0.2574 (2)          2104 :I 0. lS74 (2)            1953:1 0. 1302 (4)
Unknow             1.0222:1 0.   00 (1)        1.4490 :I 0. 369 (7)        1.3956 :I 0. 3239 (S)
Al race            1.110 :I 0.0843 (93)        1.2317:1 0. 0411 (265)      1.2523 :I 0. 0374 (35S)

AII al!es
White              1.36 :I 0. 0320 (9S1)         2775 :I 0. 0256 (1224)    1.3180 :I 0. 0201 (2205)
Black              1.369 :I 0.   09 (S5)       1.0311 :I 0. 0551 (103)     1.S38 :I 0. 0544 (188)
Other              1.00 :I O. OS99 (20)        l.S343 :I 0.3289 (15)       1.4152 :I 0. 159S (35)
Unknow              046 :I 0. 1527 (S)         1.2871 :I 0. 262 (15)       1.2028 :I 0. 1769 (23)
All race           1.3613 :I 0. 029S (1094)    1.2651 :I 0. 0240 (1357)         30 :I 0. 0188 (2451)
 Appendix 11: Projected national CMI after recing by hospital demography, 1988

 CMI t standard errr   (n)
                                                 Metropolitan                    Nonmetropolitan           Metropolitan & nonmetropolitan
      99
                    Teaching                       9536 t 0.2322 (6)             no                                   9536 t 0. 2322 (6)
 Profit             Nonteaching                  1.2292 t 0. 1749   (20)         1.233 t 0. 126 (33)                1.2323 t 0. 101S    (53)
                    Teaching & nonteaching         1656 t 0. 144 (26)            1.233 t 0. 126 (33)                1.20 t 0.945 (59)

                    Teaching                     1.0630 t 0. 1371   (2)          1.0774 t 0.   00 (1)               1.067S t 0. 0793 (3)
Nonprofit           Nonteaching                  1.402 t 0. 1156 (35)            1.06 t 0.0510 (123)                1.0827 t 0. 0471 (15S)
                    Teaching & nonteaching       1.36 t 0. 1095 (37)             1.06 t 0.0506 (124)                1.0824 t 0. 043 (161)


                    Teaching                      5912 t 0.    00
                                                                (1)              1.222 t 0.399 (3)                    9S94 t 0.3123 (4)
Goernment           Nonteaching                   9450 t 0.0859 (26)             1.742 t 0.0522 (109)               1.0493 t 0. 0454 (135)
                    Teaching & nonteaching        9319 t 0.0836 (27)             1.0755 t 0. 0516   (112)            0476 t 0.    04 (139)

                    Teaching                      9376 t 0. 1585 (9)             1.110 t 0. 2829 (4)                 9910 t 0. 1352 (13)
                    Nonteaching                  1.095 t 0.717 (Sl)              1.905 t 0.0356 (265)               1.09 t 0.0320       (34)
                    Teaching & nonteaching       1.0833 t 0.   06 (90)           1.09 t 0.353 (269)                 1.089 t 0. 0312 (359)
100-299 bes
                    Teaching                     1.3773 t 0. 2935   (15)         no                                   3773 t 0.2935 (15)
Profit              Nonteaching                  1.4339 t 0. l1S5 (117)           4354 t 0. 1410 (32)               1.4342 t 0.0976 (149)
                    Teaching & nonteaching       1.4274 t 0. 109 (132)           1.4354 t 0. 1410   (32)            1.4290 t 0.   09(164)

                   Teaching                      1.399 t 0.771 (145)
            1.4546 t 0. 2599   (21)            1.4061 t 0. 0746   (166)
Nonprofit          Nonteaching                   1.3214 t 0.521 (267)
            201 t 0.063 (159)                 1.27S3 t 0.   04 (426)
                   Teaching & nonteaching         347 t 0.0433 (412)              231 t 0.063 (180)                 1.3141 t 0. 036    (592)

                   Teaching                      1.5520 t 0.   24(lS)             980 t 0. 1726 (3)                 1.4704 t 0. 2140   (21)
Government         Nonteaching                    2494 t 0. 1211 (46)             2877 t 0.    08 (70)               2725 t 0. 0707 (116)
                   Teaching & nonteaching        1.3345 t 0. 1111   (64)         1.2751 t 0. 0837   (73)            1.328 t 0. 062 (137)
                   Teaching                      1.4127 t 0. 0714   (17S)        1.3954 t 0.2297    (24)            1.4106 t 0.   06 (202)
All                Nonteaching                   1.343 t 0. 0474 (430)            2561 t 0.    04 (261)             1.110 t 0.034 (691)
                   Teaching & nonteaching         363 t 0.395 (60)               1.267S t 0.   04 (285)              3335 t 0.311 (S93)
30+ bes
                   Teaching                       9125 t 0. 1588 (S)         no case                                 9125 t 0. 1588 (S)
Profit             Nonteaching                   1.798 t 0. 109 (41)         no case                                1.798 to. 109  (41)
                   Teaching & nonteaching         1362 t 0.0955 (49)         no                                      1362 t 0.0955 (49)
                   Teaching                     1.402 t 0.399 (703)
              1499 t 0. 1255 (15)                40 t 0. 0392 (71S)
Nonprofit          Nonteaching                  1.3516 t 0.0550 (276)             2490 t 0. lS70 (22)                34 t 0.0527 (29S)
                   Teaching & nonteaching         390 t 0.325 (979)               20 t 0. 1211 (37)                1.3842 t 0.317 (1016)


                   Teaching                     1.2723 t 0. 1232    (65)          768 t 0.2545 (2)                 1.2573 t 0. 120 (67)
Government         Nonteaching                  1.205 t 0. l1S9 (54)              4267 t 0. 188 (13)                 2517 t 0. 1026 (67)
                   Teaching & nonteaching         2438 t 0.0859 (119)             3389 t 0. 1747 (15)                2545 t 0.786 (134)

                   Teaching                     1.3899 t 0. 0376    (776)    1.050 t 0. 1166 (17)                  1.3838 t 0. 0369    (793)
All                Nonteaching                  1.3120 t 0. 0460 (371)            3150 t 0. 135S (35)              1.3122 t 0. 0436    (40)
                   Teaching & nonteaching       1.367 t 0. 0295 (1147)            243 t 0. 093 (52)                1.3595 t 0. 0285    (1199)
All hos itals
                   Teaching                     1.614 t 0. 1667 (29)         no                                    1.614 t 0. 1667 (29)
Profit             Nonteaching
                   Teaching & nonteaching
                                                1.3524 t 0. 083 (17S)         3333 t 0.0947 (65)                   1.3473 t 0.06   (243)
                                                1.3256 t 0.762 (207)
        1.3333 t 0. 0947       (65)             3274 t 0.0621 (272)
                   Teaching                     1.401 t 0.355 (S50)
         1.320 t 0. 1563 (37)                  1.407 t   0.34 (887)
Nonprofit          Nonteaching                  1.324 t 0.363 (57S)
         1.527 t 0.041S (30)                   1.2655 t 0.279 (882)
                   Teaching & nonteaching         3720 t 0.257 (1428)
            1709 t 0.0409 (341)                3333 t 0.223 (1769)

                   Teaching                       3241 t 0. 1091 (84)             980 t 0. 1591 (S)                1.2943 t 0. 100(92)
Government         Nonteaching                    1695 t 0.0700 (126)        1.759 t 0.045S (192)                    1734 t 0.0391 (31S)
                   Teaching & nonteaching       1.2314 t 0. 06   (210)       1.681 t 0.04 (200)                    1.205 t 0. 037S (410)
                   Teaching                     1.3899 t 0.331 (963)         1.26 t 0. 1324 (45)                   1.381 t 0.0322 (l00S)
All                Nonteaching                  1.3082 t   0.30 (882)        1.S15 t 0.296 (561)                   1.2590 t 0. 0222    (1443)
                   Teaching & nonteaching       1.508 t 0.227 (1845)
        1.S74 t 0.0291         (60)           1.3104 t O. Ql86    (2451)
Appendix 12: Projected national CMI after recing by patient demography, 1988

CMI t standard eITr (n)

                   Male                         Female                         Male & female

0-6      ears

White              1.4053 t 0. 1070 (113)         2675 t 0. 1083 (68)            3535 t 0.07S2    (lSl)
Black              1.4144 t 0. 2245   (21)      1.00 t 0.0796 (lS)               223 t 0. 1293 (39)
Other              1.342 t 0.243 (S)            1.6164 t 0. 4901 (3)             2657 t 0.2216 (11)
Unknow             no case                        7493 t 0.   00 (1)             7493 t 0. 00  (1)
Al race            1.3914 t 0. 091 (142)          220 t 0.0855 (90)              3249 t 0.0655 (232)

65- 74    ears
White              1.403 t 0.0508 (45S)         1.3233 t 0.   04 (46)            36 t 0.0337 (922)
Black              1.4652 t 0. 1741 (30)        1.0727 t O. 09S    (38)        1.2459 t 0.0971    (68)
Other              1.4375 t 0. 1785 (5)          2121 t 0. 5697 (S)            1.9142 t 0. 3639 (13)
Unknow             1.3814 t 0.2750 (3)           S535 t 0.    00(1)              2494 t 0.2350 (4)
All race           1.4101 t 0. 041 (496)        1.3177 t 0. 0422   (511)         3632 t 0.0319 (1007)

75-8     ears
White               277S t 0.   04 (328)        1.2653 t 0. 0428   (456)         2705 t 0.0310 (784)
Black               228 t 0. 140 (26)            9794 t 0.0837 (27               1017 t 0.0822 (53)
Other              1.055 t 0. 1100 (5)          1.392 t 0.370 (2)              1.80 t 0. 1177 (7)
Unknow              7977 t 0. 1495 (4)           262 t 0.5112 (6)              1.0752 t   0.35 (10)
All race            26 t 0.0414 (363)           1.2500 t 0. 045    (491)        2570 t 0.0292 (S54)

S5+    vea
Whte               1.4226 t 0. 1010   (S2)      1.241S t 0. 0436   (23)         28 t 0.0417 (31S)
Black               2314 t 0. 196 (S)           1.1191 t 0. 1788(20)           1.512 t 0. 1379 (28)
Other             1.802 t 0. 2574 (2)            3409 t 0. 0569 (2)            1.265 t 0. 1172 (4)
Unknow            1.0222 t 0.   00 (1)          1.4573 t 0.   362 (7)          1.4029 t 0. 3201   (S)
All race          1.396 t 0.09 (93)             1.2390 t 0. 0421   (265)        2799 t 0.0392 (35S)

All ae:es

White               36 t 0.0317 (9S1)          1.2829 t 0. 0254    (1224)      1.3192 t 0. 0199   (2205)
Black             1.35S3 t 0. 0943    (S5)     1.047 t 0.0563 (103)            1.865 t 0. 0537 (188)
Other             1.2075 t 0. 1127 (20)        1.86 t 0. 324 (15)               4890 t 0. 1603 (35)
Unknown           1.04 t 0. 1527 (S)           1.2910 t 0. 2591    (15)        1.2053 t 0. 1762   (23)
All race            35S9 t 0.0294 (1094)       1.2713 t 0.   023 (1357)        1.3104 t 0. 0186   (2451)
 Appendix 13: Mean CMI change by hospital demogrphy, 1988

 CMI change :t standard errr   (n)             Metropolitan                Nonmetropolitan             Metropolitan & nonmetropolitan


   99 bes
                    Teaching                     0433:t 0.0433 (6)         no                               0433:t 0.0433 (6)

 Profit             Nonteaching                  00 :t 0.0145 (20)                      09
                                                                               0251 :t 0.     (33)          0175 :t 0.057S (53)

                    Teaching & nonteaching       0137 :t 0.0148 (26)           0251 :t 0.099 (33)           0201 :t 0.0520 (59)


                    Teaching                     00 :t 0.00 (2)              00 :t 0.00 (1)            0.005 :t 0.005 (3)

 Nonprofit          Nonteaching                -0. 0415 :t 0.0538 (35)       0017 :t 0.020 (123)       -O. 007S    :t 0.195 (15S)

                    Teaching & nonteaching     -0. 0392 :t 0. 0509 (37)      0017 :t 0. 019S (124)     -0. 0077 t 0. 0192 (161)


                    Teaching                    00 :t 0.00 (1)               0252 :t 0.0252 (3)             01S9:t 0.01S9 (4)

Government          Nonteaching                -0. 087 :t 0. 065 (26)      0.122 :t 0.0177 (109)       -0.   00 :t 0.0186 (135)

                    Teaching & nonteaching     -0. 0835 :t 0. 05S3 (27)    0.125 :t 0.0172 (112)       -0.   00 :t 0.0180 (139)

                    Teaching                    029 :t 0.028 (9)          0.lS9 :t 0.01S9 (4)            0259 :t 0. 0203 (13)

                    Nonteaching                -0. 045 :t 0. 030 (Sl)       009:t 0.0164 (265)         -0. 0035 :t 0.0144 (34)

                    Teaching & nonteaching     -0. 0372 :t 0.276 (90)       001 :t 0.0161 (269)        -0. 0025 :t 0.0139 (359)

100-299 bes
                    Teaching                    07S2 :t 0. 1457 (15)      no 
                           07S2 :t 0. 1457 (15)

Profit              Nonteaching               -0. 0027 :t 0. 0231 (117)   -0. 0119 :t 0. 05S9 (32)
    -0. 007 :t 0.0220 (149)

                    Teaching & nonteaching      00    :t 0. 0261 (132)    -0. 0119 :t 0.05S9 (32)
          00 :t 0.0239 (164)
                   Teaching                     0017:t 0.0341 (145)       -0. 0059 :t 0. 0059 (21)    0.007 :t 0.029S (166)

Nonprofit          Nonteaching                  0239 :t 0. 0245 (267)       001 :t 0.0194 (159)             0172 :t 0. 0170 (426)

                   Teaching & nonteaching       0160 :t 0.0199 (412) .      007 :t 0.0172 (180)             0126 :t 0. 0148 (592)


                   Teaching                     09    :t 0.0915 (lS)      -0. 0222 :t 0. 0222 (3)       0759 :t 0. 0786 (21)
Government         Nonteaching                -0. 0335 :t 0. 0373 (46)    -0. 0508 :t 0. 0451 (70)    -0. 0439 :t 0. 030 (116)
                   Teaching & nonteaching       OOlS :t 0.0374 (64)       -0. 0496 :t 0. 0433 (73)    -0. 0256 :t 0. 0289 (137)

                   Teaching                     0173:t 0.316 (17S)
       -0.  00  :t 0. 005S (24)      0143 :t 0.027S (202)
                   Nonteaching                  0105 :t 0. 0169 (430)     -0. 0113 :t 0. 0184 (261)     0022 :t 0. 0126 (691)
                   Teaching & nonteaching       0124 :t 0. 0151 (60)      -0. 0110 :t 0. 0168 (285)     009 :t 0.0116 (S93)
30+ bes
                   Teaching                   -0. 108 :t 0.752 (S)        no                          -0. 108 :t 0.752 (S)
Profit             Nonteaching                  08 :t 0.0621 (41)         no                            08    :t 0.0621 (41)

                   Teaching & nonteaching       0565 :t 0.541 (49)        no                            0565 :t 0.0541 (49)


                   Teaching                   -0. 0071 :t 0. 0157 (703)     0013 :t 0. 0013 (15)      -0. 009 :t 0.0154 (71S)
Nonprofit          Nonteaching                  0120 :t 0. 015S (276)       0254 :t 0. 020 (22)         0130 :t 0. 0147 (29S)
                   Teaching & nonteaching     -0. 0017 :t 0. 0121 (979)     0156 :t 0. 0123 (37)      -0. 0011 :t 0. 0117 (1016)

                   Teaching                     0241 :t 0. 030 (65)         00 :t 0.00 (2)              023 :t 0.030 (67)
Government         Nonteaching                -0. 026 :t 0. 0560 (54)     0.38 :t 0.038 (13)          -0. 0138 :t 0. 045S (67)
                   Teaching & nonteaching       0012 :t 0.305 (119)         0334 :t 0.0334 (15)         00    :t 0. 0273 (134)

                   Teaching                   -0. 0055 :t 0. 0145 (776)     0011 :t 0. 0011 (17)      -0. 0054 :t 0.0142 (793)
All                Nonteaching                  0149:t 0. 0159 (371)        0303 :t 0. 0190 (35)        0162:t 0.0146 (406)
                   Teaching & nonteaching       0010 :t 0. 0110 (1147)      020 :t 0.0129 (52)          0019 :t 0. 0106 (1199)
All hos itals
                   Teaching                  . 0. 0196 :t 0.786 (29)      no                            0196 :t 0.0786 (29)

Profit             Nonteaching                  0191 :t 0. 0210 (17S)       00 :t 0.0550 (65)           015S :t 0. 0212 (243)

                   Teaching & nonteaching       0192 :t 0. 0211 (207)       00 :t 0.0550 (65)           0162 :t 0. 0207 (272)


                   Teaching                   -O. 0056:t   0.0142 (S50)   -0. 0028 :t 0. 0034 (37)    -0. 0055 :t 0. 0136 (887)
Nonprofit          Nonteaching                 0142 :t 0.0140 (57S)         0057 :t 0. 0130 (30)        0113 :t 0. 0102 (882)
                   Teaching & nonteaching      00   :t 0.0102 (1428)        00   :t 0.0116 (341)        0028 :t 0.OOS5    (1769)

                   Teaching                    038 :t 0.030 (84)            0011 :t 0.0134 (S)          0352 :t 0. 0281 (92)
Government         Nonteaching                -0. 0414 :t 0. 0301 (126)   -0. 009 :t 0. 0195 (192)    -O. 021S :t 0. 0167 (31S)
                   Teaching & nonteaching     -0. 005 :t 0. 0220 (210)    -0. 005 :t 0. 01S7 (20)     -0.   00 :t 0. 0145 (410)
                   Teaching                   -0. 0010 :t 0. 0130 (963)   -0. 0021 :t 0. 0036 (45)    -0. 0010 :t 0. 0125 (l00S)
                   Nonteaching                  0073 :t 0. 0110 (882)      00     :t 0.0116 (561)       007 :t 0.001 (1443)

                   Teaching & nonteaching      0029 :t 0.   00 (1845)      00     :t 0.0107 (60)        0023 :t 0. 0070 (2451)

 Appendix 14: Mean CMI change by patient demography, 1988

 CMI change :I standard errr   (n)          Male   Female                     Male & female

 0-6  vea
 White                0142 :I 0. 0338 (113)          0514 :I 0. 034 (68)        0281 :I 0. 0247 (lSl)
 Black              -0. 0611 :I 0. 0595 (21)         0107 :I 0. 0107 (lS)     -0. 0279 :I 0.325 (39)
Other                 2995 :I 0. 2172 (S)            1153 :I 0. 1153 (3)        2492 :I 0. 1594 (11)
Unknow              no case                          00 :I 0.00 (1)             00 :I 0.00 (1)
All race            0.191 :I 0.0311 (142)            04 :I 0. 0263 (90)         0291 :I 0.215 (232)

65- 74    ears
White               -0. 0281 :I 0. 0166 (45S)      -0. 0001 :I 0. 0192 (46)   -0. 0140 :I 0. 0127 (922)

Black               -0. 0479:1 0.919 (30)            0184 :I 0.434 (38)       -0.0108 :I 0. 0470 (68)

Other                00         00
                            :I 0.      (5)         -0. 0194:1 0. 0194 (S)     -0. 0119 :I 0. 0119 (13)

Unknow               00         00
                            :I 0.      (3)           00    :I 0.00    (1)       00        00
                                                                                      :I 0.      (4)

All race            -0. 028 :I 0. 0163 (496)         00    :I 0. 0177 (511)   -0. 0137 :I 0. 0120 (1007)


75-8      ears
White               0.001 :I 0. 0179 (328)           0022 :I 0. 0147 (456)      0013 :I 0. 0114 (784)
Black                 0453 :I 0. 0775 (26)         0.39S :I 0.797 (27)          0425 :I 0. 0551 (53)
Other               -0. 0530 :I 0. 0530 (5)         00    :I 0. 00   (2)      -0. 0379 :I 0. 0379 (7)
Unknow               00         00
                            :I 0.      (4)          00    :I 0. 00   (6)        00:1 0.  00      (10)
All race              0026 :I 0. 0171 (363)         002:1 0.0143 (491)          0035 :I 0. 0110 (S54)

S5+      ears

White                0892 :I 0. 0535 (S2)           001 :I 0.0156    (23)       029S :I 0. 0180 (31S)

Black              0.795 :I 0.538 (S)              -0. 028 :I 0.0165 (20)       0022 :I 0. 020 (28)

Other                00  :I 0.  00 (2)               1305 :I 0. 1305 (2)       0652:1 0.0652 (4)

Unknow               00  :I 0.  00 (1)              003 :I 0.335 (7)           0072 :I 0. 0291 (S)

All race            0855:1 0.0474 (93)              0072 :I 0. 0140 (265)     0.275 :I 0.0161 (35S)


All ae:es

White              -0. 0039 :I 0. 0115 (9S1)        0053 :I 0. 007 (1224)       0012 :I 0. 0074 (2205)
Black              -0. 0106 :I 0. 0429 (S5)         0135 :I 0. 0263 (103)       0026 :I 0. 0241 (188)
Other                1065 :I 0. 091S (20)           030 :I 0.0307 (15)        0.737 :I 0. 0538 (35)
Unknow               00        00
                           :I 0.      (S)           0038 :I 0. 0150 (15)       0025 :I 0. 007 (23)
All race           -0. 0024 :I 0. 0109 (1094)       002 :I 0.   00 (1357)      0023 :I 0. 0070 (2451)
  Appendix 15: Mean reimbursment change by hospital demography,          1988

  $ :t standard errr   (n)                         Metropolitan                   Nonmetropolitan             Metropolitan & nonmetropolitan
       99 bes
                        Teaching                   135. 16 :t 135. 16 (6)        no                           135. 16 :t 135. 16 (6)
  Profit                Nonteaching                15. 16 :t 45. 22 (20)         66. 38 :t 245. 17 (33)       47. 06 :t 152. 72 (53)
                        Teaching & nonteaching     42. 86 :t 46. 27 (26)         66. 38 :t 245. 17 (33)       56. 02 :t 137. 68 (59)

                        Teaching                   2.49 :t 2.49 (2)                  00 :t 0.00 (1)            66 :t 1.66 (3)
 Nonprofit              Nonteaching                 129.47:t 167. 91 (35)            53:t 52. 79 (123)
       25. 15 :t 55. 30 (15S)
                        Teaching & nonteaching      122. 34 :t 15S. 79 (37)          49 :t 52. 37   (124)     24. 65 :t 54.27 (161)

                        Teaching                    00 :t 0. 00 (1)              66. 62 :t 66.62 (3)         49. 97 :t 49.97 (4)
 Government             Nonteaching                270. 5S :t 188. 75 (26)       32. 26:t 46.67 (109)         26. 06 :t 52. 95 (135)

                        Teaching & nonteaching     26.56 :t 1Sl. 90 (27)         33. 18 :t 45. 44 (112)       23. S7 :t 51.45 (139)


                        Teaching                  90. 66 :t 90.04 (9)            49. 97 :t 49. 97 (4)        7S. 14 :t 62. 95 (13)
 All                    Nonteaching                139. 05:t 94. 94 (Sl)         23. 64 :t 43. 28 (265)       14. 44 :t 40. 01 (34)
                        Teaching & nonteaching     116. 08 :t 86. 13 (90)        24. 03 :t 42.64 (269)        11. 09 :t 38. 63 (359)
 100- 29 bes
                        Teaching                  243.S2 :t 454. 56 (15)         no                          243. S2 :t 454. 56 (15)
 Profit                 Nonteaching               -8. 66 :t 72. 29 (117)          31.56 :t 155. 51 (32)       135S:t 65. 61 (149)

                        Teaching & nonteaching    20. 02 :t S1.61 (132)           31.56 :t 155. 51 (32)        95 :t 72. 16    (164)

                        Teaching                  5.3 :t 106.40 (145)             15. 74 :t 15. 74 (21)        67 :t 9292 (166)
 Nonprofit              Nonteaching               74.55 :t 76. 64 (267)          16. 11 :t 51. 38 (159)      52. 74:t 51. 69 (426)
                        Teaching & nonteaching    50. 19 :t 62. 14 (412)         12. 39 :t 45. 41 (180)      38. 70:t 45. 38 (592)

                       Teaching                   287.84 :t 285. 36 (lS)         58.2 :t 5S. 62 (3)          23.34 :t 245. 1S     (21)
 Government            Nonteaching                 104. 64 :t 116. 31 (46)       134. 08 :t 119. 1S (70)      122. 41 :t S5. 11 (116)

                       Teaching & nonteaching       73 :t 116. 70 (64)           13O. 9S :t 114. 28 (73)     -67. 11 :t S1.64 (137)


                       Teaching                   54. 00 :t 9S. 64 (17S)         21.0 :t 15. 32 (24)         45. 08 :t 86.93    (202)
 All                   Nonteaching                32. 74:t 52. 97 (430)          30. 01 :t 48. 56 (261)       03 :t 37. 71     (691)
                       Teaching & nonteaching     38. 96 :t 47.26 (60)           29. 26 :t 44. 48 (285)      17. 19:t   35. 17 (S93)
30+ bes
                       Teaching                    336. 74:t 23. 56 (S)         no case
                     336. 74 :t 23.56 (S)
Profit                 Nonteaching                276. 34 :t 193. 68 (41)       no case
                    276. 34 :t 193. 68 (41)
                       Teaching & nonteaching     176. 24 :t 168. 93 (49)       no                          176. 24:t 168. 93 (49)

                       Teaching                   22.32 :t 49. 12 (703)           51 :t 3. 51 (15)           21.7S :t 48. 10    (71S)
Nonprofit              Nonteaching               37. 63 :t 49.48 (276)          67. 19 :t 54. 46 (22)       39. S1 :t 45. 99   (29S)
                       Teaching & nonteaching     5.42 :t 37. 93    (979)       41. 37:t 32. 52 (37)           71 :t 36. 56    (1016)

                       Teaching                  75. 38 :t 96. 50 (65)            00 :t 0.00 (2)            73. 13 :t 93. 61 (67)
Government             Nonteaching               -82. 48 :t 174. 91 (54)        101. 86 :t 101.86 (13)      -4. 71 :t 142.29 (67)
                       Teaching & nonteaching      74 :t 95. 11 (119)           88. 28 :t 88. 28 (15)       13. 21 :t S5. 00 (134)

                       Teaching                   17. 38:t   45. 30   (776)       10 :t 3. 10 (17)           16. 94 :t 44.33 (793)
All                    Nonteaching               46.53 :t 49. 62    (371)       80. 07 :t 50. 20 (35)       49.42:t 45. 54      (40)

                       Teaching & nonteaching      29:t 34. 59 (1147)
          54. 91 :t 34. 02 (52)       5.52 :t 33. 12    (1199)
All hos itals
                       Teaching                  61.S :t 245. 20 (29)           no case
                    61.S :t 245. 20 (29)
Profit                 Nonteaching               59.65 :t 65. 64 (17S)          1S. 16 :t 145. 13 (65)
     48. 56 :t 61.64 (243)
                       Teaching & nonteaching    59. S7 :t 65. 79 (207)         1S. 16 :t 145. 13 (65)
     49. 90 :t 60. 77 (272)

                       Teaching                   17. 54:t 44.47 (850)            51 :t 9.08 (37)            17. 12:t 42. 62 (887)
Nonprofit              Nonteaching               44. 57:t 43. 73 (57S)          15. 12 :t 34. 49 (30)       34. 42 :t 31.01 (882)
                       Teaching & nonteaching    7.59 :t 31. 84 (1428)          12. 67 :t 30. 76 (341)        57 :t 26. 38   (1769)

                       Teaching                  120. 01 :t 96. 04 (84)          99 :t 35.56 (S)            109. 84 :t S7. 76 (92)
Government             Nonteaching                129. 39 :t 94.07 (126)        23. 66 :t 51.0 (192)        -65. 55 :t 48. 54 (31S)
                       Teaching & nonteaching     29. 62 :t 68.64 (210)         22. 60 :t 49.45 (20)         26. 20 :t 42. 59 (410)

                       Teaching                     17 :t 40. S0 (963)             64 :t 9. 57 (45)            28 :t 38. 9S (100)
All                    Nonteaching               22. 76 :t 34. 34   (882)         20 :t 30.62 (561)         14. 76 :t 24. 12 (1443)
                       Teaching & nonteaching      22 :t 26. 88   (1845)        1.61 :t 28. 36 (60)           34 :t 21.41 (2451)
Appendix 16: Mean reimbursment change by patient demography, 1988

$ t standard errr (n)               Male           Female                    Male & female

0-6  vea

White              40. 71 t      104. 51 (113)    155. 88 :I 107. 13 (68)    83.98 t 76. 5S (lSl)

Black               190. 50      t 185. 56 (21)   33. 43 t 33.43 (lS)        -87.5 :I 101. 57 (39)

Other              S91.56 t       667. 32 (S)     30. 13 :I 30. 13 (3)       731. 35 t 48. 46 (11)

Unknown            no case                          00 t 0. 00   (1)           00 t 0. 00 (1)

All race           54. 45 :I 96. 00    (142)      134. 60   t S1.73 (90)     S5.54 t 66. 69 (232)



65- 74 vea
White              -8. 72      t 50. 63 (45S)        02:1 59. 08 (46)        -4.61      t 38. 94 (922)
Black               149. 44      t 28. 54 (30)    57. 57   t 135. 40  (38)    33. 75    t 146. 61   (68)
Other                   00 t 0.00    (5)          -6. 68    t 60. 68 (S)      37.3 t 37.3 (13)
Unknow                  00 t   0. 00 (3)            00 t    0. 00 (1)          00 t 0. 00    (4)
All race           -87. 26     t 49. 77 (496)      1.23 t 54. 57 (511)       -43. 60    t 36. 99 (1007)


75-8    vea
White              1.27 t 55. 41 (328)            12. 31   t 44.47 (456)       69 t 34. 71 (784)
Black              141.35 t 241.91 (26)           121.3 t 24. 39 (27)        131.7 t 171. S1        (53)
Other               139. 91 t 139. 91 (5)           00 :I 0. 00 (2)           99. 94 :I 99. 94 (7)
Unknow               00 :I 0. 00 (4)                00:1 0.00 (6)              00 t 0. 00 (10)
Al race              35 :I 52. 94 (363)           1S. 11 :I 43. 44 (491)     14. 38 t 33. 60 (S54)

S5+  vea

White              272.41 t 159. 53 (S2)          26. 74 t 47. 21 (23)       90. 09    t 54. 21 (31S)

Black              247. 99     t 167. 79   (S)    -89. 17 t 51.65 (20)         16 t 65. 46  (28)

Other                00 t 0. 00      (2)          344. 12 t 344. 12 (2)      172. 06 t 172.06 (4)

Unknown             00 t       0. 00 (1)          34. 32 t 99.43 (7)         30. 03 t 86. 22 (S)

All race           261.53 t 141.30 (93)           20. 59 t 42. 39 (265)      S3. 1S t 48.49 (35S)

All al!es

White              11.66 t 35. 07 (9S1)           16. 50   t 29. S9 (1224)    96 t 22. 77     (2205)

Black               33. 23 :I 133.S2 (S5)         41.5S t S2. 19 (103)        75 t 75. 25 (188)

Other              321.64 t 279. 65 (20)          74. 34   t S3. 35   (15)   215. 65 t 163.21 (35)

Unknown              00 t 0.00 (S)                16. 01   t 44. 70   (15)   10. 44 t 28. 84 (23)
All race                16 t 33.50 (1094)         19. 03   t 27. 69 (1357)    34 t 21.41 (2451)
  Appendix 17: Number of bills by hospital demography, 1988

                                                   Metropolitan   Nonmetropolitan   Metropolitan & nonmetropolitan
- 1-99    bes
                     Teaching                             S76             691          10,567

  Profit             Nonteaching                          977                         175 241

                     Teaching & nonteaching               853        92, 955          1S5


                     Teaching                                           037               421

 Nonprofit           Nonteaching                     174            439 549           614,477

                     Teaching & nonteaching          196,312            586           64, S9S

                     Teaching                            569            419            10, 988

 Government          Nonteaching                         337        405 219           491 556

                     Teaching & nonteaching                         411 638           502,544


                     Teaching                            S29              147              976

 All                 Nonteaching                     345,242              032         281 274

                     Teaching & nonteaching          38,071         953 179           333, 250


 100-299 bes
                     Teaching                         50,                              53, 594

 Profit              Nonteaching                     450, 101       116,651           566 752

                     Teaching & nonteaching          501,049        119 297           620


                    Teaching                         593,S74        74,               667 883

 Nonprofit          Nonteaching                          692       590 S59            639,551

                    Teaching & nonteaching           642 566                          307,434


                    Teaching                          52, 050       11, 592               642

 Government         Nonteaching                      211 194       251 962           463 156

                    Teaching & nonteaching           263           263 554           526, 79S


                    Teaching                         696 S72           247           7S5 119

 All                Nonteaching                      709, 9S7      959 472           669, 459

                    Teaching & nonteaching                S59      047 719           454 57S


 30+ bes
                    Teaching                            320                               320

 Profit             Nonteaching                     176 753              695         177

                    Teaching & nonteaching          216 073              695         216 768


                    Teaching                        751 312              639         S3O, 951
Nonprofit           Nonteaching                     984,754             301          075 055
                    Teaching & nonteaching          736            169, 940

                    Teaching                        345 560         23, 249          36,
Government          Nonteaching                     1S5,51S         41, 426          226,944
                    Teaching & nonteaching          531 07S             675          595 753

                    Teaching                        136 192        102,              239,

All                 Nonteaching                     347,025        132, 422          479 447

                    Teaching & nonteaching          483 217        235, 310          71S 527


All hos itals
                    Teaching                            144            337           103 481

Profit              Nonteaching                     710 S31            610           919 441

                    Teaching & nonteaching              975        212 947           022 922


                    Teaching                            570        162 685           529, 255

Nonprofit           Nonteaching                         374        120 709           329 083

                    Teaching & nonteaching          574 944        283 394           S5S, 338


                    Teaching                        402, 179                         443,439

Government          Nonteaching                     483 049       69S 607            lSl 656

                    Teaching & nonteaching          885 228       739 867            625, 095


                   Teaching                         867 S93              282        076, 175
All                Nonteaching                      402,254       027,              430 180
                   Teaching & nonteaching           270 147                         506 355



                                                                     Ii "
 Appendix 1S: Number of bils by patient demography, 1988

                       Male                  Female                 Male & female
. 0-6     ears
 White                   433,869                    341                720, 210
 Black                        765                                      170 173
 Other                        413                   761                 32, 174
 Unknow                       621                  472                     093
 All race                555,                      9S2                 940,650

 65- 74    ears

 White                        067              736 299                424,

 Black                   142 841               170 281                313 122

 Other                    32, 047                  889

Unknow                    59,395                   474                125 869

All race                 922 350                   943                932, 293


75-8       ears

White                        017                   303                S94 32O

Black                    100 353               137 S71                23,224

Other                         111                                         117
Unknow                        761                  530                    291
All race               1,394 242               869 710                263 952

S5 +      ears
White                    383 775              838 975                      750
Black                        695                                      105, 685
Other                        338                   S15                 13, 153
Unknow                        l88                 690                     S7S
All race                431                   937 470                 369

All ae:es

White                   739,728               521 91S                261,
Black                   369,654               457 550                S27
Other                                          73, 471               150
Unknown                 117 965               149, 166               267
All race                    256               202 105               506,361

 , This total i ncludes six bils not in the prevous table   beus they could not be classified by hospital control.
 Appendix 19: Projected reimbursment effect by hospital demography, 1988

 $1,   00 t standard errr                        Metropolitan               Nonmetropolitan          Metropolitan & nonmetropolitan
      99
                     Teaching                      20 t 1
                  no 
                       428 t 1,428

 Profit              Nonteaching                   273 t 3, 797                 05S t 22     375
      247 t 26, 763

                     Teaching & nonteaching        980 t 4,296                  170 t    22, 790
       40 t 2S 5S2


                     Teaching                    53t53                      0 to                     SOt 50 

 Nonprofit           Nonteaching                     64 t 29 372                991 t 23                  454 t 33 9S1

                     Teaching & nonteaching       24, 017      t 31, 172        014 t 23    492       15, S97 t 34,


                     Teaching                    0 t 0
                     428 t 428                549 t 549

 Government          Nonteaching                  23, 361 t 16 296          13, 072   t 1S, 912       12, S10 t 26 028

                     Teaching & nonteaching           68 t 16 536                65S t 1S    705         99 t 2S S56


                     Teaching                      15S t 3, 136            S57 t 857
                  061 t 3    272

 All                 Nonteaching                 -4,00      t 32 777             128 t 40    511
        502 t 51,

                     Teaching & nonteaching          119 t 32, 736         22, 905      t 40
         14, 786 t 51 503

 100-29 bes
                     Teaching                       422 t 23, 159          no 
                      13, 067 t 24 362

 Profit              Nonteaching                   898 t 32, 538                682 t 1S, 14O
         696 t 37       lS5

                     Teaching & nonteaching         031 t 4O, S91               765 t 1S, 552
         172 t 44, 764



                     Teaching                      171 t 63       188                165
                                                                                165 t 1                783 t 62,

 Nonprofit           Nonteaching                 7S, 18O t 80 372            519 t 3O 35S               470 t 84      748

                     Teaching & nonteaching         44 t 102 069             23 t 30, 192               29S t 104, 711


                     Teaching                       9S2 t 14       S53     -6 t 68
                     168 t 15

Government           Nonteaching                     09 t 24 564                 7S3 t 30     029        695 t 39      419

                     Teaching & nonteaching       508 t 30       721             520 t    30, 119        353 t 43,


                     Teaching                       631 t 68       739          862 t 1    352          393 t 68, 250

All                  Nonteaching                55, 9S5    t 9O   57S            794 t 46     592   24, 105 t 100 665

                     Teaching & nonteaching         771 t       113 748          656 t    46, 603       38 t  121,49S

30+ bes
                     Teaching                       241 t 9,223            no case                      241 t 9     223

Profit               Nonteaching                   84 t 34                 no case                     036 t 34

                     Teaching & nonteaching        081 t 36        501     no case                     203 t 36       619


                    Teaching                    -61 40 t 135 144           28 t 28                  -61 65S t 136 169

Nonprofit           Nonteaching                    056 t 48       726        067 t 4  91S
             79S t 49     442

                    Teaching & nonteaching          249 t       141 709      030 t 5, 526
              491 t 142


                    Teaching                       04 t 33 347             0 to                        971 t 34     524

Government          Nonteaching                     302 t 32 449 c           220 t 4, 220
              601 t 32     292

                    Teaching & nonteaching        986 t 50 511               710 t 5      710
        S70 t     50 639


                    Teaching                         507 t 142 069         319 t 319                 54, S70 t 143 588

All                 Nonteaching                 62, 677 t 66 S39                603 t 6                114 t 67 374

                    Teaching & nonteaching      14, 750 t 155 074               921 t S    005         04 t 156 27S

All hos itals
                    Teaching                      06 t 24,310              no                         331 t 25, 374
Profit              Nonteaching                 42, 401    t 46, 659        788 t 30       276          64 t 56, 674
                    Teaching & nonteaching      48, 493    t 53,            867 t       30 905      51, 04 t 62 163

                    Teaching                        050 t 149       711      222 t 1,477                421 t 150, 417
Nonprofit           Nonteaching                    427 t 96      572            945 t 38, 653       114 5S7     t 103, 235
                    Teaching & nonteaching         314 t       177 506          261 t 39    477        776t 180

                    Teaching                       26 t 38 625             123 t 1, 467             48, 707 t 38 916
Government          Nonteaching                 -62 502    t 45   440      16, 529 t 35 97S             45S t 57 35S
                    Teaching & nonteaching       26, 220   t   60, 762          721 t 36     586    -42 577 t 69 213

                    Teaching                        261 t 157       S10      175 t 1,993
               370 t 15S     889
All                 Nonteaching                    435 t 116       S33      461 t 62, 095
          80, 149   t 130  976
                    Teaching & nonteaching         031 t       195 422      60 t 63, 419
              777 t     203 531




                                                                                   A'7
. Appendix 20: Projected reimbursment effect by patient demography,            1988

 $1,    00 :I standard error         Male        Female               Male & female

 0-6      ears

 White                     663 :I 45               635 :I 30, 676        48 :I 55, 154

 Black                   17, 672:1 17 213         588 :I 2, 588        14, S31 :I 17

 Other                     416 :I 12, 287         lS5 :I 4 lS5        23, 530 :I 15, 716

 Unknow                 no                      0:1.0                 0:1 0

 All race                    256 :I 53              S19 :I 31, 465    80, 463 :I 62 732


 65-74 yea
 Whte                    143 013:1   S5   467      716 :I 102 5S1      152, 761 :I 133 345
 Black                      34 :I 40 930          803:1 23,056            568 :I 45 907
 Other                  0:1 0                      23 :I 2              574 :I 2,574
 Unknow                 0:1 0                   0:1 0                 0:1 0
 All race               167, 744 :I 95 675      -2,472 :I 109          171 44:1 145, 456

 75-8      ears
 White                   567:1 68;377              438 :I 73              257 :I 100 462
 Black                     lS5 :I 24,276           732 :I 34,         31, 24 :I 40 929
 Other                   S14 :I 2 S14           0:1 0                   610 :I 3, 610
 Unknow                0:1 0                    .0 :I 0               0:1 0
 All race              13, 036 :I 73, Sl1       33, 86    :I Sl 22O      936 :I 109, 669

S5 + yea
White                  104, 544 :I 61,224           434 :I 39         110 15S :I 66 285
Black                   356 :I 5, 654           -6, 419 :I 3 71S      757 :I 6 91S
Other                  0:1 0                      345 :I 2 345          263 :I 2 263
Unknown                0:1 0                    676 :I 1 95S          S37 :I 2,
All race               112 980 :I 61,041            303 :I 39 739     113, 912 :I 66 405

All ae:es

White                  -43, 605 :I 131 152      74, 612 :t 135 160      716 :t 188, l1S
Black                   12, 28 :t 49 467           025 :t 37           411 :t 62,247
Other                     737:t 21, 508          462 :t 6 124           429 :t 24 544
Unknow                 O:t 0                     38 :t 6               7S9 :t 7, 704
All race                   SlS :t 144 193       9S, 99 :t 144 046       777 :t 203 531
                                                                                                               (%)




 Appendix 21: DRG fruency,      errr freuency, and errr proportion by proportion of errrs ,   1988

         DRG desription

         Craniotomy for trauma age ::=lS

         Spinal   proure                                                                               1\0 (0.



                                                   sytem proure
                                                                                                       1\0 (0.

         Peripheral & crnial nelVe & other nelVOUS                       age ::=70 &/or cc
                                                                                                       1\0 (0.)

         Nonspeifc cerebroasular disorders with cc
                                                                                                       1\0 (0.)

         Nonspefic cerebroasular disorders w/o cc
                                                                                                       1\0 (0.)

         Traumatic stupor & coma, coma ::1 hr
                                                                                                       1\0 (0.

         Concussion age ::=70 and/or cc

                                                                                                       1\0 (0.)

         Concusion age 1S-69 w/o     cc

                                                                                                       1\0 (0.

         Other disrders of the eye age     ::=lS w/o cc

         Salivar gland   proure except sialoadenectomy
                                                1\0 (0.)

                                                                                                       1\0 (0.)

         Ear, nOs & throt malignancy

                                                                                                       1\0 (0.)

         Nasl trauma &   deformity

                                                                                                       1\0 (0.)

         Major chest trauma age -:70 w/o cc

                                                                                                       1\0 (0.

         Pneumothora age ::=70 and/or cc

                                                                                                       1\0 (0.

         Pneumothora age -:70 w/o cc

                                                                                                       1\0 (0.)

102      Other repiratory diagnos age -:70
                                                                                                       1\0 (0.)

11S      Cardiac pacemaker pulse generator replacement only
                                                                                                       1\0 (0.

126      Acute & subacute endocrditis

         Minor small & large boel proure age ::=70 and/or cc

                                                                                                       1\0 (0.)

152
                                                                                                       1\0 (0.

164      Appendectomy with complicated principal diagnosis age:: =70 and/or cc
                        1\0 (0.

173      Digestive malignancy age -:70 w/o cc

                                                                                                       1\0 (0.)

17S      Uncomplicated peptic ulcer -:70 w/o cc

                                                                                                       1\0 (0.)

1S7      Dental exractions & restorations

193      Bilary tract proure except total cholectectomy age ::=70 &/or cc
                             1\0 (0.


         Bilary tract proure except total cholectectomy age -:70 w/o cc

                                                                                                       1\0 (0.)

194
                                                                                                       1\0 (0.)

199      Hepatobiliary diagnostic proure for malignancy
                                                                                                       1\0 (0.

201      Other hepatobiliary or pancrea OR proures
                                                                                                       1\0 (0.)

202      CilThosis & alcoholic hepatitis

         Knee proures age ::=70 and/or cc

                                                                                                       1\0 (0.

221
                                                                                                       1\0 (0.

224     Upper exremity proures except humeru & hand age -:70 w/o cc

227     Soft tisue   proure age -:70 w/o cc
                                                           1\0 (0.)


232     Arhropy
                                                                                      1\0 (0.


                                                                                                      1\0 (0.)

235     Fracture of femur

                                                                                                      1\0 (0.)

237     Sprains , strains , & disloctions of hip, pelvis & thigh

                                                                                                      1\0 (0.)

        O!\teomyelitis

                                                                                                      1\0 (0.)

242     Se'ptic arthritis

                                                                                                      1\0 (0.

259     SiJbtotal mastectomy for malignancy age :: =70 and/or cc
                                                                                                      1\0 (0.

262     Brest biops & locl excision for non-malignancy                                                1\0 (0.

        Skin grafts for skin ulcer or cellulitis age -:70 w/o cc
                                                                                                      1\0 (0.)

269     Other skin, subcutaneous tissue & breast OR procure age :: =70 &/or cc
                                                                                                      1\0 (0.

274     Malignant bret disrders age :: =70 and/or cc
                                                                                                      1\0 (0.

285     Amputations for endocrine, nutritional & metabolic disorders
                                                                                                      1\0 (0.

287     Skin grafts & wound debride for endocrine, nutritional & metabolic disrders
                                                                                                      1\0 (0.)

292     Other endocrine, nutritional & metabolic OR procure age ::70 &/or cc
                                                                                                      1\0 (0.

        Endocrie disorders age ::=70 and/or cc
                                                                                                     . 1\0 (0.
301     Endocrine disorders age -:70 w/o cc
                                                                                                      1\0 (0.)

        Kidney, ureter & major bladder procure for non-malignancy       age ::=70 &/or cc
                                                                                                      1\0 (0.

31S     Kidney & urinary tract neoplasms age :: =70 and/or cc
                                                                                                      1\0 (0.

323     Urinary stones age :: =70 and/or cc
334     Major male pelvic    proure   with cc
                                                                                                      1\0 (0.

                                                                                                      1\0 (0.)

339     Testes procure , non-malignant age :: = 1S                                                    1\0 (0.)

342     Circumcision age ::=lS
                                                                                                      1\0 (0.

357     Uteru & adnex        proures, for malignancy                                                  1\0 (0.

363     D&C, coniztion & radioimplant, for malignancy
                                                                                                      1\0 (0.)

        Infections , female reprouctive sytem
394     Other OR procure of the bloo & bloo forming organs                                            1\0 (0.)

                                                                                                      1\0 (0.)

397     Cogulation disrders

                                                                                                      1\0 (0.)

399     Reticuloendothelial & immunity disorders age -:70 w/o cc
                                                                                                      1\0 (0.)

420     Fever of unknown origin age 1S-69 w/o cc
                                                                                                      1\0 (0.

447     Allergic rections age ::=lS
                                                                                                      1\0 (0.

        Signs & syptoms w/o cc
                                                                                                     1\0 (0.

471     Bilateral or multiple major joint procure of lower exremities
                                                                                                     1\0 (0.

474     Respiratory sytem diagnosis with tracheotomy
476     Protatic or proure unrelated to principal diagnosis                                          1\0 (0.)

                                                                                                     1\0 (0.)

        Peripheral & cranial nelVe & other nelVOUS system     procure age -:70 w/o cc                2\0 (0.
        Multiple sclerois & cerebellar ataa
                                                                                                     2\0 (0.)

                                                                             '\(\




        Cranial & peripheral nerve disrders age ..70 w/o cc

                                                                                                          2\0 (0.
        Other disrders of nervous sytem age ..70 w/o cc                                                   2\0 (0.
        Exraoclar     proure    except orbit age:.   = 1S

                                                                                                          2\0 (0.)

- 44    Acute major eye infections

        Sinus & mastoid  proure     age :.=lS

                                                                                                          2\0 (0.)

                                                                                                          2\0 (0.

        Other ear, nos & throat diagnos age:. = 
                                                         2\0 (0.

        Major chest trauma age :.=70 and/or cc
                                                           2\0 (0.

        RespiratOlY signs & syptoms age ..70 w/o cc

                                                                                                          2\0 (0.)

 168    Proure on the mouth age:. =70 and/or cc                                                          2\0 (0.)

 1S9    Other digestive system diagnos age 18-69 w/o cc                                                  2\0 (0.)

 217    Wound debridement & skin graft except hand for musculoskeletal & connective tissue disorders     2\0 (0.
        Lol excision & removal of internal fIXtion devce of hip & femur                                  2\0 (0.)

 231    Lol exciion & removal of internal fIXtion devce except hip & femur                               2\0 (0.
 233    Other musuloskeletal sytem & connective tisue OR proure age:. =70 &/or cc                        2\0 (0.)

 245    Bone dis & septic arthropathy age ..70 w/o cc                                                    2\0 (0.

 253    Fracture, sprains, strains & disloctions of upper arm, lower leg except foot age :.=70 &/or cc   2\0 (0.

        Trauma to the skin , subcutaneous tisue & bret age:' =70 &lor cc
                                                                                                         2\0 (0.)

 302    Kidney transplant
                                                                                                         2\0 (0.

 324    Urinary stones age ..70 w/o cc

                                                                                                         2\0 (0.

 338    Testes proures, for malignancy                                                                   2\0 (0.)

 354    Non-radical hysterectomy age:. =70 and/or cc

                                                                                                         2\0 (0.
 355    Non-radical hysterectomy age ..70 w/o cc
                                                        2\0 (0.)

        Myeloproliferative disrder   or porly diferentiated neoplasm   with minor OR proure
             2\0 (0.)

 41S    Postoprative & pot- traumatic infections
                                                        2\0 (0.)

        Hyprtensive encephalopathy

                                                                                                         3\0 (0.
       . Neurological eye disorders                                                                      3\0 (0.
            oc head & neck procures                                                                      3\0 (0.
        Epistas                                                                                          3\0 (0.
 105    Cardiac valve procure with pump &      w/o cardiac catheterition                                 3\0 (0.
 115    Permanent cardiac pacemaker implant with AMI or CHF
                                             3\0 (0.
 146    Rectal retion age:. =70 and/or cc
                                                               3\0 (0.
 159    Hernia proure     except inguinal & femoral age:. =70 and/or cc
                                 3\0 (0.
 179    Infammatory bowel disese
                                                                        3\0 (0.
        Disorders of the bilary tract age ..70 w/o cc                                                    3\0 (0.
 219    Loer exremity & humerus procures except hip, foot, femur age 1S-69 w/o cc
                       3\0 (0.
 225    Foot proures
                                                                                    3\0 (0.)

 228    Ganglion (hand) proures
                                                                         3\0 (0.)

 249    Aftercare, musuloskeletal sytem & connective tisue
                                              3\0 (0.)

 261    Brpst proure for non-malignancy except biopsy & locl         excision
                           3\0 (0.)

 271    Ski ulcers

                                                                                                         3\0 (0.)

 283    Minor skin disrders age:. =70 and/or cc

                                                                                                         3\0 (0.
 290    Thyrid procures
                                                                                 3\0 (0.)

        Minor bladder procures age:. =70 and/or cc
                                                      3\0 (0.
        Lymphoma or leukemia with major OR procure
                                                      3\0 (0.
        Lymphoma or leukemia age 1S-69 w/o cc
                                                           3\0 (0.
        Intraocr   proure    except retina , iri & lens
                                                 4\0 (0.
 172    Digestive malignancy age:. =70 and/or cc

                                                                                                         4\0 (0.)

       Upper exremity procure except humeru & hand age:. =70 and/or cc
                                  4\0 (0.
247    Signs & syptoms of musuloskeletal sytem & connective tissue
                                      4\0 (0.
341    Penis proure
                                                                                     4\0 (0.
350    Inflmmation of the male reproductive system
                                                      4\0 (0.)

443    Other OR procure for injuries age ..70 w/o cc
                                                    4\0 (0.
113    Amputation for circulatory system disorders except upper limb & toe
                              5\0 (0.
128    Dep vein thrombophlebitis
                                                                        5\0 (0.
134    Hyprtension
                                                                                      5\0 (0.
157    Anal procures age:. =70 and/or cc                                                                 5\0 (0.
15S    Anal proures age ..70 w/o cc
                                                                     5\0 (0.
1Sl    Gastrointestinal Obstruction age ..70 w/o cc

                                                                                                         5\0 (0.
21S    Lower exremity & humerus proure except hip, foot , femur age:. =70 &/or cc
                       5\0 (0.
325    Kidney & urinary tract signs & symptoms age :'=70 and/or cc
                                      5\0 (0.
356    Female reproductive system recnstructive      procures
                                           5\0 (0.
       Craniotomy age :.=lS except     for trauma
                                                       6\0 (0.
       Nervous system neoplasms age :.=70 and/or cc

                                                                                                         6\0 (0.
       Lens proures
                                                                                     6\0 (0.
129    Cardiac arrt
                                                                                     6\0 (0.
205    Disorders of liver except malignancy, cirrhosis , alcoholic hepatitis age :.=70 and/or cc
        6\0 (0.
       Bone disese & septic arthropathy age:. =70 and/or cc
                                             6\0 (0.
35S    Uteru & adnex procure for non-malignancy         except tubal interrpt

                                                                                                         6\0 (0.
       Major chest procures
                                                                             7\0 (0.
160    Hernia procure except inguinal & femoral age 1S-69 w/o cc
                                        7\0 (0.
 27S       Cellulitis age 1S-69 w/o cc

 316       Renal failure w/o dialyis
                                                                         7W (0.
           Exracrnial vasular proure
                                                                         7\0 (0.
- 131
     Peripheral vascular disrders age ..70 w/o cc

                                                                                                              8\0 (0.
                                                                                                              S\O (0.)

 257       Tota mastectomy for malignancy  age     =70 and/or cc

 321       Kidney & urinary tract infections age 1S-69 w/o cc
                                                9\0 (0.
                                                                                                              9\0 (0.)

           Fracture of hip & pelvs
                                                                                                            10\0 (0.
 116       Permanent cardiac pacemaker implant w/o AMI or CHF

                                                                                                            14\0 (0.
 395       Red bloo cell disrders age            =lS
                                                       14\0 (0.)

 123       Circulatory disorders with AMI, exire

 410       Chemotherapy
                                                                                    250 (0.
                                                                                                            34\0 (0.
           Major joint proures

                                                                                                            55\1 (l.
 140      Angina petori

                                                                                                            S9\2 (2;2)
           Spefic cerebroasular disrders except tia
 336
                                                                                                            75' (2.
          Transurethrl protatectomy age            =70 and/or cc                                            31\1 (3.
 337      Transurethral protatectomy age ..70 w/o cc
          Respiratory infections & inflammations age         =70 and/or cc
                                                                                                            29   (3.4)
 106
 294
          Coronary
          Diabetes age
                            bywith cardiac catheterition
                            =36
                                                                                                            23\1 (4.
                                                                                                            17\1 (5.
                                                                                                            17\1 (5.
          Transient ishemic attacks
 296      Nutritional & miscllaneous metabolic disorders age                                                47\ (6.
                                                                     =70 and/or cc                          44\3 (6.
 239      Pathological fracture & musuloskeletal malignancy
                                                                                                            14\1 (7.
 125      Cirulatory disrders except AMI, with cardiac catheterition without complex diagnosis
          Simple pneumonia & pleurisy age           =70 and/or cc
                                                                                                            2S   (8.0)
 107      Coronary
          Pulmonary embolism
                            by   w/o cardiac catheterition
                                                                                                            74\6 (S.
                                                                                                            12\1 (S.
                                                                                                           11\1 (9.

          Bronchitis & asthma age           =70 and/or cc

                                                                                                           63\6 (9.

 127      Heart failure & shock

                                                                                                         133\13 (9.

 215      Back & neck proures age ..70 w/o cc

                                                                                                          10\1 (10.)

          Seizure & headache age    =70 and/or cc
                                                                                                          20\2 (10.
122       Circlatory disorders with AMI w/o CV complications discharged alive
                                                                                                          30\3 (10.)

475       Respiratory sytem diagnosis with ventilator
                                                                                                          19\ (10.

197       Total cholectectomy w/o CDE Age              =70 and/or cc
                                     1S\2 (11.)

148       Major small & large bowel procures       age      =70 and/or cc
                                33\4 (12.
174       Gastrointestinal Hemorrhage age           =70 and/or cc
                                        33\4 (12.
311       Transurethral proures age ..70 w/o cc

                                                                                                           S\l (12.

415       OR proure for infectious & paraitic disese

                                                                                                           S\l (12.

112       Vascular procures except major recnstruction

                                                                                                          32\4 (12.5)
143                pain 

            9est
121        Ircu atory        ISO!' ers Wit
                                         AMI
         comp lcatlons ISC arg a       Ive
                                                                                                          32\4 (12.5)
                                                                                                          38\5 (13.
243      Medical back problems

                                                                                                          22\3 (13.
214      Back & neck         proure    age    =70 and/or cc

                                                                                                           7\1 (14.

303      Kidney, ureter & major bladder procure for neoplasm

                                                                                                           7\1 (14.

310      Trnsurethral procures age             =70 and/or cc

110      Major renstructive vascular procure age              =70 and/or cc

                                                                                                           7\1 (14.

                                                                                                          21\ (14.

130      Peripheral vascular disorders age         =70 and/or cc                                          13\2 (15.
442      Other OR           proure  for injuries age   =70 and/or cc                                      13\2 (15.4)
138      Cardiac arrhythmia & conduction disrders age            =70 and/or cc                            45\7 (15.
139      Cardiac arrhythmia & conduction disorders age ..70 w/o cc
                                                                                                          19\ (15.

416      Septicemia age          =lS                                                                      31\5 (16.
25S      Total mastectomy for malignancy age ..70 w/o cc
                                                                                                           6\1 (16.

142      Syncope & collaps age ..70 w/o cc
162      Inguinal & femoral hernia        proure age 1S-69 w/o cc
                                                                                                          12\ (16.

                                                                                                          12\2 (16.
         Respiratory neoplasms
                                                                                                          24\4 (16.
210      Hip & femur         proure
                                  except major joint age     =70 and/or cc                                23\4 (17.4)
154      Stomach , esphageal & duodenal          proure  age  =70 and/or cc                               11\2 (lS.
124      Circulatory disrders except AMI with cardiac catheterition & complex diagnosis
                                                                                                          21\4 (19.
1S2      Esphagitis , gastronteritis & miscllaneous digestive       disorders age         =70 &/01' cc
         Seizure & headache age 1S-69 w/o cc
                                                                                                         6613 (19.
                                                                                                           5\1 (20.

109      Cardiothoracic procures w/o pump
                                                                                                           5\1 (20.

150      Peritoneal adhesiolysis age       =70 and/or cc
161      Inguinal & femoral hernia procures age                                                            5\1 (20.)
                                                         =70 and/or cc                                     5\1 (20.

315      Other kidney & urinary tract OR procures
                                                                                                           5\1 (20.

331      Other kidney & urinary tract diagnos age         =70 and/or cc                                    5\1 (20.

39S      Reticuloendothelial & immunity disorders age       =70 and/or cc                                  5\1 (20.

         Disorders of pancres except malignancy

                                                                                                         10\2 (20.
320      Kidney & urinary tract infections age       =70 and/or cc                                       40\8 (20.)

141      Syncope & collaps age          =70 and/or cc                                                    19\4 (21.)

         Diseuilbrium
                                                                                                          9\ (22.

195      Total cholectectomy with CDE Age               =70 and/or cc                                     9\2 (22.





                                                                                    " 1

  359	     Tubal interrption for non-malignancy
                                                                                                             9\2 (22.

  452      Complications of tretment    age;: =70 and/or cc

                                                                                                             9\ (22.

  1S3      Esphagitis , gastronteritis & miscllaneous digestive disorders age 1S-69 w/o cc

- 36	      Retinal   proure                                                                                 22\5 (22.
                                                                                                             4\1 (25.

           Otitis media & upper repiratory infection age    1S-69 w/o cc
                                                                                                             4\1 (25.

  177	     Uncomplicated peptic ulcer ;:=70 and/or cc
                                                                                                             4\1 (25.

           Other musuloskeletal system & connective tisue OR proure age c:70 w/o cc
                                                                                                             4\1 (25.

  254     Fracture, sprains ,
                        strains & disloctions of upper ann, lower leg except foot age 1S-69 w/o cc
                                                                                                             4\1 (25.

  461     OR proure with diagnos of other contact with health servce
                                                                                                             4\1 (25.

          Aftercare w/o history of malignancy as   sendary diagnosis                                         4\1 (25.

          Respiratory infections & inflammations age 1S-69 w/o cc

                                                                                                             S\2 (25.
  '17      Disorders of the bilary tract age;: =70 and/or cc

                                                                                                             S\2 (25.
  188    - Other digestive sytem diagnos age;: =70 and/or cc

                                                                                                            11\3 (27.
  449      Toxc effects of drugs age ;:=70 and/or cc

                                                                                                             7\ (28.

  297      Nutritional & misllaneous metabolic disrders age 1S-69         w/o cc

                                                                                                            14\4 (28.

          Unrelated or   proure                                                                             21\6 (28.

          OR proure on the repiratory sytem except major chest with cc

                                                                                                            10\3 (30.

          Carpl tunnel relea

                                                                                                             3\1 (33.3)

          Pleurl effusion age ;:=70 and/or cc

 111      Major renstructive vasular      proure age c:70 w/o cc
                                            3\1 (33.


 155      Stomach, esphagea & duodenal      proure age 1S-69 w/o cc
                                         3\1 (33.


 170      Other digestive sytem   prour        age ;:=70 and/or cc

                                                                                                             3\1 (33.

                                                                                                             3\1 (33.

 176      Complicated peptic ulcer

                                                                                                             3\1 (33.

          Protatecomy age;: =70 and/or
                                                                                                             3\1 (33.

 332      Other kidney & urinary tract diagnos age 1S-69      w/o cc

                                                                                                             3\1 (33.3)

 450      Toxic effects of drugs age 1S-69 w/o cc

                                                                                                             3\1 (33.

          Degenerative nelVous sytem disrders

 149      Major small & large boel     proure  age c:70 w/o cc

                                                                                                             6\ (33.

                                                                                                            6\ (33.

 175      Gastrointestinal Hemorrhage age c:70 w/o cc

 '13                                                                                                        6\ (33.

          Malignancy of hepatobilary system or pancreas

 263      Skin grafts for skin ulcer or cellulitis age;: =70 and/or cc
                                     6\ (33.3)
 419      Fever of unknow origin age;: =70 and/or cc
                                                       6\ (33.3)
                                                                                                            6\ (33.

 180      Gastrointestinal Obstruction age;: =70 and/or cc

                                                                                                           15\5 (33.
          Pulmonary edema & repiratOl)' failure
                                                                                                           '1\7 (35.

         Bronchitis & asthma age 1S-69 w/o cc

                                                                                                           14\5 (35.
 277     Cellulitis age ;:=70 and/or cc

                                                                                                           19\7 (36.
 104     Cardiac valve procure with pump & with cardiac catheterition

                                                                                                            5\2 (40.

 144     Other circulatory diagnos with cc

                                                                                                           10\4 (40.)

 19S     Total cholectectomy w/o CDE Age c:70 w/o cc

                                                                                                           10\4 (40.
         Chronic obstructive pulmonary disease
                                                                                                           21\9 (42.
 211	    Hip & femur procures except major joint age 1S-69 w/o cc

                                                                                                            9\4 (44.4)

         Simple pneumonia & pleurisy age 1S-69 w/o cc

                                                                                                          22\10 (45.
         Otitis media & uri age;: =70 and/or cc

         OR proure on the respiratory system except major chest w/o cc
                                     2\1 (50.

                                                                                                            2\1 (50.

 135     Cardiac congenital & valvular disorders age;: =70 and/or cc

                                                                                                            2\1 (50.

 151     Peritoneal adhesioIyis age c:70 w/o cc

216      Biopsies of musculoskeletal sytem & connective tissue
                                             2\1 (50.)
222      Knee  proure    age c:70 w/o cc

                                                                                                            2\1 (50.


                                                                                                            2\1 (50.

241      Connective tisue disrders age c:70 w/o cc

                                                                                                            2\1 (50.

         Tendonitis, myositis & bursitis

270      Other skin, subcutaneous tissue & brest OR procure age c:70 w/o cc
                                2\1 (50.)
                                                                                                            2\1 (50.

         Minor skin disorders age c:70 w/o cc

299      Inborn errors of metabolism
                                                                       2\1 (50.)
                                                                                                            2\1 (50.

305      Kidney, ureter & major bladder procure for non-malignancy age c:70 w/o cc

440      Wound debridements for injuries 
                                                                  2\1 (50.)
                                                                                                            2\1 (50.

455      Other injuries , poisonings & toxic effects diagnosis age c:70 w/o cc

462      Rehabiltation
                                                                                     2\1 (50.)
                                                                                                            2\1 (50.

473      Acute leukemia w/o major or procure age;:17

                                                                                                           2\1 (50.

         NelVous sytem neoplasms age c:70 w/o cc

         Cranial & peripheral nelVe disorders age;: =70 and/or cc
                                         4\2 (50.)
                                                                                                           4\2 (50.

101      Other respiratory diagnos age;: =70 and/or cc

                                                                                                           4\2 (50.

191      Major pancreas, liver & shunt procures

                                                                                                           4\2 (50.

         Malignancy, male reproductive sytem, age;: =70 and/or cc

                                                                                                           4\2 (50.

421	     Viral ilnes age ;:=lS
                                                                                                           6\ (50.

         Other disorders of nelVous system age;: =70 and/or cc

403	                                                                                                       S\ (60.

         Lymphoma or leukemia age ;:=70 and/or cc
                                                                                                           5\3 (60.

         Respiratory signs & syptoms age ;:=70 and/or
                                                                                                           S\5 (62.5)
1 '1     Other OR proures on the circulatory sytem
                                                                                                           3\2 (66.
1S5      Dental & oral disse except exractions & restorations age ;:=lS
                                                                                                           3\2 (66.

413      Other myeloproliferative disorder or porly differentiated neoplasm diagnosis age;: =70 &/or cc
                                                                                                           3\2 (66.

  132	   Atheroslerois age :: =70 and/or    cc

                                                                                          4\3 (75.

         Traumatic stupor & coma , coma oe 1 hr age :: =70 and/or cc

         Miscllaneous ear, nos & throat proure
                                          1\1 (100.)
                                                                                         1\1 (100.

- 92     Interstitial lung disese age ::=70 and/or cc
                                                                                         1\1 (100.

         Interstitial lung disse age oe70 w/o cc

                                                                                         1\1 (100.

  133    Atherolerois age :'70 w/o cc

                                                                                         1\1 (100.

  136    Cardiac congenital & valvular disorders age 1S-69 w/o cc

         Hepatobilary diagnostic proure for non-malignancy                               1\1 (100.

                                                                                         1\1 (100.

         Connective tisue disorders age ::=70 and/or cc

                                                                                         1\1 (100.

 265	    Skin grafts except for skin ulcer or cellulitis with cc
                                                                                         1 \1 (100.
         Skin , subcutaneous tissue & breast plastic proures

                                                                                         1\1 (100.

 307     Prostatectomy age oe70 w/o cc

                                                                                         1\1 (100.

 335     Major male pelvc proures     w/o 
                                              1\1 (100.

         Benign protatic hyprtrophy age :: =70 and/or 

                                                                                         1\1 (100.

 365     Other female reprouctive sytem OR proures

                                                                                         1\1 (100.

         Malignancy, female reprouctive   sytem age :: =70 and/or cc
                    1\1 (100.

 367     Malignancy, female reproductive system age oe70 w/o cc

                                                                                         1\1 (100.

 401     Lymphoma or leukemia with minor OR procure age :: =70 and/or cc

                                                                                         1\1 (100.

         Myeloproliferative disorder or neoplasm with major OR proure &
                                                                                         1\1 (100.

 463     Signs & syptoms with cc
                                                                                         1\1 (100.

         Nontrumatic stupor & coma
                                                                                         2\ (100.

 117     Cardc pacemaker replace & reion except puls generator replacement    only
                                                                                         2\ (100.

 145     Other circulatory diagnos w/o
                                                                                         2\ (100.

 153     Minor small & large boel proures age oe70 w/o cc
                                                                                         2\2 (100.

 213     Amputations for musculoskeletal system & connective tisue disrders
                                                                                         2\2 (100.

 453     Complications of treatment age oe70 w/o cc
                                                                                         3\3 (100.


         Total
                                                                                     2451\31 (14.
Appendix 22: Mean weight, dollar change, and estimated national financial effect by DRO , 1988

          DRO desription                                                                Mean chan2e t standard errr          National effect
                                                                                        Relative weight                      ($1, 00)

          Craiotomy age           =lS except for trauma
                                00 t 0.                o t 0
                o t 0

          Craniotomy for trauma age            =lS                                      00 t 0.                o to                  o t 0

          Spinal   proure                                                               00 t 0.                o t 0
                o t 0

          Exracranial vasular       proures                                             00 t 0.                o t 0
                o t 0

          Carpl tunnel relea                                                            0270 t 0.0270        84t84            S32 t S32

         Peripheral & cranial nelVe age            =70 and/or cc                        00 t 0.                o t 0
               o t 0

         Peripheral & cranial nelVe         proure age 0:70 w/o cc                      00 t 0.                o to                 o t 0

         NelVous sytem neoplasms age   =70 and/or cc                                    00 t 0.                o t 0
               o t 0
         NelVous sytem neoplasms age c:70 w/o cc                                      1481 t 0. 1036      461 t 322
        095 t 4   263
         Degenerative nelVous sytem disrders                                      -0. 1054 t 0. 0679      328 t 211
        509 t 4   195
         Multiple sclerois & cerebellar ataa                                            00 t 0.                o t 0
               o t 0
         Spefic cerebroasular disorders except tia                                      017S t 0.0281        59 t 86
      80 t 21, 381
         Transient ishemic attacks                                                      0455 t 0.0395     138 t 122
       539 t 19   033
         Nonspeific cerebroasular with cc                                               00 t 0.                o t 0
               o t 0

         Nonspeifc cerebroasular disrders w/o                                           00 t 0.                o t 0
               o t 0

         Peripheral nelVe age   ;"70 and/or cc                                    -0. 136    t 0.         -425 t 
          621 t 3,434
         Crnial & peripheral          nelVe age c:70 w/o cc                           00 t 0.                  o to                 o t 0

         Hypensive encephalopathy                                                     00 t 0.                  o to                 o t 0

         Nontraumatic stupor & coma                                                   20 t 0.2376         66 t 734          362 t 4,845
         Seizre & headache age   =70 and/or cc                                    -0. 0052 t 0.24            16 t 76
       062 t 5,019
         Seizure & headache age 1S-69 w/o cc
                                     -0. 0157    t 0.0157      -49 t 49
        -8 t 80

         Traumatic stupor & coma        1 hr                                          00 t 0.                  o to                 o t 0

         Traumatic stupor 0:1 hr age      =70 and/or cc                           -0. 24 t 0.               -650 t 0
             146 t 0

         Concusion age        =70 and/or cc                                           00 t 0.                  o t 0
               o t 0

         Concusion age 1S-69 w/o cc                                                   00 t 0.                  o t 0
               o t 0

         NelVous sytem age         =70 and/or cc                                  -0. 0591    t 0. 1383   120 t 392
        986 t 6,47S
         Other nelVous system age c:70 w/o cc                                           00 t 0.                o t 0
               o to
         Retinal procures                                                               0071 t 0. 0071      22t22            292 t 292

         Lens proures                                                                   00 t 0.                o t 0
               o t 0

         Exraocular procures            except orbit age   =lS                          00 t 0.                o to                 o t 0

         Intraocular      proureexcept retina , iris                                    00 t 0.                o t 0
               o t 0

         Acute major eye infections                                                     00 t 0.                o t 0
               o t 0

         Neurological eye disrders
                                                     00 t 0.                o t 0
               o t 0

         Other disorders of the eye age           =lS w/o cc
                           00 t 0.                o to                 o t 0

            jor head & neck proure                                                      00 t 0.                o t 0
               o t 0

         Salivary gland except sialoadenectomy                                          00 t 0.                o t 0
               o t 0

         Sinus & mastoid        proureage   =lS                                         00 t 0.                o t 0
               o t 0

         Miscllaneous ear, nos & throat procures                                        1561 t 0.           411 t 0
              35S t 0

         Ear, nos & throat malignancy                                                   00 t 0.                o t 0
               o t 0
         Disuilbrium                                                                    0175 t 0.0116       54 t 36
       619 t 1    071
         Epistas                                                                        00 t 0.                o t 0
               o t 0

         Otitis media & uri age   =70 and/orcc                                    -0. 0334   t 0.0334       -87 t S7
        580 t 580

         Otitis media & uri age 1S-69 w/o cc                                            019S t 0. 019S      61 t 61
         S16 t S16

         Nasl trauma & deformity                                                        00 t 0.               o t 0
                o t 0

         Other ear,   nos & throt diagnos age              =lS                          00 t 0.               o t 0
                o t 0

             or chest     procures                                                      00 t 0.               o t 0
                o t 0
         OR repiratory except major chest with cc                                 -0. 2452   t 0. 1329    764 t 414
      227 t 13    673
         OR procure on the respiratory except chest w/o cc                              045 t 0.045       122 t 122
         80 t 80
         Pulmonary embolism                                                             0542 t 0. 0542    142 t 142
       186 t 5    186
         Respiratory infections age          =70 and/or cc                        -0.   038 t 0.38        120 t 120
       174 t 9, 174
         Respiratory infections age 1S-69 w/o cc
                                 0.870 t 0.940           271 t 293
       15S t 7    737
         Respiratory neoplasms                                                    -O. 09S2   t 0.0494     30 t 154
     24, 24 t 12
         Major chest trauma age           =70 and/or cc                                 00 t 0.               o t 0
                o t 0

         Major chest trauma age c:70 w/o cc                                             00 t 0.               o to                  o t 0

                            =70 and/or cc
         Pleural effusion age                                                     -0. 0410 t 0. 0410      108 t 108
       069 t 1    069
         Pulmonary edema & repiratory failure                                     -0. 1915 t 0.           570 t 
         671 t 13    643
         Chronic obstructive pulmonary disese                                     -0. 003 t 0. 0540        22 t 168
      572 t   11 647
         Simple pneumonia age            =70 and/or cc                                  042 t 0.024        134 t 74
      S32 t   1S 153
         Simple pneumonia age 1S-69 w/o cc                                              242 t 0.756
      704 t 205
      15S t   14, 955
         Interstitial lung disese age         =70 and/or cc                       -0. 4557 t 0.             420 t 0
              689 t 0

         Interstitial lung   dise age c:70 w/o cc                                 -0. 041 t 0.              143 t 0
          -474 t 0

         Pneumothora age           =70 and/or cc                                      00 t 0.                 o t 0
                o t 0

         Pneumothora age c:70 w/o cc                                                  00 t 0.                 o t 0
                0 t 0
         Bronchitis & asthma age           =70 and/or cc                          -0. 00 t 0. 0104           2 t 30
       447 t 6
         Bronchitis & asthma age 1S-69 w/o cc
                                          0570 t 0.0356     168 t 107
       794 t 4    948



                                                                            '\4
          Respiratory signs age  =70 and/or cc                                    2896 t 0. 1515     80 t 397
            229 t 10       496
 100      Respiratory signs & syptoms age c:70 w/o cc                            00 t 0.                     o t 0
                 o t 0

 101      Other repiratory age   =70 and/or cc                              -O. 089S   t 0.0703      279 t 219
             694 t 2,S95
- 102
    Other repiratory diagnos age c:70                                      00 t 0.                     o t 0                  o t 0
  104     Cardiac valve with pump & cardiac catheterition                        5763 t 1. 2239     914 t 3 S16       -81 09 t 62
  105     Cardiac valve with pump & w/o cardiac catheterition                    00 t 0.                     o t 0
                 o t 0

  106     Coronary byss with cardiac catheterition                          -0. 0739   t 0.0739      23 t 23           12, 92 t 12, 920
  107     Coronary byss w/o cardiac catheterition                                104 t 0. 104        326 t 326
           92 t 12,
  109     Cardiothoracic       proure
                                    w/o pump                                -0. 1777 t 0. 1777       554 t 554
             141 t 9, 141
  110     Major vascular age   =70 and/or cc                                -O. 21S9  t 0. 120       -6 t 376         -47, 295   t 26, 103
  111     Major renstructive vasular age c:70 w/o 
                              4693 t 0.4693     463 t 1,463            48 t 14
  112     Vasular procures except                 reconstruction
                0611 t 0. 0693     190 t 216             130 t 22, S12
  113     Amputation except upper limb & toe                                     00 t 0.                     o t 0
                 o t 0

  115     Cardiac pacemaker implant with AMI or CHF                              00 t 0.                     o to                   ot0
 116      Cardiac pacemaker implant w/o AMI or CHF                               00 t 0.                     o to                   o to
 117      Cardiac pacemaker replacement except pulse generator                   6697 t 0.S736     765 t 2,303         11, 656   t 15,
 11S      Cardac pacemaker generator replacement
                                00 t 0.                     ot0                    ot0
 120      OR   proure  on the circulatory sytem
                            -0. 3202 t 0. 3813     99S t 1, 188           88 t 11, 770
 121      AMI & CV complications discharged alive
                          -0. 0627 t 0. 0269        188 t Sl
           693 t 10       169
 122      AMI w/o CV complications disharged alive
                              0108 t 0. 034        25 t 103
           512 t 10       235
 123      Circulatory disrders with AMI, exired                                  00 t 0.                     o t 0
                 o t 0
 124      Circulatory except AMI with card catheterition
                   -0. 0396 t 0. 0459       112 t 137
            777 t 9       559
 125      Circulatory except AMI with card catheterition
                        01S9 t 0.0197         5S t 61
            86 t 5 077
 126     Acute & subacute endocrditis
                                           00 t 0.                 o to                   o to
 127     Heart failure & shock
                                                  0491 t 0.0263        153 t Sl
        67, 522   t 35
 128     Deep vein thrombophlebitis                                              00 t 0.                 o to                       o t 0

 129     Cardiac   arrt
                                                         00 t 0.                 o t 0
                     o t 0

 130     Peripheral vasular age              =70 and/or cc
                      00 t 0.0071           22 t 1S
                 974 t 

 131     Peripheral vascular disorders age c:70 w/o cc                           00 t 0.                 o to                       o t 0

 132
 133
         Atherolerois age
         Atherolerois age
                                      =70 and/or cc

                                    -:70 w/o cc

                                                                           -0. 081 t 0. 0679         211 t 179
            788 t    2,3
                                                                           -0. 0745 t 0.               232 t 0
                   767 t 0
 134     Hyprtension
                                                            00 t 0.                 o to                       o t 0

 135     Cardiac congenital age              =70 and/or cc
                -0. 0123 t 0.0123           32 t 32               213 t 213

 136     Cardiac congenital age 1S-69 w/o cc
                                  2432 t 0.               75S t 0                    502 t 0

 138     Arhythmias age  =70 and/or cc                                     -0. 0190 t 0. 0215          59 t 66             80 t 9,938
 139     Arhythmia & conduction age -:70 w/o cc                                  04 t 0.0267          149 t S3             38 t 5 224
 140     Angina petori
                                                          0026 t 0. 0036          6 t 9             035 t 2,801
 141     Sycope & collaps age                 =70 and/or cc                      0126 t 0.0325        43 t 100             736 t 6      296
142      Sypcope & collaps age c:70 w/o cc                                       0217 t 0.0150         61 t 41             434 t 1,654
143      Chest pain                                                              06 t 0.041          199 t 150           08 t 15, S53
144      Other circulatory diagnos with cc                                 -0. 0586   t 0.0255        lS2 t 79             033 t 2      625
145      Other circulatory diagnos w/o                                           1995 t 0.331S     653 t 1    002          315 t 6      61S
146      Rectal restion     age        =70 and/or cc                             00 t 0.                 o t 0
                     o t 0

148      Loer GI procure age                =70 and/or cc                  -0.   06 t 0. 0784        201 t 221
       21, 952    t 24   142
149      Bowel   proure age c:70 w/o cc                                          701S t 0.3138      075 t 933
           09 t 1S,
150      Peritoneal adhesiolyis age               =70 and/or cc            -0.   23 t 0.232          742 t 742
          257 t 12, 257
151      Peritoneal adhesiolyis age -:70 w/o cc                                  5956 t 0. 5956    S57 t 1   S57         257 t 12 257
152      Minor   boel     proure       =70 and/or cc
                                            age                                  00 t 0.                 o t 0
                     o t 0

153      Minor   boel     proure age c:70 w/o cc                               1231 t 0.6545       383 t 2,040           532 t 13

154      Upper   GI  procure       =70 and/or cc
                                      age                                  -0. 3760 t 0. 2713       114 t S27
        -40 454 t 30 029
155      Upper   GI  proures age 1S-69 w/o cc                              -0. 3657 t 0. 3657       96 t 96                547 t 9 547
157      Anal  proure    age    =70 and/or cc                                    00 t 0.                 o t 0
                    o t 0

15S      Anal procure age c:70 w/o cc                                        00 t 0.                     o t 0
                    o t 0

159      Hern except inguinal age    =70 and/or cc                           00 t 0.                     o t 0
                    o t 0

160      Hernia except inguinal age 1S-69 w/o cc                             00 t 0.                     o to                      o t 0
161      Hernia procures      age           =70 and/or cc                   0.4967 t 0. 4967       548 t 1   548         554 t 25       554
162      Inguinal hernia procures             age 1S-69   w/o cc                 lS51 t 0. 1634     566 t 509            452 t 20, 164
164      Appendectomy age =70 and/or cc                                      00 t 0.                     o t 0
                    o t 0

168      Proure        on the mouth age     =70 and/or cc                    00 t 0.                     o to                      o t 0
170           proure
         Digestive                age   =70 and/or cc                      -O. 5S13   t 0. 5S13    S12 t 1   S12         943 t 17       943
172      Digestive malignancy age       =70 and/or cc                        00 t 0.                     o t 0
                    o t 0

173      Digestive malignancy age c:70 w/o cc                                00 t 0.                     o t 0
                    o t 0

174      GI hemorrhage age           =70 and/or cc                           06 t 0.                216 t 
              525 t 29, 276
175      GI Hemorrhage age c:70 w/o cc                                       1093 t 0.0691          34 t 215              746 t 4
176
177
         Complicated peptic ulcer
                                                   =70 and/or cc
                                                                           -0. 0273
                                                                                  t 0.0273            -85 t S5
            -8 t 844
         Uncomplicated peptic ulcer                                          0511 t 0.0511          134 t 134
            779 t 1, 779
I7S      Uncomplicated peptic ulcer c:70 w/o cc                              00 t 0.                    o to                       o t 0

179      Inflammatory bowel disese                                           00 t 0.                    o to                 . 0        t 0

180      GI Obstruction age          =70 and/or cc                         -0. 0714   t 0.0336       210 t 96
         10, 40    t 4 786
1Sl      GI Obstruction age ':70 w/o cc                                      00 t 0.                    o t 0
                     o t 0





                                                                    'i'i
  1S2      Upper gastrointestinal age:: =70 and/or cc                            0414 t 0.0341
  1S3
  1S5
          Uppe gastrointestinal dis
          Dental & oral except exractions
                                           age 1S-69 w/o cc
                      192 t 0. 1521
                                                                                                       129 t 106

                                                                                                       579 t 473

                                                                                                                     28, 120    t 23
                                                                                                                     42,054 t 34,
                                                                                                                                       133

                                             age ::=lS
                          5944 t 0.            S53 t 1211
        34 t l1 9S9
- 1S7
    Dental exractions & retorations
                                       00 t 0.                   o t 0
                  o t 0
 188      Other digestive diagnos age ::=70      and/or cc
                    0.887 t 0.670           271 t 
            S39 t 7      572
 1S9      Other digestive sytem age 1S-69 w/o cc
                                00 t 0.                   o t 0
                  o t 0
 191      Major pancreas, liver & shunt procures
                              1.514 t 0.667         313 t 1,       -43 732     t 25   424
 193      Bilal) tract procure age:: =70 and/or      cc
                         00 t 0.                   o to                    o t 0

 194      Bilal) . tract procure age c:70 w/o cc
                                00 t 0.                   o t 0
                  o t 0

 195      Cholectectomy & CDB age:: =70 and/or 
                              -0. 1338    t 0.0899     390 t 267
         5S3 t 7      931
 197      Cholectectomy w/o CDB age:: =70 or cc
                              -0.08 t 0.05S1           263 t 1Sl
        673 t 10, 751
 19S      Cholectectomy w/o CDB Age c:70 w/o cc
                                 30 t 0. 124           S76 t 359
        92 t 11 S7S
 199      Hepatobilal) proure for malignancy
                                    00 t 0.                   o to                    o t 0

          Hepatobilal) proure for non-malignancy
                                5521 t 0.               455 t 0
                80 t 0
 201      Hepatobilal) or pancre OR        proure                                00 t 0.                   o to                    o t 0

 202      Cirosis & alcoholic hepatitis
                                         00 t 0.
 203      Malignncy of hepatobilial) or pancre

                                                                                                           o t 0
                  o to
                                                                              -0. 1141 t   0.928      34 t 289
           S56 t 5      728
          Disrders of pancre except malignancy                                -0. 0631 t   0.0504      172 t 133
         696 t 4      420
 205      Liver except malignancy, age ::=70 and/or cc
                          00 t 0.                   o t 0
                  o t 0
 207      Bilial) tract age ::=70 and/or cc
                                     2628 t 0. 2626       S19 t SlS
     21, 633   t 21, 615
          Disrders of the bilal) tract age c:70 w/o cc
                          00 t 0.                   o t 0
                  o to
             or jrnnt procures
                                               -0. 0146 t 0. 0146        -45 t 45
      -8, 274 t S 274
 210      Hip proure except joint age:: =70 and/or cc
                        -0.0162 t 0. 0734        50 t 228
        833 t 17, 369
 211      Hip proure except joint age 1S-69 w/o cc
                              2521 t 0.            755 t 
         22, 44    t S 910
 213      Amputations for musuloskeletal
                                      0.3 t 0.               055 t S55
          967 t 5,
 214      Back & neck proure age ::=70 and/or cc
                             -0. 1455 t 0. 1455      -453 t 453
    10, 47S t 10 47S
 215      Back & neck procure age c:70 w/o cc
                                -0. 0422 t 0. 0422      131 t 131
       -4,3 t 4,3
 216      Biopsies of musculoskeletal
                                        -0. 0937 t 0. 0937      292 t 292
         927 t 1,927
 217      Wound debridement & skin graft except hand
                          1.0690 t 1.0690
      333 t 3,333     21, 99 t 21,
 21S      Loer exremity proure age:: =70 and/or cc
                             00 t 0.                    o to                   o t 0

 219      Loer exremity & humeru proure age 1S-69 w/o                  cc
      00 t 0.                    o t 0
                 o t 0

 221      Knee proures age:: =70 and/or        cc
                              00 t 0.                  o to
 222      Knee proure  age c:70 w/o cc
                                         0176 t 0.0176           46t46
                                                                                                                                  o t 0

                                                                                                                              305 t 305

         Upper exremity proure age:: =70 and/or            cc
                  1256 t 0. 1256        331 t 331
         370 t 4,370
 224     Upper exremity procure age c:70 w/o cc
                                00 t 0.                   o t 0
                  o t 0

         Foot proures
                                                          00 to.                    o to                    o t 0

 227     Soft tissue proures age c:70 w/o cc
                                   00 t 0.                   o t 0
                  o t 0

         Ganglion (hand) procures
                                              00 t 0.                   o to                    o t 0

         Lol excision internal fIXtion devce of hip & femur
                    00 t 0.                   o t 0
                  o to
 231     ybl excision except hip & femur
                                       00 t 0.                   o to                    o t 0

 232     Arhrospy
                                                              00 t 0.                   o t 0
                  o t 0

 233     Musuloskeletal OR proure age ::=70 and/or               cc
            00 t 0.                   o t 0
                  o t 0
         Musuloskeletal OR proure age c:70 w/o cc
                              0282 t 0.0282           88t88            162 t 1    162
 235     Fractures of femur                                                     00 t 0.
         Fracture of hip & pelvi
                                                                                                          o t 0
                  o to
                                                                                00 t 0.                   o to                    o t 0

237      Sprains, strains, & disloctions                                        00 t 0.                   o t 0
                  o t 0

         Osteomyelitis                                                          00 t 0.                   o t 0
                  o t 0

239      Musuloskeletal & connective tissue malignancy                          002 t 0.062
            19 t 19
              S97 t S97

         Connective tissue age:: =70 and/or cc
                                 193Ot 0.                601 t 0
                986 t 0

241      Connective tissue disorders age c:70 w/o cc                            2310 t 0. 2310        720 t 720
         753 t 4,753
242      Septic arthritis                                                       00 t 0.
243      Medical back problems
                                                                                                          o t 0
                  o to
                                                                                0169 t 0. 0145          52 t 45
        SlS t 3, 289
         Bone arthropathy age ::=70 and/or cc                                   00 t 0.                   o t 0
                  o t 0

245
     Bone & septic arthropathy age c:70 w/o cc                              00 t 0.                   o to                    o t 0

247
     Signs & syptoms of musculoskeletal                                     00 t 0.
         Tendonitis, myositis & bursitis
                                                                                                          o t 0
                  o to
                                                                              0.391 t 0.391          121 t 121
           80 t 80
249      Aftercare, musuloskeletal & connective tissue                         00 t 0.                    o t 0
                  o t 0

253      Fracture, sprains , strains & disloctions age ::=70 and/or cc         00 t 0.
254      Fracture , sprains , strains & disloctions age 1S-69 w/o cc
                                                                                                          o t 0
                  o to
257
                                                                               2917 t 0. 2917        90 t 90        12, 005   t 12, 005
         Total mastectomy age ::=70 and/or cc                                  00 t 0.                    o t 0
                  o t 0
25S      Mastectomy for malignancy age c:70 w/o cc                             0331 t 0.0331         103 t 103
         043 t 2 043
259      Mastectomy malignancy age ::=70 and/or 
                              00 t 0.                    o t 0
                 o t 0

261      Breast proure for non-malignancy except biopsy                        00 to.
262      Breast biopsy & excision for non-malignancy
                                                                                                          o t 0
                 o to
                                                                               00 t 0.                    o t 0
                 o t 0
263      Skin grafts for skin ulcer age:: =70 and/or cc                      -0. 2911   t 0. 2679    777 t 70S
        38 t 13 967
         Skin grafts for ulcer age c:70 w/o cc                                 00 t 0.                   o t 0
                  o t 0

265      Skin grafts except for ulcer or cellulitis with cc                  -0. 704 t 0.
         Skin, subcutaneous tissue & breast procures
                                                                                                       196 t 0
                24 t 0
                                                                             -0. 1336 t 0.             -416 t 0
          -1, 375 t 0
269      Skin , subcutaneous & breast procure age:: =70 and/or cc              00 t 0.                   o t 0
                  o t 0
270      Skin , subcutaneous & breat OR age c:70 w/o cc                      -0. 1020   t 0. 1020    317 t 317
         09S t 2    09S
  271        Skin ulcers
                                                                00 t 0.
  274
                                                                                                                 o to                  o t 0


  277
             Malignant brest age      =70 and/or cc
                                     00 t 0.                 o t 0
                o t 0

            Cellulitis age     =70 and/or cc
                                            1330 t 0. 1224     373 t 355
    23, 40   t 22,
- 27S
      Cellulitis age 1S-69 w/o cc
                                                 00 t 0.                 o t 0
                o t 0

            Trauma to skin, & brest age       =70 and/or cc
                             00 t 0.                o t 0
                 o t 0

  283       Minor skin disorders age      =70 and/or cc
                                 00 t 0.                o to                   o t 0
            Minor skin disrders age 0:70 w/o cc

                                                                                         144 t 0. 144       450 t 450
        971 t 2 971
  285       Amputations for endocrine & metabolic
                                       00 t 0.                o to                   o t 0

  287       Skin grafts & debridement for metabolic disorders
                           00 t 0.                o t 0
                 o t 0

  290       Thyrid proures                                                               00 t 0.
  292       Nutritional & metabolic OR proure age
                                                                                                                o t 0
                 o to
  294
                                                                   70 and/or cc          00 t 0.                o t 0
                 o t 0
            Diabetes age      =36                                                        0075 t 0.0075        23t23           320 t 1   320
  296 .     Nutritional & metabolic age =70 and/or cc                                    0019 t 0.0122
  297       Nutritional & metabolic age 1S-69 w/o cc

                                                                                                               1 t 35
        267 t 5   137
                                                                                         2107 t 0. 138      657 t 432
    30, :355 t 20 001
            Inborn errrs of metabolism

                                                                                         lS73 t 0. lS73     584 t 584
         S54 t 3 S54
            Endocne disrders age              =70 and/or cc                              00 t 0.                o t 0
                 o to
 301        Endocne disrders age 0:70 w/o cc                                             00 t 0.                o t 0
                 o t 0

 302        Kidney transplant                                                            00 t 0.
 303        Urinary tract proure for neoplasm
                                                                                                                o to                   o to
                                                                                    -0. 0438   t 0.0438     136 t 136
                  157
            Urinary proure non-malignancy age   =70 and/or cc                            00 t 0.
                                                                                                                              157 t 3

 305        Urinary proure for non-malignancy age 0:70 w/o cc
                                                                                                                o to                   o t 0
                                                                                    0.499 t 0.499         556 t 1   556     275 t 10, 275
            Protatecomy age   =70 and/or cc                                        -0. 1201 t 0. 1201      316 t 316
 307        Protatectomy age 0:70 w/o
                                                                                                                              134 t 3   134
                                                                                   -0. 005 t 0.                29 t 0
            Bladder proures age    =70 and/or cc                                         00 t 0.
                                                                                                                                     9S t 0
                                                                                                                o t 0

 310
       Transurethral proures age   =70 and/or cc
                             -0. 0287 t 0. 0287
                                                                                                                                      o t 0


 311
      Transurethrl proure
                                                                                                             -89 t S9        06 t 2
                                             age 0:70 w/o cc
                            20 t 0.           64 t 64          023 t 17    023
 315
       Other kidney & urinary tract OR proures
                               -0.   34 t 0.
         062 t 1,062
 316
                                                                                                                       531 t 17    531
           Renal failure w/o dialysis                                                    00 t 0.

 31S

                                                                                                                o to                  o to
 320

           Urinary tract neoplasms age           =70 and/or cc                           00 t 0.
               o t 0
                o t 0
           Urinary tract infections age          =70 and/or cc                     -0. 0392    t 0.0202     122 t 61
        132 t S, l25
321

323

           Urinary tract infections age 1S-69 w/o cc

                                                                                      00 t 0.                  o t 0
                 o t 0

           Urinary stones age         =70 and/or cc                                   00 t 0.                  o to
324
                                                                                                                                  o to
325

           Urinary stones age 0:70 w/o cc

                                                                                      00 t 0.                  o to                   o t 0

           Urinary tract signs age          =70 and/or cc                             00 t 0.                  o t 0
                 o t 0

331
       Other urinary tract age          =70 and/or cc
                         -0. 0311   t 0.0311       97 t 97
        602 t 1,602
332
       Urinary tract diagnos age 1S-69 w/o cc
                                    104 t 0. 104         326 t 326
        228 t 3    228
334
       Major male pelvic procures with 

335
       Major male pelvc procures w/o 

                                                                                     00 t 0.                   o t 0
                 o t 0

                                                                                     5157 t 0.               607 t 0
           30 t 0
336
        ?,nsurethral protatectomy age   =70 and/or cc                          -0. 0105 t 0. 0105        32 t 32
        36 t 3
337
       1;ransurethral protatectomy age 0:70 w/o cc
338
       Testes procure, for malignancy

                                                                                     0113 t 0.0113           29t29           845 t 2   845
339
       Testes proures , non-malignant age
                                                                                     00 t 0.                   o t 0
                 o t 0

                                                            =lS
                     00 t 0.
341
       Penis   proure
                                                           00 t 0.
                                                                                                               o t 0

                                                                                                               o to
                                                                                                                                     o t 0

                                                                                                                                     o t 0

342
                                 =lS

           Circumcision age
                                                                                     00 t 0.                   o t 0
                o t 0

           Malignancy, male reprouctive age   =70 and/or cc                       -0. 1227    t 0. 1194   323 t 314
         271 :t 4 155
           Protatic hyprtrophy age    =70 and/or cc
                                 242 t 0.
350       Inflmmation male reproductive sytem

                                                                                                             767 t 0
            533 :t 0
354
                                                                                     00 t 0.                   o t 0
                o t 0

          Non-radical hysteretomy age    =70 and/or cc
                              00 t 0.                   o t 0
                o t 0

355       Non-radical hysterectomy age 0:70 w/o cc
                                  00 t 0.                   o t 0
                o t 0

356       Female reprouctive renstructive            proures
                        00 t 0.                   o t 0
                O:t 0

357       Uteru & adnex procures malignancy

35S       Uteru & adnex procure for non-malignancy

                                                                                     00 t 0.                   o t 0
                O:t 0
359       Tubal interrption for non-malignancy

                                                                                     00 t 0.                   o to                  O:t 0

                                                                                     0870 t 0. 0576       271 t 179
        059 :t 5 330
363       D&C, coniztion & radio-implant malignancy                                  00 t 0.                   o t 0
                o t 0

365       Other female reproductive OR proures                                     1.077 t 0.
              453 t 0
               39S :t 0
          Malignancy, female reproductive age =70 or cc                              1469 t 0.
             45S t 0
               512 t 0

367       Malignancy, female reproductive age 0:70 w/o cc                            5435 t 0.
             694 t 0
               592 t 0

          Infections, female reproductive sytem
394       OR proure bloo & bloo forming organs
                                                                                    00 t 0.                   o t 0
                 o t 0


395       Red bloo cell age
                                                                                    00 t 0.                   o t 0
                 O:t 0
                              =lS                                                   00 t 0.                   o t 0
                 o t 0

397       Cogulation disorders                                                      00 t 0.                   o t 0
                 o t 0

39S       Reticuloendothelial age           =70 and/or cc                           0149 t 0. 0149          39 t 39
          650 t 650

399       Reticuloendothelial age 0:70 w/o cc

          Lymphoma or leukemia major OR procure
                                                                                    00 t 0.                   o t 0
                 o t 0


401       Lymphoma OR procure age
                                                                                    00 t 0.                   o t 0
                 O:t 0
                                      =70 and/or cc                               -0. 6495 t 0.             025 t 0

403                                                                                                                             683 t 0
          Lymphoma or leukemia age   =70 and/or cc                                -0. 3744 t 0. 1534      103 t 450

404       Lymphoma or leukemia age 1S-69 w/o cc                                                                             202 t 7   439
406       Myeloproliferative with major OR procure & cc
                                                                                    00 t 0.                   o t 0
                 o t 0

                                                                                    9735 t 0.               153 t 0
         20, 30   t0
          Myeloproliferative or neoplastic with minor OR procure                    00 t 0.
410       Chemotherapy
                                                                                                              o t 0
                O:t 0
                                                                                    00 t 0.                   o t 0
                o t 0

  413     Myeloproliferative or neoplasm age =70 or cc               6295 t 0.6540      970 t 2    035    19,510 t 20    147
  415     OR proure for infectious & parasitic                    -0.3252 t 0. 3252      -857 t S57       22, 64 t 22,
  416    Septicemia age      =lS                                   0.207 t 0.0740          64 t 23           616 t 23
- 41S	   Postoperative & pot-traumatic infections                    00 t 0.                   0 t 0                   0 t 0
 419     Fever of unknow origin age    =70 and/or cc              -O. 019S   t 0.0767     -61 t 239           220 t 4    734
 420     Fever of unknow origin age 1S-69 w/o cc                     00 t 0.                   0 t 0                   0 to
 421     Viral ilnes age         = 1S                                2911 t 0. 2374       88 t 740           504 t 14    65S
         Wound debridements for injuries                          -0. 861 t 0. 861      706 t 2, 706      17, 863   t 17, 863
 442     Other OR for injuries age=70 and/or cc
                  -0. 0163 t 0. 067        50 t 214           lS3 t 9    lS9
 443     OR proures for injuries age c:70 w/o cc
                    00 t 0.                  0 t 0                    0 t 0
 447     Allergic rections age          = 1S
                        00 t 0.                  0 t 0                    0 t 0
 449     Toxic effects of drugs age    =70 and/or cc                 0276 t 0.0327         88 t 101           036 t 2, 342
 450     Toxc effects of drugs age 1S-69 w/o cc                      1002 t 0. 1002       312 t 312           092. t 3
 452     Complications of tretment age      =70 and/or cc            22 t 0. 186          687 t 5S2          425 t 17 301
 453     Complications of trtment age c:70 w/o cc                     4903 t 0. 106       416 t 219           020 t 2 169
 455     Injuries, poisnings & toxc age c:70 w/o cc
                  0550 t 0.0550       171 t 171           131 t 1 131
 461     OR proure with diagnos of other contact
                     4370 t 0.4370     362 t 1, 362         9S7 t 17 9S7
 462     Rehabiltation
                                           -0. 6397 t 0. 6397    994 t 1,994          164 t 13 164
 463	    Signs & syptoms with cc
                                   442 t 0.                385 t 0                  571 t 0
         Signs & syptoms w/o cc
                                    00 t 0.                   0 t 0                    0 t 0
         Aftercre w/o history of malignancy
                        0454 t 0.0454         141 t 141           86 t 1
         Unrlated OR proure                                       -0.319 t 0.1434        128 t 447          196 t 30
 471     Multiple major joint proure of lower exremities            00 t 0.                   0t0                      0 t 0
 473     Acute leukemia w/o major OR procure age                  -0. 7123 t 0. 7123    220 t 2,            657 t 14     657
 474     Respiratory sytem with tracheotomy                         00 t 0.                   0 t 0                    0 t 0
 475     Respiratory with ventilator support                      -0. 2535   t 0. 138    790 t 430       -49 568    t 26 9S1
 476     Protatic OR proure unrelated to diagnosis                  00 t 0.                   0 t 0                    0 t 0

         Total                                                      0023 t 0.0070            7 t 21        401 t 173     214




                                                            4:R
Appendix 23: HCF A comments
  ...


                                                                                Health Care
              DEPARTMENT OF HEALTH & HUMAN SERVICES                             Financing Administration


"'''10
                                                                                Memorandum
               MAY 2 9 

   Date

  From         Wilam Toby; Jr.

               Actig Admintrtor

  Subject
              OIG Draft Report: "National DRG Valdation Study Update: Summary

              Report" (OEI- 12- 89-O190) and "National DRG Valdation Study Update:

              Technical Report" (OEI- 12-89-O191)


              Inspector General
              Offce of the Secretary

                      We have reviewed the above-referenced   dr   report which are

              updates to a previous OIG study which re-abstrctd the International

              Clasification of Diseaes 9th Edtion, Clica Modcation coes from a

              saple of 1985 Medicae discharges. Thes report update the previous study

              by: replicating the 1985 work oncog   accuracy using 1988 data comparg

              the findings from 1985 and 1988, and identig pattrns of     cog
              the Prospectie Payment System (PPS) changes cold mod. The saple

                                                                              errors that

              was nationally representative and covered al of caenda yea 1988, the most

              recnt year for which data were available.

                     OIG found a signifcat improvement in hosita      cog  of PPS cas
            , between 1985 and 1988. In the 1985 study, OIG found that 20. 8 percent of
            . 1985 Par A bil contaed     cog   errors that changed the diosc     related
              group (DRG) and that 61. 7 percent of thes errors over-reimbursd the
             hospitals. This improper DRG cog incread tota PPS diurments 

               9 percent or $308  mion. Durig the 1988 study, OIG found that

             14. 7 percent of the diharges had-DRG cog             percnt of DRG

                                                              errors 51
             errors over-reimbursed the hospita and 49 percnt     under-reimburd the

             hospita. Taken together, the   1988 DRG errors rested in no net

             overpayment of hospita.


                   We believe thes report are a useful addition to the contiuing
                                       cae mi change among hosita paid under PPS.

            . research and evaluation of
             We agree with OIG' s recommendation that Peer Review Organtions

             contiue their surveilance of hospita cong of DRG reimbursment

             accuracy. Our detailed comments on these two report are attcbed for your

             consideration.

Page 2 - Inspector General

       Thank you for the opportnity to review and comment on these draft
report. Please advise us if you agree with our position on the report'
recommendation at your earliest convenience.


Attachment
.'




                 Comments of the Health Care Financing Administration (HCFA)
                on OIG' s Draft Reports: "National DRG Validation Study Update:
                Summary Report" OEI- 12- 89- 00190 and " National DRG Validation
                       Study Update: Technical Report" OEI- 12- 89- 00191


        OIG Recommendation

        The Peer Review Organizations (PROs) should continue their surveilance of
        hospital coding for DRG reimbursement accuracy.

        HCF A Response


       We agree. The PROs wil continue their surveilance of hospital coding of
       diagnostic related group (DRG) reimbursement accuracy.

       We are pleased to note the decrease in DRG coding errors identifed by the
       1988 study, as compared to the 1985 study. We believe this improvement may
       be attributed to a combination of factors including increased hospital
      , experience under the prospective payment system (PPS), the impact of PRO
        review and the effect of HCFA educational efforts to enhance coding accuracy.

       General Comments

       Summary Report. OEI- 12- 89- 00190
     1 This 

            report includes a brief but excellent description of the payment process
       including the role of coding. Three tyes of errors are defined at each stage of
       the payment process. However, no statement is made as to whether or not the


       report.
       errors are mutually exclusive,   and if the 361 records with errors contained only
       1 of each tye. We believe this information should be included in the final


      Although the representativeness of the sample is thoroughly addressed , there is
      no discussion as to how adequately each DRG is represented. We would like
      to know how the distribution by DRG of the sample relates to the universe of
      DRGs , and if any correlation exists between high volume DRGs and errors
      the sample. Also , we note that most hospitals contributed only one discharge
      to the sample. We question whether it is statistically valid for
      1 record in 1 hospital to represent 3 300 other records in the total population
      of records.



      It is not made clear in the report how payment projections are calculated. The
      amount used to estimate payment is not stated, although mention is made
                                   - "




  Page 2


 of using a rate of $3 118 for metropolitan hospitals and $2 637 for
 nonmetropolitan hospitals (page 29, Technical Report). It is stated that these
 are "current dollars " but there is no discussion as to the actual figures used to
 project payment amounts. While the calculation for case-mix index (CMI) is
 clearly defined , as is the DRG difference before and after coding, it is not
 clear how the payment amount is determined. The final report should include
 a more complete description of payment calculation.

 Executive Summary, page ii DRG coding errors, overall, no longer over-

 reimburse hospitals. " The figure for under-reimbursements is stated to be

      588.0 bilion. "   The   correct figure is $2 588 millon (also Executive
 Summary, page iii , Technical. Report).

 Findings , pages 5 , 9 - While it is unwise to ignore magnitudes and only pay

 attention to statistical significance, we do not believe effects that are not

 statistically significant should be highlighted. For example, the report notes
 that for-profit hospitals " over-reimburse themselves " but that "these results did
 not attain statistical significance " (also CMI discussion , pages 13 , 14, Technical
Report).

Findings , page 6 - The narrative incorrectly states     that the overall   CMI
decreased after the study s recoding. For hospitals to have underpaid

themselves , the CMI would have to increase after recoding, as is correctly

stated on page 13 of the Technical Report.

Findings , page 6, Figure 6 - The 1988 pie chart does not match the numbers in
the text immediately below the chart. The resequenced and miscoded pieces
of the pie do not represent the 27 percent and 9 percent respective figures and
may have been reversed in the pie chart.

Technical Report


      , not 476.
Introduction , page 1 , paragraph 3 - The original number of DRGs in 1983 was
470

Introduction, page 1, paragraph 4 - The narrative implies that there is a fiscal
intermediary for each State. The sentence should be rewrtten to state: "
fiscal intermediary receives the hospital bils for each State.
                                                                            ...




   Page 3


   Page 2 , paragraph 3 , under the heading "The HCFA. . . made the following
   points in commenting on the 1985 Study" - It was HCF A' s intent to point out
  that the 1985 study   was published in November 1987; and conclusions set forth
  in that report were based in part on information and coding conventions which
  had been updated by the time the report .was released. The phrasing "
  needed a longer learning period to adjust to the new payment and quality
  monitoring system "   does not encompass the concept that changes have been
  made to the whole International Classification of Diseases , 9th Edition , Clinical
  ModifcationlProspective Payment SystemlDRG system since its conception.
  Such changes and improvements continue to be made.

  Page 4 - We do not believe the data support some of the assertions and
  language which the report uses. For example, the report describes the findings
  of the earlier OIG report as showing "intentional. gaming . or manipulating (of
  the 1 coding process " by hospitals. The note cites unrelated sources while the
  earlier report used much more restrained language.

  The report consistently characterizes coding disagreements as provider " errors.
  A recent Rand study used charts re-abstracted at SuperPRO to examine the
  1987- 88 increase in the Medicare CM!. Rand estimated that changes in coding
  common to SuperPRO and hospitals accounted for almost one-third of the
  1987- 88 CMI increase. Since SuperPRO coders have no incentive to upcode
  this probably reflects changes in explicit and implicit coding rules between
  original coding (1987) and recoding (1988). While the CMI may increase
1 payments to hospitals will not. However
                                             , disagreements which may reflect the
  evolution of coding practice over time are not strictly provider " errors. " Rand
  and OIG studied slightly different problems , and the Rand findiIJg may be
 unique to 1988. However, since American Medical Records Association staff
 should be able to provide insight on this matter, we recommend that OIG
 explore and report on the question of whether the increase in the CMI is
 attributable to provider errors or the evolution of coding practices.

 Page 4, paragraph 3 - " Each year, the relative weights change to reflect
 alterations in resource consumption, DRG title, coding and. . .. " The change
 in relative weights is not related to the   title of the DRG.
.. . .        ' ..




         c.




                        Page 4


                        Page 10 - The report does not fid  net overpayment due to coding error.
                        Inclusion of a table of DRGs with "maxmum savings potential (to Medicare)"
                        due to upcoding, without a parallel table of DRGs with maxmum potential
                        payment increase , gives an impression of lack of balance. Financial impact
                        (savings) estimates could be presented in the context of the argument that
                        while " . . . trends to over-pay and under-pay approximately offset each other,
                        this equilbrium may not continue in the ' future.

                       Page 12 - OIG reports that coding errors (incidence of coding error capable
                       influencing DRG assignment) declined signifcantly between 1985 and 1988. .
                       While true , the report overstates the change. The 1985 report used a two-
                       stage sampling design and reported error rates for the nation of 20. 8 percent
                        (hospital-weighted) and 18. 6  percent (case-weighted). The update report finds
                       a 1988 error rate of   14. 7 percent but compares it to the 1985 hospital-weighted
                       statistic. The 1988 value, based on a simple random sample of cases, is
                       equivalent to a case-weighted statistic and should not be compared with
                       hospital-weighted value.

                       Page 15 - Some PPS details in the draft report are obscured. For example , the
                       report discusses " base payment amounts" when it means standardized amounts.
                       Discussion of reimbursement effects states that financial impacts "paralleled
                       CMI changes " when they are simply calculated from and are logically
                       equivalent to such changes.



                     " Appendix 5 - There appears to be an error for hospitals with 300 or more
                       beds. The response rate of 66. 8 percent should be changed to 48. 9 percent
                       (1, 199   responses of 2   451).

                       There is some disagreement between the narrative and the appendices. Table
                       9 ilustrates the number of records per DRG and the number miscoded.
                       Appendix 21 lists each DRG with the number of records selected and the
                       error frequency and the proportion of errors. Whle the number of records
                       selected is consistent between the table and the appendix the number of
                       errors is not. There is no indication why these numbers differ, the source
                       this data, or which is correct. However, the errors reported in appendix 21 do
                       total 361, the correct total for the study.
